<html>
<title> - FCC'S LOW POWER FM: A REVIEW OF THE FCC'S SPECTRUM MANAGEMENT RESPONSIBILITIES IN ADDITION TO H.R. 3439, THE RADIO BROADCASTING PRESERVATION ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




     FCC'S LOW POWER FM: A REVIEW OF THE FCC'S SPECTRUM MANAGEMENT 
                            RESPONSIBILITIES

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON TELECOMMUNICATIONS,
                     TRADE, AND CONSUMER PROTECTION

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 3439

                               __________

                           FEBRUARY 17, 2000

                               __________

                           Serial No. 106-118

                               __________

            Printed for the use of the Committee on Commerce



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
62-973                     WASHINGTON : 2000



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

   Subcommittee on Telecommunications, Trade, and Consumer Protection

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL G. OXLEY, Ohio,              EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               BART GORDON, Tennessee
PAUL E. GILLMOR, Ohio                BOBBY L. RUSH, Illinois
CHRISTOPHER COX, California          ANNA G. ESHOO, California
NATHAN DEAL, Georgia                 ELIOT L. ENGEL, New York
STEVE LARGENT, Oklahoma              ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JAMES E. ROGAN, California           RON KLINK, Pennsylvania
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ROY BLUNT, Missouri
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Franca, Bruce A., Deputy Chief, Office of Engineering and 
      Technology, Federal Communications Commission..............    14
    Fritts, Edward O., CEO, National Association of Broadcasting.    22
    Furchtgott-Roth, Hon. Harold W., Commissioner, Federal 
      Communications Commission..................................    52
    Jackson, Charles L., CEO, Jackson Telecom Consulting.........     8
    Klose, Kevin, President and CEO, National Public Radio.......    56
    Koning, Dirk, Executive Director, Grand Rapids Community 
      Media Center...............................................    48
    Maxon, David, Founder, Broadcast Signal Lab..................    31
    Rappaport, Theodore S., Professor, Virginia Tech.............    35
    Reese, Bruce T., President and CEO, Bonneville International 
      Corporation................................................    34
    Schellhardt, Don, National Coordinator, The Amherst Alliance.    41
Material submitted for the record by:
    Dymoke, Wesle AnneMarie, additional material for the record..   108
    Federal Communications Commission, response to questions of 
      Hon. John D. Dingell.......................................    82
    Klose, Kevin, President and CEO, National Public Radio, 
      letter dated March 6, 2000, to Hon. W.J. ``Billy'' Tauzin, 
      enclosing material for the record..........................   135
    Maxwell, Christopher, Secretary/Treasurer, The Virginia 
      Center for the Public Press:
        Prepared statement of....................................    90
        Counter-reply testimony..................................   139
    Michigan Music Is World Class Campaign, prepared statement of    85
    Noble, David, President, International Association of Audio 
      Information Services on Low Power FM Radio, prepared 
      statement of...............................................    87
    PenguinRadio, Inc., prepared statement of....................    88
    Salida Radio Club, prepared statement of.....................    89
    Schellhardt, Don, National Coordinator, The Amherst Alliance:
        Letter dated February 25, 2000, enclosing material for 
          the record.............................................    94
        Letter dated March 16, 2000, enclosing material for the 
          record.................................................   102

                                 (iii)

  

 
     FCC'S LOW POWER FM: A REVIEW OF THE FCC'S SPECTRUM MANAGEMENT 
   RESPONSIBILITIES IN ADDITION TO H.R. 3439, THE RADIO BROADCASTING 
                            PRESERVATION ACT

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2000

              House of Representatives,    
                         Committee on Commerce,    
                    Subcommittee on Telecommunications,    
                             Trade and Consumer Protection,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 2322, Rayburn House Office Building, Hon. W.J. Tauzin 
(chairman) presiding.
    Members present: Representatives Tauzin, Oxley, Stearns, 
Gillmor, Markey, Gordon, Rush, and Wynn.
    Staff present: Linda Bloss-Baum, majority counsel; Cliff 
Riccio, legislative clerk; and Andy Levin, minority counsel.
    Mr. Tauzin. The committee will please come to order.
    Let me first apologize for the absence of my colleagues. I 
hope some of them show up today. I think some will. We 
unexpectedly canceled votes for today and when that happens 
members tend to go home. So will have a few but not as many 
members as I hope. That, of course, does not mean we aren't 
going to have a good record made today and we are going to get 
a chance to do some good dialoging on this important issue.
    I want to particularly thank those of you who traveled long 
distances to be on this panel and I deeply appreciate your 
attendance to this issue.
    There is no doubt that diverse voices in mass media are an 
essential part of communications in a free democracy such as 
ours. Diversity of viewpoint is the principal champion by the 
First Amendment of the Constitution and it surely enriches the 
cultural life and the cultural values of our American society.
    As a result, I can appreciate, at least in principle, the 
notion that the FCC wishes to afford to churches, schools, 
civic organizations and other similarly situated groups a 
greater radio presence than they currently enjoy.
    However, I and other members have questioned the 
Commission's creation of the new low power FM license at this 
juncture as to whether it is best and the most efficient way to 
achieve the greatest level of diversity on our airwaves. Since 
the FCC announced its intention to create the new class of 
licenses for low power radio stations over a year ago, we have 
been concerned that the Commission is moving a bit prematurely.
    Essentially, there are two reasons for these sentiments. 
First and foremost, the FCC appears to have made a substantial 
public policy decision without seeking the advice and 
consultation of the Congress. The FCC is a quasi-independent 
agency of the U.S. Government, by law subject to Congress. 
Congress makes the policy that the FCC enforces. But with 
little regard for the opinion of the members of this committee, 
the Commission has now passed the final order creating these 
new low power radio licenses, even did so while we were out of 
session.
    It need only at this point begin reviewing and considering 
applications because there are no further procedures subject to 
comment that are left to be taken. That, I think, was an 
improper decision by the Commission and one that has now indeed 
prompted legislation filed in this session of Congress to 
exercise congressional authority in the area.
    Second, it is clear to me--and I believe this hearing will 
only make it clearer--that the FCC's record on this matter does 
not support the conclusion that the newly created licenses will 
not interfere with other frequencies on the electromagnetic 
spectrum.
    Many have studied the policy and technical effects that the 
new services would create. During the official comment period, 
the FCC received dozens of comments from a variety of 
individuals and groups about the merits of the new service and 
its potential impact on radio broadcasting as we know it today.
    As we all know, in classic FCC proceedings, it is not 
unusual for the public comments to represent very different 
views as they do in this case, regarding LPFM. However, what is 
interesting with this issue is that the technical and 
engineering studies result in contrary findings as to the level 
of interference that the new service would create on the FM 
band.
    In our minds, it is not at all prudent to create new low 
power licenses when we cannot be at least reasonably sure that 
their creation will not result in unacceptable levels of 
interference. As a result, I do not believe the Commission, as 
the manager of our Nation's electromagnetic spectrum, has 
adequately served the public interest when it proceeded to 
create these new licenses.
    Furthermore, I fear that the Commission has disregarded the 
substantial risk that interference produced by these low power 
licenses once operational could instantly devalue all the 
licenses issued for spectrum allocation in use. Obviously, the 
interference issue is one that we absolutely need to get to the 
bottom of.
    I am happy we have with us today several of the engineers 
who conducted the interference studies in question. I hope they 
can explain to us in layman's terms why they have reached their 
ultimate conclusions regarding the technical aspects of low 
power FM.
    I want to remind you all that I studied engineering for a 
total of 1 whole year. Keep it in layman's terms, please.
    While I am discussing witnesses, let me also conclude by 
saying that the champion of this new service, Chairman Kinard, 
was invited to join us this morning to discuss the merits. 
Because he has said many times that this issue is one of his 
top priorities at the Commission, I had hoped that he would 
accept the invitation. I even offered to postpone the hearing 
until noon that he might complete his public hearing today. 
Nonetheless, he has declined because of commitments in Florida 
and that concerns me.
    I understand that Mr. Bruce Franca, Deputy Chief of the 
FCC's Office of Engineering and Technology, is here to speak on 
behalf of the Commission to the technical issues involved and 
we certainly welcome his testimony. However, I remain 
interested in hearing Chairman Kinard's explanation of why 
policy considerations led to the creation of this new service 
before the final report on the digital transformation of radio 
was complete and why there is substantial disagreement on the 
technical aspects of interference.
    He needs to address our concerns that the policies behind 
this service were not promulgated based on an objective 
assessment of the administrative record and that further 
congressional consideration is or is not needed.
    Let me say a couple of final thoughts in addition. 
Interference is not the only concern I have heard expressed by 
members of our committee. We have had some pretty tough 
hearings on public radio in hearings last year. There have been 
some pretty big disputes about the way public radio has 
conducted its business. Taxpayer dollars fund public radio.
    One of the questions that is going to be before us today is 
does this decision severely impact public radio. If we are 
going to have hundreds of thousands new community voices in 
every community in America addressing the special community 
needs of different aspects of our society, do we need to 
continue to put Federal dollars, public money into a radio 
system to do the same thing. That is a serious question. How 
does this decision on low power affect the audience of public 
broadcasting? Will it make it less supportable than the private 
sector as its audience is fractured away?
    We have raised questions about minority broadcasters. I 
have applauded Chairman Kinard in his efforts to alert 
advertisers in America about old prejudices and old stereotypes 
that have led them not to invest in minority broadcasting 
stations where audiences indeed would like to buy their 
products, and the light he has shown on that practice and the 
fact that minority broadcasters very often in our country feel 
like they are being discriminated in the advertising market. I 
have congratulated him for that good work.
    My concern now is that this FM license proposal may in fact 
again fracture that audience to the point where advertisers are 
less likely to invest in helping to sustain minority 
broadcasters in our country. I have heard similar complaints 
from small and independent radio broadcasters who literally are 
operating at margins that are difficult to sustain.
    The bottom line is that there are a lot of questions we 
needed answered today. As you know, Mr. Oxley, the vice 
chairman of this committee, has filed legislation on this issue 
that we may well take up. What we learn today will teach us a 
great deal about whether the Commission has acted 
precipitously, has acted without regard to the public interest 
and whether the Congress needs to step in.
    I look forward to hearing your testimony and the Chair now 
yields to the vice chairman of our subcommittee, Mr. Oxley, for 
an opening statement.
    Mr. Oxley. Thank you, Mr. Chairman, and welcome to all of 
our witnesses. I especially look forward to testimony from one 
of our favorites at the Commission, Harold Furchtgott-Roth, a 
former staffer here who I understand will be joining us later 
this morning.
    First, Mr. Chairman, I want to commend you for calling 
today's hearing. It is timely. I believe the FCC decision to 
establish a new low power FM radio service raised more 
questions than it answered. I am pleased that we will be 
hearing from experts on both sides of this issue.
    Certainly the foremost question in my mind is the 
interference question. The record of public comment and 
technical analysis suggests to me that low power FM will cause 
significant interference with existing services, to the 
detriment of broadcasters and listeners alike. I expect that we 
will hear conflicting testimony on that point this morning, so 
I suggest that members pay close attention to the standards 
used in determining what constitutes unacceptable interference.
    As members know, I introduced legislation on November 17 to 
prevent the FCC from implementing rules authorizing new low 
power FM stations. Joining me in introducing the bill, H.R. 
3439, The Radio Broadcasting Preservation Act, were 
Representatives Stearns, Cubin, Pallone and Ehrlich and since 
then, a total of 113 members of the House have co-sponsored 
H.R. 3439, including 20 members of this committee. I thank each 
of them for their support.
    When I introduced H.R. 3439, I did so in response to grave 
concerns expressed to me by radio station managers in my 
congressional district. I had previously written to the 
Commission twice with my colleague, the gentleman from Florida, 
Mr. Stearns, to express our apprehension about low power radio 
and the interference it would cause. By introducing the bill, I 
wanted to send the additional message that there were members 
who were prepared to act legislatively if the Commission's 
final rule did not adequately address the interference 
question.
    While I will closely review this morning's testimony, after 
scrutinizing the Commission's action, my initial conclusion is 
that the new rules do not offer adequate protection against 
harmful interference. I am disappointed the Commission chose to 
weaken its interference safeguards to make room for low-power 
FM. This decision will undoubtedly lead to increased 
interference with existing stations, thereby harming loyal 
listeners and undercutting the value and the investment of 
current licenseholders. To the Commission's assertion that 
there will not be a meaningful increase in interference, I ask, 
then, why did you have to weaken your standards in the first 
place?
    I am concerned as well that the rules jeopardize the 
conversion to digital radio. Unlike television broadcasters who 
are being given additional free spectrum to broadcast in 
digital format, radio broadcasters must use their current 
spectrum allocations to transmit both digital and analog 
signals, making adjacent channel safeguards all the more 
important.
    I most object to the provisions making former unlicensed, 
pirate radio operators eligible for low power licenses, thus 
reinforcing their unlawful behavior and encouraging new 
unauthorized broadcasts in the future.
    My hope, and frankly, my expectation, is that the 
subcommittee will soon be marking up H.R. 3439. I have yet to 
hear an adequate reason why we should not.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Tauzin. I thank the gentleman.
    The Chair is now pleased to recognize the ranking minority 
member of the committee from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman.
    I want to commend you for holding this hearing today on low 
power radio issues.
    Mr. Chairman, if we were having this hearing decades and 
decades ago in 1915, we would have only one witness at the 
table. We would have said, Mr. Marconi, could you outline how 
we could efficiently utilize this new service?
    A few years after that, with the advent of television, we 
would have had a panel where we would have said, Mr. 
Farnsworth, Mr. Sarnoff, could you get together with the 
Marconi engineers and figure out this thing so we can launch 
television service?
    Over time, as things got more complicated and more 
commercial, it became a larger group of people in these 
conversations and it took longer for them to agree for various 
reasons. Interference developed. The government stepped in and 
decided to create a neutral agency to arbitrate disputes and 
efficiently allocate spectrum resources. The Federal 
Communications Commission has been doing this job and doing it 
quite well for decades.
    They have done their job so well, in fact, that the 
American telecommunications industry, including the vibrant 
broadcast, television, radio, cellular, PCS, microwave, 
satellite service and other spectrum-based services are the 
envy of the world.
    We are not content with the progress we have made thus far, 
however. We want more choices. That is the American way. Low 
power radio could meet an important need for low broadcasting, 
especially in light of the rapid, and in my view, unhealthy, 
consolidation of radio stations in individual markets after the 
passage of the Telecommunications Act.
    Clearly issues of interference need to be fully explored 
and worked out as was done in creating low power TV. I want to 
applaud the Commission for exploring this worthwhile proposal 
and moving forward on it. The Commission is always at its best 
when it takes the public's airways resources and works to make 
more efficient use of that spectrum for the public.
    There are certainly legitimate concerns about interference. 
At one level, that will evolve into a shouting match between 
engineers. Non-engineers cannot assist in resolving that 
debate. Yet, we can create a climate for reconciliation because 
in the final analysis, the effort underway is to supplement 
what already exists, not supplant or interfere in any harmful 
way with existing services.
    I thank you, Mr. Chairman. I look forward to a discussion 
on relative DBU levels this morning and whatever illumination 
our subcommittee can gain in that area.
    Thank you, Mr. Chairman.
    Mr. Tauzin. The gentleman from Chicago is recognized for an 
opening statement, Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman.
    I would first like to applaud the FCC, principally Chairman 
Kinard, for his creation of thousands of new stations that will 
ensure a diversity of voices on the airwaves. Such diversity is 
very much needed in our communities. These new low power FM 
stations will allow churches, universities, local schools, 
community health organizations access to a medium that has been 
inaccessible because of the tremendous cost.
    I understand that many existing FM broadcast stations are 
concerned that these new low power FM radio stations will cause 
interference with their signals and am sympathetic to these 
concerns, but I remain firmly committed to providing those 
without significant financial resources access to the airwaves.
    I look forward to his hearing today and to the testimony on 
this particular issue.
    I yield back the balance of my time.
    Mr. Tauzin. I thank my friend.
    The Chair is now pleased to welcome our panel.
    Mr. Markey. Mr. Chairman, may I ask unanimous consent to 
submit for the record a statement by Mr. Bonior in support of 
low power radio and ask that the record remain open for the 
customary period for members to submit statements and other 
material relevant to this issue.
    Mr. Tauzin. Without objection, the gentleman's consent is 
granted.
    [The prepared statement of Hon. David E. Bonior follows:]

    PREPARED STATEMENT OF HON. DAVID E. BONIOR, A REPRESENTATIVE IN 
                  CONGRESS FROM THE STATE OF MICHIGAN

    I applaud the Federal Communications Commission for creating a new 
class of licenses for low power FM radio stations. These non-commercial 
licenses will provide tremendous opportunities for educational 
institutions, local governments, churches, community groups and 
emerging artists--without interfering with existing commercial 
stations.
    I think it's important for the Subcommittee to know just how wide-
spread and broad the support is for low power community radio. It is 
people like Kevin McGaughey in Brookland, Arkansas who would like to 
give children in Brookland's local public schools the opportunity to 
learn the ins and outs of broadcasting. It is people like Lynn 
Breidenbach in Lakeland, Florida whose community has no voice on either 
Tampa/St. Petersburg or Orlando radio. It is people like Amanda Huron 
in Washington, D.C. whose community group is trying to empower African-
American and Latino-American youth by teaching them how to be radio 
disc jockeys rather than just hanging out in the streets. These are the 
advocates for community radio--and they are mobilized throughout our 
country.
    The FCC's decision to grant low power community radio licenses also 
has the support of organizations ranging from the AFL-CIO, to the U.S. 
Catholic Conference, to the NAACP, to the National Council on La Raza 
to the U.S.P.I.R.G. In my home state, the Michigan Music is World Class 
Campaign has secured resolutions of support from at least 45 
communities. Further, musicians like Bonnie Raitt and the Indigo Girls, 
as well as the Louisiana Music Commission have thrown their support 
behind low power community radio. For those whose voices are not heard 
on today's cookie-cutter format radio, low power community stations are 
deeply wanted and much needed. The activism surrounding this issue is 
inspiring, and the Subcommittee would be well advised to take this 
groundswell of support into account.
    One of the fundamental tenets of our democracy is to ensure that 
diverse interests have opportunities to express themselves at different 
levels, and that they are not locked out in a monopolistic fashion by 
large media conglomerates. It is as fundamental as free speech.
    The FCC, and its Chairman William Kennard, should be commended for 
doing their job--protecting the public interest while at the same time 
giving serious consideration to the interference concerns of existing 
broadcasters. Providing non-profit, educational or community-based 
radio stations to broadcast information about local events, provide 
open forums for issues of the day and improve access to our airwaves--
without interfering with current FM radio stations--is the legitimate 
role of the FCC as stewards of our airwaves. I support their efforts to 
make the vision of community radio a reality.

    Mr. Tauzin. All members' written statements, without 
objection, are permitted into the record as well as all written 
statements of our witnesses. Without objection, it is so 
ordered.
    [Additional statements submitted for the record follow:

PREPARED STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN CONGRESS 
                       FROM THE STATE OF FLORIDA

    Mr. Chairman: Thank you for holding this hearing on ``Low Power FM: 
A Review of the FCC's Spectrum Management Responsibilities.'' I would 
also like to thank our witnesses for appearing before this committee 
and I look forward to their testimony.
    Mr. Chairman, for a brief moment, I thought I had deja vu. It 
seemed so real, you, I, and other members of this committee criticizing 
a government agency for exercising poor judgment and for rushing to 
pursue its own agenda. But then I realized this hearing is focusing on 
the Federal Communications Commission and lower power FM, and rather 
than being a dream, it's an all-too-real routine of what this committee 
is forced to do on a regular basis. And then I remembered I am a 
cosponsor of H.R. 3439, the Radio Broadcasting Preservation Act, for 
this very reason.
    May I suggest to the Chairman that the Commerce Committee form a 
new subcommittee named ``What the FCC Shouldn't Be Doing.'' And then 
that committee could hold hearings on low power FM, merger review, and 
attacking religious broadcasters. Of course, we would be hard pressed 
to get anyone who would want to chair that subcommittee.
    When the FCC began it's journey into bastardizing spectrum 
integrity by adopting a Notice of Proposed Rule Making designed to 
establish low power FM service, many voiced concerns about the 
potential interference larger commercial and public stations would face 
from this service. Surely, the FCC would not undertake and implement a 
service when such an important point as interference was not 
conclusively resolved. Well, if you still believe that once you've read 
the January 20, 2000 FCC order authorizing low power FM's, then I have 
a low power FM station and the bridge its on to sell you in Brooklyn.
    Five technical studies analyzing the interference issue caused by 
low power FM stations have produced conflicting conclusions regarding 
interference on the 3rd adjacent channel. And the FCC believes that 3rd 
adjacent channel restrictions on low power FM stations are not needed 
because ``interference would be very small and would be outweighed by 
the benefits of the new service.'' So the additional security and 
protection of a 3rd adjacent channel restriction is not necessary. Sure 
it would be nice, but it's not necessary. Now I don't know how many of 
you have gone skydiving without a spare or back-up parachute . . . sure 
a back-up chute is not necessary to jump out of a plane, but it sure 
would be a nice thing to have when you are in need of one. And the 3rd 
channel protection is akin to a back-up chute for full power 
broadcasters. Sure it's not necessary, but it sure would be a nice 
thing to have when you are in need of one. Instead broadcasters who 
have invested millions of dollars into stations with the assumption the 
FCC would ensure the integrity of their spectrum, now have to worry 
about interference from a project the FCC has no idea whether will work 
properly or not.
    Why the rush to fully implement this service when many questions 
still remain unanswered? I am curious as to why the FCC did not select 
a handful of low power FM stations to experiment with this service, 
rather paving a road for stations to begin broadcasting in the real 
world when the interference question has not yet been answered. Had 
they done so, many of the questions we are asking today would have 
already been answered.
    Mr. Chairman I thank you for holding this hearing and will conclude 
by stressing that the need for substantive reform of the FCC becomes 
clearer by the day. Thank you.
                                 ______
                                 
 PREPARED STATEMENT OF HON. TOM BLILEY, CHAIRMAN, COMMITTEE ON COMMERCE

    I want to commend the Subcommittee Chairman for convening this 
hearing today to explore the FCC's new Low Power FM Radio Service. I 
must admit, that I was disappointed at the Commission's decision to 
release its Order on the new class of broadcast licenses while most of 
us were back home with our constituents over the January recess.
    It is obvious by reading the testimony of today's witnesses that 
this issue is a controversial one that warrants Congressional 
consideration. I am pleased that this Committee can at least have the 
opportunity today, that we did not have last month, to delve into both 
the policy and technical issues surrounding this newly proposed 
service.
    I think that we can all agree that, thanks to new technologies and 
opportunities, some radio stations have begun to consolidate into 
commercial groups. The question is--whether these new arrangements help 
or hinder highly localized broadcasting in small communities and 
neighborhoods.
    In theory, I am open to new opportunities for small, local 
broadcasters. That said, I do strongly believe that we must preserve 
the signals of existing licensees who have justly earned the right to 
broadcast at a particular signal strength on a particular dial 
position.
    I have traditionally been concerned about signal congestion on our 
airwaves, particularly in large metropolitan areas. The addition of 
hundreds of new low power FM stations could potentially disrupt and 
cause interference to existing broadcasters.
    Several engineering studies have been conducted to test the level 
of interference caused by these potential new stations. However, those 
studies have produced vastly different results. I look forward to 
hearing the testimony of the technical experts before the Committee 
today, to get to the bottom of what these different conclusions mean.
    Finally, I am interested in learning more about today's 
alternatives, and even ideas that are on the horizon that achieve the 
same end as the proposed low power service. New technologies, such as 
Internet radio, reach targeted audiences. I hope that today's witnesses 
will address innovative ideas, not just more regulation.
    In conclusion, I hope that this hearing sheds light on the 
controversies related to Low Power FM.
    With that, I yield back the balance of my time.

    Mr. Tauzin. Let me now introduce the panel. The Deputy 
Chief of the Office of Engineering, Mr. Bruce Franca, is here. 
We want to thank you for coming, sir. Mr. Eddie Fritts, CEO, 
National Association of Broadcasting, is here. David Maxon, 
Founder, Broadcast Signal Lab on behalf of The Lawyers Guild, 
is here. Mr. Bruce Reese, President and CEO, Bonneville 
International Corporation, Salt Lake City, is here. Mr. 
Theodore Rappaport, Professor, Virginia Tech in Blacksburg, 
Virginia, whom a lot of people didn't know existed until this 
year, is here. My son is a senior at Virginia Tech. Mr. Charles 
Jackson, CEO, Jackson Telecom Consulting is here. Mr. Don 
Schellhardt, National Coordinator, The Amherst Alliance, is 
here. Mr Dirk Koning, Executive Director, Grand Rapids 
Community Media Center, is here. Mr. Kevin Klose, President and 
CEO, National Public Radio, is here. The Honorable Harold 
Furchtgott-Rott will be with us later. There is a public 
hearing, as you know, going on and he is committed to come to 
this hearing as soon as he completes that public hearing at the 
FCC this morning.
    In order to facilitate a demonstration this morning, the 
Chair will first recognize Mr. Charles Jackson, CEO, Jackson 
Telecom Consulting, who I believe will present to us a 
demonstration that will sort of frame this discussion.
    Mr. Jackson?

     STATEMENT OF CHARLES L. JACKSON, CEO, JACKSON TELECOM 
                           CONSULTING

    Mr. Jackson. Mr. Chairman, members of the subcommittee, I 
am Chuck Jackson. I am testifying today on behalf of the NAB. I 
am an engineer with more than 30 years experience in the 
electronics and communications industry. Today, I will describe 
a significant flaw in the engineering that the FCC relied upon 
for the LPFM proceeding.
    Mr. Chairman, in your opening statement you said that 
engineers should be able to get together and agree on these 
interference issues. I completely agree. We are not talking 
about something that was invented recently; FM has been around 
for 50 years, the technologies of measuring it are well known, 
and there should not be disagreement among the engineering 
studies on interference.
    Together with Professor Raymond Picholtz of George 
Washington University, I reviewed four studies of FM receivers 
that were part of the LPFM proceeding of the FCC. Our key 
conclusion was that the studies differed in how they defined 
harmful interference.
    The NAB defined a harmful interference signal as one that 
irritates listeners and their definition matched a widely 
accepted international standard. The FCC's studies' definition 
of harmful interference went well beyond irritating to what 
most would consider unlistenable.
    Worse yet, the FCC measured interference but reported the 
results as if it had measured harmonic distortion, which is an 
entirely different impairment. The FCC then claimed that 
consumers would not find this distortion objectionable. They 
are correct. Such distortion is not objectionable. However, 
interference generates noise and cross-talk not distortion.
    Noise and cross-talk are far more objectionable to 
listeners than distortion. There is no support in the record or 
anywhere else supporting the FCC's use of distortion as the 
measure of the effects of interference. In fact, the FCC's 
claims about the harmful effects of interference approach junk 
science.
    Here are some audio clips that let you hear the types of 
interference we expect listeners will experience from LPFM 
stations. We will see if this works, we already had an 
equipment failure this morning.
    This is an unimpaired example recorded off the air with a 
good quality radio from WAMU, a public station in the 
Washington, DC area run by American University.
    [Playing of sample.]
    Mr. Jackson. Now here is that same example but with cross-
talk. Remember, that is a fancy word for interference, at a 
level the FCC regards as acceptable if a consumer hears it over 
a Sony Walkman.
    [Playing of sample.]
    Mr. Jackson. Here is a different format station, classical 
station WGMS, the No. 1 classical station in the market, and 
here is an unimpaired segment that was recorded off the air. 
This is a quiet segment, not a real loud one.
    [Playing of sample.]
    Mr. Jackson. Here is WGMS with cross-talk, the effects of 
interference at levels acceptable under the FCC testing regime.
    [Playing of sample.]
    Mr. Jackson. Here is an unimpaired example from WHUR, an 
urban format station that is the No. 1 station in the DC 
market.
    [Playing of sample.]
    Mr. Jackson. Here is WhUR with cross-talk.
    [Playing of sample.]
    Mr. Jackson. The FCC says that listening to this level of 
impairment on a Sony Walkman would be acceptable to consumers. 
I believe they are dead wrong.
    Mr. Chairman, the FCC based its LPFM decision on misleading 
science. In so doing, they overrode decades of history devoted 
to protecting consumers from interference on the FM band.
    Thank you.
    [The prepared statement of Charles Jackson follows:]
Prepared Statement of Charles Jackson, CEO, Jackson Telecom Consulting, 
         on Behalf of the National Association of Broadcasters
    Mr. Chairman, members of the subcommittee, I am Charles Jackson. I 
testify here today on behalf of the National Association of 
Broadcasters (NAB). I am an engineer with an independent consulting 
practice. I have experience at the FCC and have worked for more than 30 
years in the electronics and communications industry--including 4 years 
on the staff of this subcommittee's predecessor. I earned my PhD in 
electrical engineering at MIT.
    My message is short. The FCC, as part of its Low-Power FM (LPFM) 
rulemaking, tested the ability of consumer receivers to withstand 
interfering signals on adjacent radio channels. Those tests were not 
reported properly. The FCC used an incorrect criterion for measuring 
the effects of interference and thereby provided misleading information 
in their order regarding the interference potential of LPFM stations. 
The fundamental problem is that the FCC measured interference but 
reported the results as if it had measured harmonic distortion. Such 
distortion is much harder to hear than is noise or cross-talk.
Overview
    Below I establish the error in the FCC's criterion through 
references to the engineering literature, FM receiver specifications, 
and materials from the manufacturer of the test equipment used by the 
FCC. First, I describe the two measurement criteria at issue: harmonic 
distortion and cross-talk. Second, I play audio signals that meet the 
FCC's definition of ``adequate'' quality for consumers.\1\ After 
hearing these you can decide for yourself whether or not the FCC is 
correct in its judgment of what is adequate.\2\
---------------------------------------------------------------------------
    \1\ The FCC stated, ``The OET and NLG studies generally conclude 
that FM receivers provide for adequate rejection of interference on 
2nd- and 3rd-adjacent channels.'', LPFM Order at paragraph 100. The OET 
test report makes it clear that the criterion for adequacy is 
performance with less than 3% added distortion.
    \2\ The MS Word version of this document has embedded audio objects 
that contain the various demonstrations. Obviously, the printed copy 
cannot contain these audio objects and the MS Word file with the 
objects is too large for some email systems. If you wish a copy of the 
Word document with the embedded audio, it should be available at 
www.jacksons.net/HSC until at least March 1, 2001.
---------------------------------------------------------------------------

Measuring Audio Impairments-Distortion versus Noise and Cross-talk

    One technical complexity intrudes. The FCC measured performance of 
FM receivers using a criterion called distortion or total harmonic 
distortion plus noise (THD+N).\3\ In contrast, the NAB recommended 
using a measure called signal-to-noise ratio (SNR) as the measure of FM 
receiver performance. The process of measuring these two quantities is 
quite similar, although the units that are used normally differ. 
However, THD is normally used to measure a quantity called harmonic 
distortion or nonlinearity. It is well known that listeners find it 
hard to notice harmonic distortion at levels as high as 2 or 3%. In 
contrast, many people can hear noise or cross-talk when it is at the 
level that would measure as 1% distortion (if one were improperly 
measuring noise or cross-talk as distortion).
---------------------------------------------------------------------------
    \3\ The FCC Order and the OET report consistently refer to 
distortion. The Audio Precision System One manuals refer to THD+N. See, 
for example, System One Description/Installation/APWIN Version 22 
Guide, p. 2-6.
---------------------------------------------------------------------------
    I have attached an appendix to this testimony that goes into more 
detail on the differences between measuring SNR and THD and how the 
choice of measurement units can be misleading.

Examples

    Let me now give you a chance to listen to the difference between 
cross-talk and harmonic distortion. I will play an audio selection with 
no added distortion. I will then allow you to compare the effects of 
adding harmonic distortion and the effects of adding cross-talk.
    Here is a brief audio sample--one familiar to many--taken from 
Bernstein's West Side Story.\4\ This selection is taken from track 11 
on the CD. That track has a wide dynamic range--running up to within 1 
dB of full scale but also containing some quiet passages. This specific 
selection runs to within 3 dB of full scale.
---------------------------------------------------------------------------
    \4\ Deutche Grammophon, 415 254-2, recorded live.
---------------------------------------------------------------------------
    Here is that same sample, but now transformed to pure harmonic 
distortion--all tones have been shifted up one octave using signal 
processing software.
    Here is the original, but with the distorted version added back in 
at the 3% level.\5\ As you probably notice, the added distorted element 
is almost impossible to hear.
---------------------------------------------------------------------------
    \5\ That is, the harmonic distortion is reduced in volume to 31 dB 
below the original signal and added back in. Because the distortion 
does not decline as the amplitude of the signal falls, this process 
results in more distortion than would occur in a typical amplifier with 
3% measured distortion.
---------------------------------------------------------------------------
    In contrast, here is that same sample with cross-talk added just 
below the 3% level.\6\ The cross-talk signal was taken from another 
recording.
---------------------------------------------------------------------------
    \6\ Here the 3% less a little bit level is set to 31 dB below a 
full-scale sine wave as would be the case when measuring FM receivers 
with a single tone as the desired signal. That is, the cross-talk is 
set at the level that would measure just below 3% in the FCC's test of 
FM receivers.
---------------------------------------------------------------------------
    The FCC treats these two quite different forms of impairment as if 
they are the same. But, as you can hear they are not. A central flaw in 
the FCC's analysis was the treatment of added interfering signals 
(cross-talk) as if they were harmonic distortion.
    The FCC's tests judged a signal as acceptable if interference 
increased the measured distortion by no more than 3%. Consumer 
receivers have distortion as high as 3.5%. Thus, the FCC's procedures 
would accept signals with cross-talk just below the 6.5% level. Here is 
the selection from West Side Story with cross-talk added at a level 
that would drive the total of cross-talk and distortion of a signal 
with 3.5% distortion to just below the 6.5% level.
Examples from Over-the-Air Broadcasts
    Here is a cut recorded from WGMS, the number one classical music 
station in the Washington, DC, market.
    Here it is with cross-talk just below the 6.5% level that the FCC 
would judge unacceptable if the consumer were using a receiver with 
3.5% audio distortion.
    Here is a cut from WHUR, the leading station in the DC market, with 
cross-talk just below the FCC limit of 6.5% total measured distortion 
for a radio with 3.5% audio distortion.\7\
---------------------------------------------------------------------------
    \7\ These examples, and more, together with an explanation of the 
test set-up and parameters are available at www.nab.org.
---------------------------------------------------------------------------

The Pickholtz/Jackson Study

    Professor Ray Pickholtz of George Washington University and I 
reviewed four studies of FM receiver performance that were before the 
FCC in its LPFM proceeding.\8\ We concluded that the tests performed by 
the various parties were similar; the differences in the conclusions of 
the studies reflected differences in the definition of harmful 
interference used in each study. We believe that the FCC made a mistake 
when they reported results in terms of distortion but they were 
actually measuring noise and cross-talk-signal impairments that are 
much more objectionable to listeners than is harmonic distortion. This 
is a serious error--roughly as bad as telling someone to suit up for a 
football game in a basketball uniform.
---------------------------------------------------------------------------
    \8\ This study was performed on behalf of the NAB. It is available 
from my website at www.jacksons.net.
---------------------------------------------------------------------------
Evidence from Others that Interference and Distortion Are Different
    The FCC's tests used a criterion, distortion, that is appropriate 
for measuring how good amplifiers perform but is not a good measure of 
the presence of objectionable cross-talk or of static. FM receiver 
manufacturers specify both distortion (measured in percentage just like 
the FCC did) and S/N ratio (SNR). For example, Sony provides the 
following specifications for their STR-DE835 (the top-rated digital 
receiver in the March 2000 issue of Consumer Reports).\9\
---------------------------------------------------------------------------
    \9\ Taken from http://www.sel.sony.com/SEI,/consumer/ss5/home/
homeaudio/receivers/strde835 specs.shtml on February 13, 2000.
---------------------------------------------------------------------------
<bullet> FM Frequency Response 30--15 kHz, +0.5/-2 dB
<bullet> FM THD @ 1 kHz, Mono/Stereo 0.30%/0.50%
<bullet> FM S/N Ratio, Mono/Stereo 76 dB/70 dB
    Sony specifies that the S/N ratio, the measure of how well the 
receiver pulls the desired signal out of the natural static, is 70 dB. 
In contrast, Sony specifies that the receiver's THD, a measure of how 
well the output stage of the receiver reproduces signals, is 0.50%. 
Distortion signals at the 0.50% level correspond to signals only 46 dB 
below the desired signal. If distortion and noise were different names 
for the same phenomenon, then the receiver would have a 46 dB SNR. 
Similarly, if distortion of 0.50% prevents one from hearing noise at 
levels much below 46 dB below the desired signal, Sony is wasting its 
efforts in delivering a 70 dB SNR.
    Similarly, a technical paper available from Audio Precision, the 
manufacturer of the test equipment the FCC used in its tests, states, 
``Harmonic distortion, illustrated in Fig. 16 is probably the oldest 
and most universally accepted method of measuring linearity (Cabot 
1992).'' \10\ It is well known that linearity--the degree to which an 
amplifier's outputs are just bigger versions of the input signals--
measures accurately an amplifier's performance and that small 
deviations from linearity are hard to hear.
---------------------------------------------------------------------------
    \10\ ``Fundamentals of Modem Audio Measurement,'' by Richard C. 
Cabot, Presented at the 103rd Convention of the Audio Engineering 
Society, New York, USA, 1997 September 26-29, revised 1999 August 8, p. 
12. Emphasis added.
---------------------------------------------------------------------------
    Audio Precision also says,
        Most audio Total Harmonic Distortion (THD) measurement systems 
        are in fact Total Harmonic Distortion plus Noise (THD+N) 
        analyzers. They operate by removing the fundamental from the 
        test signal with a sharply tuned band reject or ``notch'' 
        filter and measuring everything that remains. The amplitude of 
        this ``residual'' is compared to the amplitude of the 
        fundamental and the result is expressed as a percentage or dB 
        figure. This measurement technique does not discriminate 
        between test signal related harmonics caused by non-linearity 
        in the device under test, broadband noise in the device under 
        test, crosstalk or interference from external sources, or any 
        other artifacts present within the measurement bandwidth. The 
        ``single number'' result may thus be ambiguous.\11\
---------------------------------------------------------------------------
    \11\ Audio Precision Tech Note TN-17, available at 
www.audioprecision.com. Emphasis added.
---------------------------------------------------------------------------
The FCC's Use of the 3% Standard
    The FCC stated in its LPFM order that the OET tests did not use the 
3% distortion level as the measure of harmful interference. The FCC 
specifically stated,
            The above conclusions of the OET report that ``nearly all 
            the receivers in the sample appear to meet or exceed the 40 
            dB 2nd-adjacent channel criterion and exceed the 3rd-
            adjacent channel protection criterion by a substantial 
            margin'' reflect measurements taken at the 1% distortion 
            level.\12\
---------------------------------------------------------------------------
    \12\ FCC LPFM Order, footnote 156.
---------------------------------------------------------------------------
    This statement conflicts with the text of the OET study. It reads,
            Section 73.215 of the Commission's rules provides that the 
            predicted field strength of a potentially interfering 
            station can be no more than 40 dB stronger than the 
            protected field strength along a station's protected 
            contour. At the 3% distortion level all the receivers in 
            the sample, except for two (samples #2 and #6), appear to 
            meet or exceed the 40 dB second adjacent channel protection 
            criterion and to exceed the 40 dB third adjacent channel 
            protection criterion by a substantial margin.\13\
---------------------------------------------------------------------------
    \13\ Second and Third Adjacent Channel Interference Study of FM 
Broadcast Receivers, Project TRB-99-3 Interim Report, July 19, 1999, p. 
31.
---------------------------------------------------------------------------
    The text in the order also reflects a basic confusion between 
distortion and other forms of signal impairments when the FCC states, 
``The 1% level corresponds to a point at which most listeners would not 
be able to perceive any degradation in performance. On the other hand, 
the 3% distortion represents a level at which most listeners would 
perceive a difference in the received signal.''\14\ This statement is 
almost a textbook discussion of the effects of harmonic distortion--but 
does not apply to noise and cross-talk. The FCC claims that a person 
would find it impossible or hard to hear the effects of interference 
that were measured as 1% or 3 % distortion. This is incorrect. It is 
hard to hear 3% distortion; it is easy to hear cross-talk at the 3% 
power level as I just showed you.\15\
---------------------------------------------------------------------------
    \14\ Ibid.
    \15\ This statement requires some qualification. It is hard to hear 
low-order distortion, that is 2nd- or 3rd-harmonic distortion. It is 
much easier to hear higher order distortion.
---------------------------------------------------------------------------
    The FCC holds the entities it regulates to high standards of 
truthfulness (called candor in the Commission's jargon) in their 
statements to the Commission. It should hold to those same standards 
when it speaks to the public.

Conclusion

    To summarize, the FCC used the wrong criterion when assessing the 
performance of FM receivers in the presence of interference. In 
particular, they used a measurement method that indicated no harmful 
interference where in fact, harmful interference would occur. This use 
of the wrong criterion has led to justification for the authorization 
of LPFM stations that will result in objectionable interference to 
existing radio stations interference that the FCC does not acknowledge 
because it has not used the relevant measurement tool.

                 APPENDIX: MEASURING AUDIO IMPAIRMENTS

    First, subjective testing--the use of a panel of listeners to 
compare and grade the performance of alternative systems--is the gold 
standard of audio system evaluation.\16\ Second, although they may be 
the gold standard, subjective listening tests are, like gold, very 
expensive--requiring significant time and staff. Consequently, other 
objective test methods have been developed. These objective 
measurements may or may not be monotonically related to subjective 
quality, but they are close enough for many applications. A primary 
measurement used to assess the performance of analog broadcasting and 
recording systems is the audio or output signal-to-noise ratio (SNR). 
This ratio compares the energy in the desired signal with the energy in 
the obscuring or impairing noise signal. Often the SNR is calculated 
using a weighting procedure that attaches more weight to noise at the 
most easily heard frequencies and less weight to noise at frequencies 
that are less irritating. Informally speaking, SNR is a measure of the 
static that has been added to a signal.
---------------------------------------------------------------------------
    \16\ It may seem strange to some that engineers rank a subjective 
test as the highest performance standard. Despite stereotypes, 
engineers actually have normal endowments of common sense and they 
recognize that the proper measure of a system designed to serve 
consumers is the consumer reaction to that system.
---------------------------------------------------------------------------
    Table 1 below shows SNR for some familiar audio systems. In this 
table, a higher number is better and SNR is reported in dB--a 
logarithmic measure that matches well with the human hearing process. A 
difference of about 3 dB in SNR is usually regarded as the smallest 
size difference a typical observer will notice. Thus, there is not much 
difference in the typical subjective evaluation of the performance of 
two audio systems--one operating with 40-dB SNR and the other with 43-
dB SNR. However, there is a big difference between a system operating 
with 40-dB SNR and one operating with 60-dB SNR.

     TABLE 1--Signal-to-Noise Ratio for some Familiar Audio Systems
------------------------------------------------------------------------
                       System                          Approximate SNR
------------------------------------------------------------------------
Compact disc.......................................              100 dB
Sony Walkman digital audio tape....................   Better than 87 dB
FM broadcasting (best conditions)..................            60-80 dB
Consumer audio taping equipment \17\...............               60 dB
Telephone call.....................................            30-50 dB
------------------------------------------------------------------------
\17\ For example the Sony TC-KE500S.

    A second measure of audio system performance is harmonic 
distortion. Harmonic distortion is most often used to measure the 
performance of audio devices such as amplifiers or recording systems. 
It is a measure of how accurately an audio system reproduces the input 
signal. Harmonic distortion is often used to characterize the 
performance of amplifiers. It is caused by nonlinearity in the 
amplification chain that creates frequency components that are 
harmonics of the original frequencies (integer multiples of the 
original frequencies, also called overtones). If the output signal from 
an amplifier is the same as the input signal, except bigger, then there 
is no distortion. With music or pure tones, distortion can be noticed 
by the presence of overtones. For example, if a real-world amplifier 
has as input a 1,000-Hz tone, the output will consist primarily of a 
1,000-Hz tone, but tones at 2,000 and 3,000 Hz (and other frequencies) 
will also be present in the amplifier output. These unintended 
overtones produced by the amplifier are called harmonic distortion. It 
is hard for the human ear to hear harmonic distortion.
    The human ear's response to a 2,000-Hz tone is reduced when a 
strong signal is also present at 1,000 Hz. Similarly, people often 
think they hear a sound at 2,000 Hz when they only hear a sound at 
1,000 Hz.\18\ Most music sources, such as a piano or violin note, 
contain overtones that are only slightly modified by the overtones 
created by distortion.
---------------------------------------------------------------------------
    \18\ See, for example, A. Gersho, ``Advances in speech and audio 
compression,'' Proceedings of The IEEE, vol. 82, pp. 900-918, June 
1994. P. Noll, ``Wideband speech and audio coding,'' IEEE Communication 
Magazine, vol. 26, pp. 34-44, November 1993. J.J.N. Jayant and Y. 
Shoham, ``Coding of wideband speech,'' Speech Communication, vol. 11, 
pp. 127-138, 1992.
---------------------------------------------------------------------------
    Hence, given both the reaction of the human hearing system and the 
content of most music, harmonic distortion is harder to hear than 
unrelated noise.\19\ It is generally accepted that harmonic distortion 
has to rise to about 1 to 2% before people find it objectionable.\20\ 
Some people would find 1% harmonic distortion hard to notice.\21\ The 
nonlinearities in the signal processing chain that cause harmonic 
distortion also cause intermodulation distortion that produces other, 
unintended frequency components. The usual test procedures for audio 
equipment use the measure of total harmonic distortion plus noise 
(THD+N) as shorthand for all nonlinear impairments.
---------------------------------------------------------------------------
    \19\ It is easier to hear someone cough at an orchestra concert 
than to tell that one of the violinists is playing an octave high. 
Indeed, everybody in the audience can hear the person coughing, but 
only audience members with unusual musical acuity will notice that one 
violin is an octave high.
    \20\ See H.F. Olson, Elements of Acoustical Engineering, Van 
Nostrand, New York, 1947 as quoted in Electronics Engineers' Handbook, 
2nd Edition, Donald G. Fink and Donald Christiansen, eds., McGraw-Hill, 
1982, at p. 19-18.
    \21\ While engineers are good, they are not perfect. Engineers 
often use different units to measure SNR and harmonic distortion. 
Although SNR is normally measured as a power ratio and expressed in dB, 
harmonic distortion is often measured as a voltage ratio and expressed 
in percent. This notational difference makes it harder for the 
nonexpert to keep track of what is going on in the four studies we 
consider. This confusion adds an unintended shell-game element to 
reading the engineering studies in the FCC's LPFM rulemaking.
---------------------------------------------------------------------------
    Although it may be possible, albeit rare, for interference to drive 
the signal into the nonlinear region and cause harmonic distortion, 
that is not usually the principal concern when considering the effects 
of interference. Interference is best treated as a different, 
extraneous source of additive noise. Thus, we measure its effects by 
considering the signal-to-noise plus interference ratio (SNIR). The 
noise we refer to here is due to thermal, environmental, or receiver 
noise that we cannot overcome and is not the interference from like 
signals residing in a co- or adjacent channel. The interference of 
concern here is external and produced by other emissions in the radio 
spectrum by other than the desired transmitter. It is what can be 
controlled by regulation. It is therefore our considered opinion that 
the deleterious effects caused by this interference must be measured. 
Other undesirable effects, inherent in the imperfections in the signal 
chain may also be present, but they are a red herring when the 
objective is to determine whether controllable external additional 
emissions such as second and third adjacent channel interference should 
be permitted to degrade expected reception quality.

    Mr. Tauzin. Thank you very much, Mr. Jackson.
    We will now hear from the FCC, the Deputy Chief, Office of 
Engineering and Technology, Mr. Bruce Franca.

     STATEMENTS OF BRUCE A. FRANCA, DEPUTY CHIEF, OFFICE OF 
ENGINEERING AND TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION; 
 EDWARD O. FRITTS, CEO, NATIONAL ASSOCIATION OF BROADCASTING; 
DAVID MAXON, FOUNDER, BROADCAST SIGNAL LAB; AND BRUCE T. REESE, 
    PRESIDENT AND CEO, BONNEVILLE INTERNATIONAL CORPORATION

    Mr. Franca. I think Mr. Jackson is right. I think we have 
just heard about junk science. Let me go on and talk a little 
bit.
    I do thank you, Mr. Chairman and members of the committee, 
for the opportunity to appear before you today to discuss the 
FCC's spectrum management responsibilities and the technical 
aspects of the Commission's recent decision to authorize low 
power FM radio stations. I will briefly summarize my written 
testimony.
    Spectrum is a valuable and finite public resource. Our 
mission at the Office of Engineering and Technology is to 
develop policies that maximize the use of the spectrum, ensure 
that stations do not interfere with one another and promote the 
introduction of new services and technologies. In other words, 
our job is to ensure that the radio spectrum is used 
efficiently and effectively. To do this we have sought to 
encourage development and deployment of new spectrum efficient 
technologies. We have also promoted greater use and sharing of 
the spectrum. Our recent decision on low power radio is an 
example of this approach.
    New LPFM stations will share the FM radio spectrum, thereby 
making more efficient use of the FM band. These low power 
stations will allow local churches, schools, community 
organizations and other citizens groups new access to the 
airways. We are, of course, aware of the differences of opinion 
that exist over whether LPFM stations will cause interference 
to existing FM service.
    Based on the technical studies by our laboratory and our 
analysis of the studies by others, we are convinced that LPFM 
service as provided for under the new rules will not adversely 
impact full service FM stations, nor will it affect their 
transition to digital service.
    The principal issue here is over whether we should have 
imposed third adjacent channel restrictions on low power 
stations. I believe the record provides strong support that 
third adjacent channel restrictions are not needed and that any 
areas experiencing interference from LPFM would be small and 
that interference would be outweighed by the benefits of the 
new service.
    Initially, I would note that we currently permit certain 
full power FM stations to modify their facilities without 
regard to either second, or third adjacent channel spacings. We 
have not received any interference complaints with such 
changes.
    All of the technical studies show that the ability of FM 
radios to reject interference on third adjacent channels is 
much better than on second adjacent channels. This is expected 
since third adjacent channels are further removed from the 
channel to which you are tuning.
    The studies also generally find that automobile radios, and 
home stereo receivers do a good job in rejecting third adjacent 
channel interference and will not be affected by low power 
stations. NAB's test results, for example, show that car 
radios, where almost half of FM listening takes place, do not 
need third adjacent channel protection.
    Our analysis also shows that the area in which additional 
interference could occur from an LPFM station would be small 
and occur only in the immediate vicinity of the low power 
station. For example, even using NAB's test results for its 
three worst FM radio categories--portable, clock and Walkman 
type personal--the area where such receivers would potentially 
experience degradation from interference is small, generally on 
the order of one kilometer or less.
    There has been considerable controversy over whether signal 
to noise ratios or harmonic distortion is a better test of 
interference. We believe both measures are appropriate. 
However, we believe that NAB's and CEA's standards for judging 
FM receiver interference are too stringent since, in fact, the 
majority of their radios did not meet their own standards, even 
in the cases where no interference was present. We have seen no 
indication from consumers that the vast majority of FM 
receivers do not provide satisfactory service.
    We also recognize that some lower quality receivers, such 
as personal Walkman-type radios, may experience additional 
interference as a result of eliminating third adjacent channel 
protections for LPFM stations. However, if, for example, we 
were to define acceptable FM service using NAB's test results 
for Walkman-type radios, the service area of a Class A radio 
station would go from a radius of about 27 kilometers to a 
radius of less than 10 kilometers. We therefore believe that a 
poor performance radio should not be used to either define 
acceptable service or unacceptable interference. That is simply 
not good spectrum management. We also believe that consumers 
are smart enough to understand that there are performance 
differences among radios.
    We also disagree with NAB's criticism of our decision to 
use harmonic distortion rather than signal to noise. We do have 
a demonstration to show you what a 1-percent distortion level 
would sound like. These recordings use special professional 
material intended for critical listening. This is obviously not 
something you would hear on a local top forty station.
    This first piece is with no impairments present.
    [Playing of sample.]
    Mr. Franca. Why don't we go to the next one? This is the 
level we determined was interference.
    [Playing of sample.]
    Mr. Franca. This is 3 percent distortion.
    [Playing of sample.]
    Mr. Franca. We have heard that test a lot, so it is even 
worse for us. There is actually another series with classical 
music.
    The point is that the 1 percent distortion level we believe 
is an appropriate level to use to make our judgments on 
interference. We clearly believe that the NAB's 3 percent level 
is plainly objectionable. I think we have done a good job here.
    In concluding, I want to thank the subcommittee for the 
opportunity to appear before you. Please be assured that we 
have, in fact, made every effort to consider all the 
information, and there certainly was a lot of information in 
this proceeding.
    I believe that the Commission's low power decision fairly 
addresses the concerns of all the parties and that these new 
stations will not compromise existing FM service.
    I would be pleased to answer any questions you may have.
    [The prepared statement of Bruce A. Franca follows:]
    Prepared Statement of Bruce A. Franca, Deputy Chief, Office of 
     Engineering and Technology, Federal Communications Commission
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the FCC's spectrum 
management responsibilities and the Commission's recent decision to 
authorize low power FM (LPFM) stations.

             THE FCC'S SPECTRUM MANAGEMENT RESPONSIBILITIES

    I would like to begin with an overview of the Commission's role in 
managing the radio spectrum. Under Section 303 of the Communications 
Act, which defines the general powers of the agency, the FCC is tasked 
with assigning bands of radio frequencies to the various classes of 
stations, assigning frequencies and power for individual stations, and 
specifying the locations where classes of stations or individual 
stations may operate. In addition, Section 7 of the Communications Act 
states: ``(I)t shall be the policy of the United States to encourage 
the provision of new technologies and services to the public.'' 
Effective management of the radio spectrum is therefore a core 
responsibility of the FCC.
    Spectrum is a valuable and finite public resource that must be 
allocated and assigned in a manner that will provide the greatest 
possible benefit to the American public. Consistent with the FCC's 
statutory obligations, we view our mission in the Office of Engineering 
and Technology (OET) as ensuring that the radio spectrum is used 
efficiently and effectively. One of our principle jobs is to help to 
define policies that maximize the efficient use of the spectrum and 
promote the introduction of new services and technologies. OET, for 
example, developed the allocation plans for cellular and PCS wireless 
communications services and for digital television service.
    Over time, technological advances, growth in user demand, and the 
finite nature of spectrum have made our spectrum management 
responsibilities increasingly complex. To address the continuing growth 
of demand for radio services, we have focused our approach to spectrum 
management on allowing spectrum markets to make more efficient use of 
frequency bands through new technologies and on increasing the amount 
of spectrum available for use. In addition, we have sought to encourage 
the development and deployment of new, more spectrum-efficient 
technologies that will increase the amount of information that can be 
transmitted in a given amount of bandwidth and to allow greater use of 
the spectrum occupied by existing services wherever possible.
    Under this approach, new services have been implemented either 
through sharing with existing operations or through reallocation of 
spectrum from existing services to new services and technologies. In 
this regard, we have, for example, developed plans for sharing between 
satellite and terrestrial fixed services and for recovery of spectrum 
from existing uses to make way for new technologies. The spectrum used 
for PCS service at 2--GHz was recovered from fixed microwave services 
that were relocated to higher bands. In addition, the efficiency of the 
digital television transmission standard has made it possible to plan 
for the reallocation of the 108 MHz of spectrum now used for television 
channels 52-69 to new public safety, commercial wireless, and broadcast 
services.

                           LOW POWER FM RADIO

    I next will discuss the Commission's decision to allow the 
operation of low power FM stations. In its January 20, 2000, Report and 
Order in MM Docket No. 99-25, the Commission authorized the licensing 
of two new classes of low power radio stations--one operating at a 
maximum power of 100 watts and the other at a maximum power of 10 
watts. The new LPFM stations will be licensed to operate on a 
noncommercial educational basis only, and to parties that do not hold 
an attributable interest in any other broadcast station or media. The 
rules also provide for a significant preference to locally based 
applicants.
    The Commission has taken a conservative approach in protecting 
existing FM service. For example, the Commission did not adopt its 
original proposals to permit 1000 watt, commercial LPFM stations and to 
allow LPFM operations on 2nd adjacent channels. In addition to 
specifying low power operation, the rules provide a number of other 
safeguards to protect existing FM stations, such as limitations on 
antenna height and separation requirements for low power stations with 
respect to full power stations operating on the same channel, on 1st 
and 2nd adjacent channels, and on intermediate frequency channels. We 
also added a 20 km buffer to the required separation distances between 
LPFM and full service stations that are operating on co- and 1st 
adjacent channels. This buffer will provide an additional margin of 
protection for full power stations that modify or upgrade their 
facilities.
    We did not, however, impose requirements for separation of LPFM 
stations from stations on 3rd adjacent channels. From the considerable 
technical record in our proceeding, we found that LPFM operation on 3rd 
adjacent channels will not result in significant new interference to 
the service of existing FM stations. Our discussions with, and comments 
from, proponents of new digital radio technologies also indicate that 
LPFM operations on 3rd adjacent channels will not impact potential 
future digital services in the FM band. (See attached illustration of 
1st, 2nd and 3rd adjacent channels on the FM radio dial.)

[GRAPHIC] [TIFF OMITTED] T2973.001

    Our decision in this matter followed a nearly one-year long 
public comment period extended four times between January and 
November 1999. We granted these four extensions at the request 
of the broadcasting industry, at times over the strong 
opposition of other parties in the proceeding. We did so to 
give broadcasters and all other parties a more than ample 
opportunity to comment on the proposed LPFM service. During 
this lengthy comment period the Commission received significant 
expressions of interest and public support for LPFM service. 
The Commission received comments and letters from thousands of 
individuals and groups seeking licenses for new radio stations. 
These comments--from churches or other religious organizations, 
schools, colleges, students, community organizations, musicians 
and other citizens--reflected a broad interest in, and need 
for, service from highly local radio stations that are strongly 
grounded in their communities. The plan for LPFM service 
adopted by the Commission will address these needs by enhancing 
listeners' access to locally focused, community-oriented radio 
broadcasting.
    In providing for the operation of LPFM radio stations, we 
have followed the principles of our general approach to 
spectrum management: the new LPFM stations will share the FM 
radio spectrum with existing stations, thereby making more 
efficient use of the FM band. In establishing this service, the 
Commission was also following two longstanding foundation 
principles under Section 307(b) of the Communications Act in 
providing spectrum for broadcast use. The first is to promote a 
diversity of media voices. The second is to adopt policies that 
facilitate and encourage the operation of broadcast services 
that meet local needs and specialized interests wherever 
possible. Consistent with these principles, the Commission's 
first goal in establishing a new LPFM service was to create a 
class of radio stations that would serve very localized 
communities or underrepresented groups within communities. This 
new service will enhance service to the public by providing 
service opportunities for parties who had previously been 
denied access to broadcast spectrum. A second, specific, goal 
was that the LPFM service include the voices of community-based 
schools, churches, and civic organizations.
    The Commission in planning for the LPFM service also 
emphasized that it would not compromise the integrity of the FM 
radio spectrum. The Commission was particularly cognizant of 
the concerns of FM broadcasters with regard to both existing 
service and possible options for FM stations to provide digital 
service. Addressing these concerns, the Commission stated that 
it was determined ``to preserve the integrity and technical 
excellence of existing FM radio service, and not to impede its 
transition to a digital future.'' In this regard, the principal 
technical issues in this proceeding have been the potential for 
new low power stations to cause interference to existing FM 
radio service and to impact future digital radio technologies, 
such as In-Band On-Channel, or ``IBOC,'' systems. Based on our own 
technical studies and analyses of studies by a number of 
others, we are convinced that LPFM service, as provided under 
the new rules, will not adversely impact reception of full 
service FM stations, nor will it affect the transition of these 
stations to digital service using IBOC technology that 
transmits digital signals on adjacent channels.

           Third Adjacent Channel Protection Is Not Necessary

    Of course, I am aware of the differences of opinion that 
exist, particularly on the part of full service FM stations and 
their representatives, over whether LPFM stations will cause 
interference to existing FM service. The principle issue here 
is over whether we should have imposed 3rd adjacent channel 
restrictions on LPFM stations. The main determinative factor is 
the ability of FM receivers to operate satisfactorily when 
signals from LPFM stations are present on 3rd adjacent 
channels. I believe that the record provides strong support 
that 3rd adjacent channel restrictions are not needed for LPFM 
and that any areas experiencing interference would be very 
small and would be outweighed by the benefits of the new 
service.
    Initially, I would point out that during the period from 
1964 to 1987, pre-1964, ``grandfathered,'' short-spaced full 
power FM stations were permitted to modify their facilities 
without regard to either 2nd or 3rd adjacent channel spacings. 
No interference complaints were received as a result of such 
modifications, and this policy was re-instituted in 1997, again 
without subsequent interference complaints. Similarly, in 1991, 
the Commission decided to accept small amounts of potential 2nd 
and 3rd adjacent channel interference in the noncommercial FM 
service where such interference is counter-balanced by 
substantial service gains.

                           Technical Studies

    In addition to these historical precedents, the technical 
data submitted in the proceeding also supports the conclusion 
that 3rd adjacent channel restrictions are not needed to 
protect full service FM stations from LPFM operations. As you 
are aware, three technical studies of FM receivers were filed 
in response to the Commission's Notice of Proposed Rule Making. 
These studies were submitted by the Consumer Electronics 
Association (CEA), the National Association of Broadcasters 
(NAB), and the National Lawyers Guild (NLG).<SUP>1</SUP> In 
addition, our Office conducted its own study of a sample of 21 
FM receivers. Taken together, the studies examined 75 consumer 
FM radios of various types and performance capabilities, 
including automobile radios, component tuners or receivers, 
portable radios such as ``boom boxes,'' personal radios such as 
``Walkman'' type units, and clock radios. Finally, the NAB and 
CEA filed supplementary technical information in their reply 
comments, and the Media Access Project submitted in its reply 
comments a Technical Analysis of the Low Power FM Service 
prepared by Professor Theodore Rappaport, James S. Tucker 
Professor of Electrical Engineering, Virginia Tech, and 
Chairman, Wireless Valley Communications, Inc., Blacksburg, Va.
---------------------------------------------------------------------------
    \1\ See FM Interference Tests, Laboratory Test Report, Thomas B. 
Keller, Robert W. McCutheon, Consumer Electronics Manufacturers 
Association (CEMA), conducted under the auspices of National Public 
Radio (NPR), CEMA and the Corporation of Public Broadcasting (CPB); 
Technical Studies and Reports filed by the National Association of 
Broadcasters; and, Receiver Evaluation Project conducted by Broadcast 
Signal Lab, LLP for the National Lawyers' Guild, Committee on 
Democratic Communications. CEMA has since become the Consumer 
Electronics Association (CEA).
---------------------------------------------------------------------------
    These studies provide a substantial body of information on 
FM receiver performance in the presence of interfering signals. 
Unfortunately, the studies used different methodologies that 
make direct comparisons between them difficult. However, as the 
NAB stated in its reply comments, the significant differences 
among the studies were not in the measurements or in the 
performance of the radio receivers tested, but rather, in the 
definition of impaired reception. We generally concur with that 
assessment and believe that the most significant differences in 
the conclusions of these studies are the result of variations 
in the definitions of desired service and when the desired 
service is impaired.

NAB/CEA Criteria Are Inappropriate for Today's FM Service

    Both CEA and NAB, for example, generally find the 
performance of today's FM radios unacceptable because they do 
not meet their presupposed desired levels of performance. For 
example, 17 of the 28 radios tested by the NAB failed to meet 
its standard of 50 dB audio signal-to-noise ratio (S/N) 
performance with no interference present and with the 
``strongest'' desired signal level tested.<SUP>2</SUP> 
Similarly, CEA reports that none of its sample receivers ``came 
near meeting'' its 45 dB S/N performance target at the current 
FCC protection standards for full power co-channel stations. 
While such performance levels may indicate more interference 
from prospective LPFM stations, we fail to see how such levels 
can be appropriate measures when most radios do not perform to 
these levels, even in the absence of any interference, as was 
the case in NAB's tests.
---------------------------------------------------------------------------
    \2\ Signal-to-noise (S/N) is one of the ways to characterize audio 
quality. It is the measure of the relative volume of the desired sound 
to the noise that may be present in the system. Noise manifests itself 
as ``hissing'' or static. A higher S/N ratio indicates better audio 
quality. A lower S/N ratio means the output will sound noisier. S/N 
ratio is measured in decibels or dB, a logarithmic expression of 
ratios. For example, 10 dB means that the signal is ten times stronger 
than the noise and 20 dB means that the signal is 100 times greater 
than the noise. To meet the NAB 50 dB S/N criterion, the volume of the 
desired sound would have to be 100,000 times stronger than the volume 
of the noise. Since many of the radios tested by NAB did not meet its 
50 dB value, NAB also employed a degradation in S/N of 5 dB as a 
measure when the desired service is impaired.
---------------------------------------------------------------------------
    Moreover, we have seen no indication from consumers that 
they find that the vast majority of FM receivers do not provide 
satisfactory service. Therefore, as stated in our Report and 
Order, we do not find the S/N levels suggested by CEA or NAB to 
be appropriate interference criteria for today's FM radio 
service. We also note that a previous study by the NAB 
indicated that the current FCC co-channel protection 
requirement for FM stereo yields an audio S/N of about 30 dB, 
not the 50 dB suggested by NAB in its technical study. 
<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ See NAB study entitled, ``Subjective Evaluation of Audio 
Degraded by Noise and Undesired FM Signals'' by Lawrence C. Middlekamp, 
November 17, 1982, cited in para. 97, p. 38, of the FCC's Report and 
Order in MM Docket No. 99-25.
---------------------------------------------------------------------------

Receivers Are Better at Rejecting 3rd Adjacent Channel Interference

    Notwithstanding the differences among the technical studies 
regarding performance standards, there are important 
consistencies in the study results that we find support a 
conclusion that 3rd-adjacent channel restrictions are not 
needed for LPFM stations. All four studies show that the 
ability of FM radios to reject interference from signals on a 
3rd adjacent channel is generally much better than from 
interference from signals on a 2nd adjacent channel. This is to 
be expected since 3rd adjacent channel is further removed from 
the desired channel to which you are tuning. (See again the 
attached illustration.)
    The OET and NLG studies generally conclude that FM 
receivers provide for adequate rejection of interference on 2nd 
and 3rd adjacent channels. The OET study, for example, finds 
that nearly all of our receivers appear to meet the 2nd 
adjacent channel protection criteria and exceed the 3rd 
adjacent protection criteria by about 8-10 dB, a wide margin. 
While CEA and NAB argue that their studies show that the 
adjacent channel protections should be retained, a review of 
CEA's results shows that its median receiver provides about -40 
dB of rejection of 3rd adjacent channel interference, and that 
this margin of performance is about 3 to 7 dB better than 2nd 
adjacent performance for its sample. Similarly, the NAB tests 
also show 3rd adjacent channel performance to be substantially 
better than 2nd adjacent--on the order of 8 to 10 dB. This 
means that radios can generally reject signals on a 3rd 
adjacent channel that are about six to ten times stronger than 
signals on 2nd adjacent channels.
    The studies also found that automobile radios and home 
stereo/component receivers tend to be more effective at 
rejecting adjacent channel interference than clock, personal 
and portable radios. Our examination of the studies indicates 
that automobile radios and home stereo/component receivers 
generally are able to provide -40 dB or more rejection of 3rd 
adjacent channel signals and therefore generally will provide 
acceptable service in the absence of 3rd adjacent channel 
protection. NAB's test results, for example, show that FM 
radios in automobiles, where most FM listening is done, meet 
the current -40 dB criteria.
    We also recognize that poorer quality receivers, such as 
personal and clock radios, may experience some additional 
interference as a result of eliminating the 3rd adjacent 
channel protection for LPFM stations. We note, however, that 
these classes of radio may also experience some degree of 
interference from co- and 1st adjacent channel full power FM 
stations operating within the existing protection requirements. 
We also believe that consumers generally understand that there 
are performance differences among the classes of radios and 
that they accept the fact that lower cost radios may provide 
more limited service capabilities. We therefore believe that 
our decisions with regard to LPFM service should not be 
constrained solely by the performance limitations of lower cost 
radios any more than we should use those radios to redefine 
existing FM radio service. For example, if we were to define 
acceptable FM radio service using NAB's performance measure and 
NAB's median test results for personal radios--the radius of a 
6 kilowatt Class A radio station's protected service area would 
go from 27.5 km to less than 10 km. This is because such radios 
do not provide acceptable service as defined by NAB beyond 
about 10 km, even in the absence of any interference. I do not 
believe that this is a realistic approach, as this would ignore 
service provided to radios that provide more typical 
performance, and would unfairly reduce the station's expected 
audience reach.

Potential Interference from LPFM is Small

    We also found that the area in which any additional 
interference would be likely to occur from an LPFM station 
operating on a third adjacent channel at maximum facilities of 
100 watts and antenna height of 30 meters above average terrain 
would be very small and occur only in the immediate vicinity of 
the LPFM station. For example, even using NAB's median receiver 
performance test results for its three ``worst'' FM radio 
categories, i.e., clock, personal and portable, we find that 
the area where such receivers could potentially experience 
degradation from interference is small, generally 1 km or less. 
This interference analysis is shown in the following table:

                              LPFM Potential Interference Radius Based on NAB Tests
----------------------------------------------------------------------------------------------------------------
                                                                     Desired Signal Level
                                            --------------------------------------------------------------------
             Receiver Category                 -45 dBm (Close to     -55 dBm (~Principle    -65 dBm (~Protected
                                                    Station)              Community)              Service)
----------------------------------------------------------------------------------------------------------------
Clock......................................       0.3 km (0.2 mi.)       0.7 km (0.4 mi.)       2.1 km (1.3 mi.)
Portable...................................       1.0 km (0.6 mi.)       0.9 km (0.6 mi.)       1.0 km (0.6 mi.)
Personal...................................       0.4 km (0.3 mi.)       0.5 km (0.3 mi.)       0.5 km (0.3 mi.)
----------------------------------------------------------------------------------------------------------------

    The above Table shows the approximate radius around an LPFM station 
where interference could potentially occur to a 3rd adjacent channel 
full service station with different types of radios, based on the NAB 
test data. As indicated in the Table, the area of potential 
interference depends on the type of radio used and on whether the LPFM 
station is located relatively close to the ``desired'' full power 
station, i.e., at the -45 dBm contour, or whether the LPFM station is 
at the edge of the full power station's service area, i.e., at the ``65 
dBm contour. For example, if an LPFM station is located about 9 or 10 
km from a 3rd adjacent channel Class A full power station (-45 dBm), a 
listener using a clock radio located about 0.3 km (about 1000 feet) 
from that LPFM station could experience some degradation in service. If 
the LPFM station is located at the edge of service of the full power 
station, the radius of potential interference would increase to about 
2.1 km. Alternatively, if the listener were using a personal or 
``Walkman'' type radio at the edge of coverage of the full power 
station, the potential interference area would have a radius of about 
0.5 km.
    It should be noted, however, that the actual audio S/N value that 
NAB uses to ``define'' where interference begins would be different for 
these two cases. For clock radios, interference at the edge of coverage 
would be said to begin to occur at a value of 41.5 dB S/N. This is a 
level we believe that most listeners would find more than acceptable 
for clock radio use. In the case of the personal radio, the value would 
be 20.3 dB, which may indicate, as discussed above, that these radios 
are not providing satisfactory service out to the protected contour of 
a full service station.
    Further, we believe that this analysis provides a conservative 
estimate of the actual interference potential of LPFM, given NAB's 
performance criteria and the fact that NAB's sample included some of 
the poorer performing radios among the four studies. In addition, 
whether interference, in fact, occurs to FM listening depends on a 
number of factors, besides the performance of the FM receiver. These 
include, among other things, the actual reception conditions, such as 
the location and position of the radio, the frequency and location of 
both the desired and undesired stations, and the type of program 
material being transmitted and received. CEA noted, for example, that 
when the desired signal was modulated with rock music the interference 
was masked in its 2nd and 3rd adjacent channel subjective tests.

                               CONCLUSION

    Based on the record before us, we therefore found that LPFM 
stations operating with 100 watts power or less on 3rd adjacent 
channels would not result in significant new interference to the 
service of existing FM stations. The Commission also concluded that any 
small amount of interference that might occur would be outweighed by 
the benefits to listeners from the new services to be provided by LPFM 
stations. With regard to 2nd adjacent channel protection requirements, 
we concluded that, since receiver performance appears to be only at 
about the same level as that provided in the rules, the risk of 
interference from LPFM signals on 2nd adjacent channels may be somewhat 
higher. We therefore applied 2nd adjacent channel separation 
requirements to these stations that are consistent with the -40 dB 
standard reflected in the current FM rules.
    In concluding, I want to express my gratitude to the Subcommittee 
for the opportunity to appear before you today. The Commission 
understands and shares the industry's concerns for protecting the 
integrity of the FM band. Please be assured that we have made every 
effort to consider all the available information in this matter. I 
believe the Commission's LPFM decisions fairly address the concerns of 
all interests and that this new service will not compromise existing FM 
service. I would be pleased to answer any questions you may have.

    Mr. Tauzin. Thank you very much.
    When we do get to Q & A, I will ask each of you to comment 
on each other's demonstrations. I think that would be very 
constructive for us.
    The Chair now recognizes Mr. Fritts for his statement. 
Remember, all witnesses, we have your written statements, so 
please try to conclude in 5 minutes if you can.
    Mr. Fritts?

                  STATEMENT OF EDWARD O. FRITTS

    Mr. Fritts. Thank you, Mr. Chairman.
    I am not an engineer and you will not hear about DBUs and 1 
and 3 percents.
    We appreciate you holding this hearing early in the session 
to focus on what we believe will be the impending disaster of 
the FCC's low power FM rule which is about to take place.
    Let us put things in perspective. There are 12,000 radio 
stations licensed in the United States now. To sort of get a 
grip on that, there are only 18,000 Burger King franchises in 
the world and there are 12,000 radio stations in the United 
States now.
    I have been President and CEO of NAB for some 18 years and 
prior to that, for more than 20 years, I was a licensee and 
group owner of a number of radio stations in the south. Never 
before have I seen the FCC act with such willful disregard for 
Congress or to turn its back on the spectrum integrity they 
were trusted to oversee.
    I am not an engineer but what I heard Mr. Franca say, and I 
have great respect for him, is that yes, we are going to cause 
interference and we hope that you will accept it.
    This is a case where I believe the FCC has abandoned its 
historic mission and really and truly forgotten the American 
consumer. Congress established the communications regulations 
back in 1927 to ensure clear, interference-free radio service 
and to end the technical chaos on the airways which existed 
through the 1920's.
    Back in the early 1980's, ignoring this obligation, the FCC 
at that time decided that it should reduce the interference 
protections for FM radio to add thousands of new stations in 
the name of diversity. That proceeding, now the infamous Docket 
80-90, only created the opportunity for radio stations to fail. 
I might add that 2,500 new FM stations have been added since 
that time.
    By the early 1990's, more than 60 percent of all radio 
stations were losing money. The FCC's misguided plan, in part, 
resulted in the Congress' decision to deregulate radio 
ownership back in 1996. There is no demonstrated need in the 
record that supports the establishment of LPFM stations, but I 
am sure if you were to ask people on the street, would you like 
to have your own radio station, most everyone would say yes. By 
using that logic, pretty soon when babies are born, we will be 
handing them their own radio license along with their social 
security card.
    Think about this for a moment. For decades, the policy at 
the FCC has been that low power radio stations are an 
inefficient use of the spectrum. In fact, the Commission has 
developed an extensive and detailed record and consistently 
rejected proposals to create low power radio services.
    Just 5 years ago, the FCC said that low power radio, 
``would lower the quality of FM broadcasting service.'' LPFM 
will simply create islands of service in a sea of interference. 
Although the laws of physics have not been repealed, the FCC 
has clearly turned this longstanding policy on its head.
    The FCC says it is doing this to increase diversity but the 
evidence of our study and of an FCC study shows that listeners 
get more formats now than before consolidation began in 1996. 
The trend is increasing. As one example, there were only 400 
Hispanic radio stations in the United States in 1996; now there 
are 600.
    The FCC's goal of creating more diversity is laudable and 
we certainly support that, but this low power decision will not 
solve that problem. The FCC claimed that the demand for the new 
service is greatest in highly populated areas. We all recognize 
that but they have also acknowledged that there will be few, if 
any, LPFM stations located in those major metropolitan areas. 
It just won't happen. Instead, most of the stations will be 
located in small markets where vacant, full power allocations 
go begging now.
    As Commissioner Michael Powell pointed out, ``It is the 
current FM stations in those very small markets, including 
stations run by women and minorities, that could suffer most 
from LPFM.'' As the Commissioner stated, ``It would be a 
perverse result indeed if these stations were to fail or the 
quality of locally originated programming suffered because new 
LPFM stations diluted their already tenuous base of support.''
    Commissioner Harold Furchtgott-Roth called the FCC's 
decision ``a rush to judgment.'' I call it a rush to create 
interference before the Congress finds out about it.
    The vice chairman of this committee, as noted this morning, 
Mr. Oxley and his colleague, Mr. Pallone, have introduced 
legislation to stop this ill-fated proposal. He currently has 
113 co-sponsors.
    Given the FCC's unwillingness to follow its core obligation 
to protect the spectrum, I see no other option than for 
Congress to say no to low power FM.
    Wrapping up, Mr. Chairman, you and other members of the 
committee and this Congress will stand up for your constituents 
and the listeners to local radio stations who depend on local 
radio for entertainment, news, weather and sports. The time to 
move H.R. 3439 is now. We hope you will do it as soon as 
possible and send a powerful message to the FCC. That message 
is, we will not allow politics at the FCC to disrupt local 
radio service.
    Thank you.
    [The prepared statement of Edward O. Fritts and Bruce T. 
Reese follows:]

  PREPARED STATEMENT OF EDWARD O. FRITTS, PRESIDENT AND CEO, NATIONAL 
  ASSOCIATION OF BROADCASTERS AND BRUCE T. REESE, PRESIDENT AND CEO, 
                  BONNEVILLE INTERNATIONAL CORPORATION

                              INTRODUCTION

    Thank you, Mr. Chairman, for the opportunity to appear before the 
House Telecommunications Subcommittee today. The National Association 
of Broadcasters (NAB) represents the owners and operators of America's 
radio and television stations. Our remarks today will address the Low 
Power FM (LFPM) Radio Service adopted by the Federal Communications 
Commission (FCC) on January 20, 2000.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Report and Order in MM Docket No. 99-25, Creation of a Low 
Power Radio Service, adopted January 20, 2000; released January 27, 
2000.
---------------------------------------------------------------------------
    The FCC has a fundamental obligation under Section 1 of the 
Communications Act to ``make available--a rapid, efficient, Nation-wide 
and world wide wire and radio and communication service.'' FCC Chairman 
William E. Kennard noted in his Separate Statement on the LPFM Report 
and Order that ``at the heart of this mandate is the notion of opening 
up new opportunities in a way that protects the integrity of existing 
services.'' <SUP>2</SUP> This mandate should be read in light of the 
history that gave rise to communications regulation in the 1920's--the 
need to control interference to radio service. NAB believes the FCC has 
abandoned its mandate and primary function of spectrum manager and has 
crossed over to social engineering at the expense of the integrity of 
the spectrum for existing FM broadcast stations and their listeners.
---------------------------------------------------------------------------
    \2\ See Separate Statement of Chairman William E. Kennard, Re: 
Creation of a Low Power Radio Service (MM 99-25) at 2.
---------------------------------------------------------------------------
    NAB fully supports H.R. 3439, a bill that would rescind the FCC's 
newly adopted LPFM rules. Representatives Oxley and Pallone, and the 
other 70 co-sponsors have begun an important step to undo the FCC's 
action in order to protect free, over-the-air FM broadcasting from 
further interference. Further, NAB applauds the Subcommittee for 
holding today's hearing in order to gain more insight into this 
important issue. The FCC has failed in its mandate to properly weigh 
the costs and benefits of its new service and rushed to judgment 
without taking into account the volumes of evidence in its record that 
point to an opposite conclusion than the one it reached.

 FROM THE BIRTH OF LPFM TO THE DEATH OF SPECTRUM INTEGRITY: THE FCC'S 
                      RUSH TO CREATE A NEW SERVICE

    Not even 13 months ago, on January 28, 1999, the FCC voted to adopt 
a Notice of Proposed Rule Making designed to establish an LPFM service. 
The FCC proposed to authorize two levels of LPFM service--1000-watt 
stations or 100-watt stations. It also sought comment on whether it 
should authorize a service with stations at 10 watts or less. The FCC 
proposed to drastically alter the technical rules applicable to FM 
broadcasting in order to ``make room'' for enough new LPFM entrants to 
justify its efforts in pursuing the service.
    The FCC asked for substantial technical evidence regarding existing 
FM receivers because its proposals would have a direct effect on how 
these radios would perform with additional LPFM stations inserted into 
the crowded FM band.<SUP>3</SUP> The FCC proposed to loosen its 
interference protection separation distances to introduce more LPFM 
stations. It believed that there would be minimal interference to 
existing radio service because radios would be able to adequately 
reject the additional signals produced by the LPFM stations; however, 
at that time, the FCC had not conducted its own study to test its 
assumption.
---------------------------------------------------------------------------
    \3\ Currently, there are almost 8,000 full-power FM radio stations 
operating in the United States.
---------------------------------------------------------------------------
    The adjacent channel interference separation distances are in place 
to help prevent interference from occurring to stations that operate 
near one another on the band. These adjacent channel stations need to 
have a specific amount of mileage between transmitter locations so that 
their signals do not bleed into each other, resulting in the listening 
public's inability to properly receive the signals virtually 
interference-free.
    At the FCC's request, three independent parties submitted receiver 
studies into the docket.<SUP>4</SUP> The FCC's Office of Engineering 
and Technology (OET) also prepared a report of its receiver testing. 
NAB provided a detailed technical study to the FCC regarding FM radio 
performance in the absence of second- and third-adjacent channel 
protections.<SUP>5</SUP> NAB tested 28 radios from five different 
categories.<SUP>6</SUP> This sample was the largest and most 
representative of the universe of existing FM receivers of any of the 
receiver studies submitted into the record.<SUP>7</SUP>
---------------------------------------------------------------------------
    \4\ In addition to NAB's receiver study, the Consumer Electronics 
Manufacturers Association (CEMA, now the Consumer Electronics 
Association), National Public Radio and the Corporation for Public 
Broadcasting conducted and submitted a study. Additionally, the 
National Lawyers Guild and various LPFM proponents conducted their own 
receiver study.
    \5\ A copy of the NAB's comments and reply comments has been 
attached to this testimony for incorporation into the record of this 
hearing.
    \6\ NAB tested eight car radios, five home stereos, five portable/ 
``boom boxes'', five personal/ ``Walkman'' radios and five clock 
radios.
    \7\ Attached to these written comments as Appendix A is a brief 
comparison of the four receiver studies comparing the number of radios 
tested, the types of radio tested and the test methodology.
---------------------------------------------------------------------------
    In order to quantify the amount of interference that would result 
with the introduction of LPFM, a definition of unacceptable 
interference had to be developed. We chose an interference standard 
that is based on subjective audience listening and one that was also 
relied on by the FCC in past proceedings, and which is supported by 
international standards.<SUP>8</SUP> This was the benchmark NAB used to 
determine whether radios would acceptably reject adjacent channel 
interference. By contrast, the OET study focused only on distortion, a 
measure that has not previously been used to evaluate interference. Our 
study indicated that a majority of the radios tested did not perform up 
to the level previously assumed by the FCC, and certainly did not show 
that radio performance had improved. Car radios and home stereos 
generally were able to reject adequately the interfering signals. 
However, portable radios, personal radios and clock radios--those 
categories that make up 65.3% of the radios sold in 1998--failed to 
perform up to a level that could conceivably be considered ``fair'' 
reception under accepted testing standards.<SUP>9</SUP>
---------------------------------------------------------------------------
    \8\ Our study used the ITU Recommendation 641, ``Determination of 
Radio-Frequency Protection Ratios For Frequency-Modulated Sound 
Broadcasting,'' 1986, Geneva, Switzerland. This ITU standard sets a -50 
dB signal-to-noise ratio as acceptable reception. On a subjective 
listening chart, perceived impairment from interference at this level 
is rated at ``slightly annoying.'' Any reception levels produced by a 
radio above this number indicated the radio could reject the adjacent 
channel signal, any number below this level indicated the listener 
would receive an unacceptable amount of interference. It should be 
noted that some of the tested radios did not perform at this level 
without injecting additional interference. In those cases, we 
determined that unacceptable interference occurred when the radio's 
reception dropped 5 dB from its initial level. NAB supported this 
alternative interference criteria method in our Comments. Although the 
FCC criticized this aspect of our study, if we had not used the 
alternative criteria, the results would have shown even greater harm 
from the introduction of LPFM.
    \9\ See NAB Comments, Vol. 2.
---------------------------------------------------------------------------
    After the receiver testing was completed, NAB took the analysis one 
step further and conducted a study to determine how much interference 
could result in the 60 cities the FCC had initially studied to 
determine if LPFM was feasible. NAB used the FCC's computer program to 
study the effects of the transmitter locations of LPFM stations in 
these 60 cities. Then, we applied the data from our receiver testing to 
approximate the areas of interference resulting from the LPFM 
allotments. Finally, we used population data to estimate the number of 
listeners who would receive unacceptable interference to at least one 
full-power FM station due to an LPFM station being dropped in under the 
FCC's proposal. NAB found that, conservatively, millions of people 
would experience interference in these 60 cities.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ See NAB Comments, Vol. 3, at 20.
---------------------------------------------------------------------------
    NAB concluded that radio receivers have not improved in their 
interference rejection capabilities, and thus, the FCC's key assumption 
in its Notice was unwarranted. Further, we commented that because the 
FCC relied on this assumption as its justification for proposing an 
LPFM service, the FCC could not adopt its proposed LPFM service because 
it would cause unacceptable levels of interference to the listening 
public.
    For Reply Comments, NAB commissioned two independent analyses of 
all four receiver studies because of the different conclusions reached 
by the studies. The NAB and CEMA studies concluded that unacceptable 
interference would result from the LPFM proposal, and thus the 
Commission could not loosen its interference protections for LPFM. The 
National Lawyers Guild and the OET determined that radios could reject 
the additional interference, and thus LPFM stations could be 
authorized.
    NAB's review provided the FCC with a detailed comparison of the 
type of receivers tested, the interference criteria used and the test 
methodology.<SUP>11</SUP> Both groups of experts concluded that NAB's 
testing was the most comprehensive and NAB's test methodology of using 
signal-to-noise ratios was the appropriate way to test for signal 
interference. One group of experts went further to prove that, although 
the four studies applied different methodologies and different 
conclusions were reached, the main difference between the studies was 
the definition of when unacceptable interference results.<SUP>12</SUP> 
Those same experts concluded that NAB provided the strongest support 
for our interference criteria and that the listening public would 
likely demand a higher level of reception quality.
---------------------------------------------------------------------------
    \11\ See NAB Reply Comments at Appendix A and B.
    \12\ See NAB Reply Comments at Appendix B.
---------------------------------------------------------------------------
    It is important to note that in addition to the volumes of comments 
provided by NAB in this proceeding, thousands of other comments were 
filed, generating a huge record for the FCC to consider. Yet, a little 
over two months after the comment period officially closed, the FCC 
adopted a Report and Order authorizing two levels of LPFM service--one 
level for 100 watt stations and another ``microradio'' level where 
stations operate at 10 watts or less.
    NAB believes the FCC failed to adequately analyze the interference 
issue and mistakenly relied on the OET receiver study--one that experts 
have concluded does not properly measure the audible effects of the 
interference that will result.<SUP>13</SUP> At least two FCC 
Commissioners also questioned whether the interference issue was 
properly resolved prior to the adoption of the Report and Order. 
Commissioner Michael Powell, in his separate statement, confessed that 
he has ``no clear idea as to whether or not existing broadcasters will 
suffer intolerable interference'' and suggested a phase-in approach 
that would have answered questions before any harms are 
realized.<SUP>14</SUP> Further, Commissioner Furchtgott-Roth said, 
``There are real costs--to existing stations, their listeners, and to 
public perception of the quality of FM radio as a media service--here 
that the Commission has not even attempted to quantify.'' <SUP>15</SUP> 
Finally, the Commission itself noted in its Report and Order that the 
limited number of receivers tested makes it difficult to draw 
statistical inferences with regard to the general population of FM 
receivers.<SUP>16</SUP> This fact alone should have given the FCC pause 
as to whether it could have--and should have--adopted LPFM rules.
---------------------------------------------------------------------------
    \13\ See NAB Reply Comments at Appendix B.
    \14\ See Separate Statement of Commissioner Michael Powell at 3.
    \15\ See Separate Statement of Commissioner Harold Furchtgott-Roth 
at 1.
    \16\ Report and Order in MM Docket No. 99-25 at para. 98.
---------------------------------------------------------------------------

   WHAT ARE THE BENEFITS OF AN LPFM SERVICE THAT OUTWEIGH THE COSTS?

    In order to justify adopting an LPFM service, in its Report and 
Order the FCC relies on a cost/benefit analysis. It recognized that 
some interference would be caused by LPFM, but concluded that the 
benefits outweighed the costs. Such an analysis, if done properly, 
identifies and weighs the benefits of an action with the costs that 
will be incurred. NAB believes the FCC failed to properly conduct this 
analysis.

The FCC's View of the Benefit of LPFM Service

    The FCC believes that the establishment of a LPFM service will 
permit a greater number of new stations to be authorized and will 
foster diversity of voices on the airwaves. Both Chairman Kennard and 
Commissioner Gloria Tristani note this new service is important because 
they believe that the radio broadcast industry has become too 
concentrated since the Telecommunications Act of 1996 was signed into 
law. They believe that this consolidation has led to a decrease in 
diversity on the airwaves.
    There has been significant consolidation in the radio industry 
since Congress relaxed the ownership limits on radio stations to 
bolster the economic efficiencies that result from common ownership. 
This Congressional policy decision has not negatively affected the 
diversity of formats available to listeners. NAB provided substantial 
evidence to the FCC in the LPFM proceeding that format diversity has 
increased in the last three years, as stations have been able to 
diversify to reach particularized audiences.<SUP>17</SUP> Indeed, an 
earlier FCC study itself reached the same conclusion. Thus, the choices 
for listeners have increased--not decreased to where ``national play 
lists and syndicated programming'' are prevalent, as Commissioner 
Tristani believes.<SUP>18</SUP> Thus, the existence of the ``problem'' 
the FCC identified is not supported by the facts.
---------------------------------------------------------------------------
    \17\ See Format Availability After Consolidation, NAB Comments, 
Vol. 1, Attachment B.
    \18\ See Separate Statement of Commissioner Gloria Tristani, Re: 
Creation of a Low Power Radio Service (MM 99-25). Commissioner Tristani 
believes that LPFM is ``a partial antidote the negative effects of 
consolidation.''
---------------------------------------------------------------------------
    Further, NAB provided a study to the FCC of the radio marketplace 
that concluded that a significant percentage of independent voices 
exist in the radio market--including larger markets--even after 
consolidation.<SUP>19</SUP> For example, NAB's study shows that 
nationally, 28.8% of all commercial radio stations in all Arbitron 
metros are standalone stations, while another 21.4% are part of a local 
two-station operation. Thus, nearly half of the commercial radio 
stations in the nation are still either a standalone station or part of 
a duopoly in their market, and not part of a large group, as assumed by 
the FCC.
---------------------------------------------------------------------------
    \19\ See Independent Radio Voices in Radio Markets, NAB Comments, 
Vol. 1, Attachment A.
---------------------------------------------------------------------------
    With this evidence, we proved that the FCC's assumptions that 
consolidation permitted by the Telecommunications Act of 1996 has 
eliminated independent voices in the radio industry and reduced format 
diversity are unfounded. Congress should not let the FCC determine 
whether to effectuate the will of Congress. In this instance, the FCC 
has concluded that consolidation has had a negative effect--despite the 
evidence provided by NAB that points to the contrary--and has adopted 
new rules designed to counteract the policy set by Congress in 1996.
Any Alleged Benefit Will Not Be Realized
    The FCC states that it is modifying its interference protections in 
order to provide room for LPFM stations in markets that otherwise would 
not have space available. The FCC believes that the greatest demand for 
LPFM stations will be in highly populated areas where it believes 
alternative forms of radio service are most needed.<SUP>20</SUP> 
However, it is these same highly populated areas where virtually no 
LPFM stations can be allocated, no matter how the FCC alters its 
interference protections. In this particular case, it appears that the 
FCC's goal and benefit of new voices can never be realized in most of 
the major markets.
---------------------------------------------------------------------------
    \20\ Report and Order at para. 2.
---------------------------------------------------------------------------
    Alternatively, the FCC's LPFM plan will provide numerous 
opportunities in the smaller and medium sized markets where the lack of 
demand for such services has left hundreds of available full-power 
allotments open. Thus, the fact that there is spectrum standing open 
begs whether there was a need for the new voices in these markets in 
the first place. Also, as we note below, the benefit is diminished--if 
not extinguished--by interference to LPFM stations from full-power 
stations and other LPFM stations. This is another fact the FCC entirely 
ignored.
    In short, the FCC only identified one benefit to its LPFM service--
the provision of new diversity of voices. However, this benefit will 
not be realized in the areas where the FCC believes it is needed the 
most and it is questionable whether the benefit is needed elsewhere. In 
making its decision, the FCC claims to have weighed the costs and the 
benefits and concluded that the one benefit substantially outweighs the 
costs associated with its implementation of LPFM service. The truth of 
the matter is that the FCC has not properly weighed the costs because 
it has chosen to ignore a substantial part of the record in order to 
justify implementing its new service.

The Costs Ignored by the FCC

    There are three areas where the FCC has ignored--or mistakenly 
undervalued--the costs of an LPFM service on the listening public, on 
existing broadcasters, and in some cases, on even the LPFM stations. 
The first area is one of interference.
    As noted above, NAB provided in the record a substantial receiver 
study and a comprehensive critique of the other receiver studies. The 
conclusion of those studies is that there will be significant 
unacceptable interference due to the introduction of LPFM service. This 
interference will affect the American public's ability to receive full-
power station signals. The FCC claims to have analyzed the record and 
concluded the risk of interference is minimal. However, in the FCC's 
Report and Order, there is virtually no discussion of NAB's expert 
critique of the OET study and no attempt to quantify the interference 
potential in order to properly weigh this against the alleged benefit.
    The conclusions reached by the FCC were made by discounting the 
interference suffered by less expensive radios. In the Report and 
Order, the FCC recognized that poorer quality radios may experience 
some additional interference. However, it believes that its decisions 
``should not be constrained solely by the performance limitations of 
lower cost radios any more than we should use those radios to redefine 
existing FM radio service.'' <SUP>21</SUP> This decision is an abrupt 
reversal of the FCC's Notice, where it assumed current radios had 
improved at rejecting interference. In the face of evidence that the 
typical radio instead performs worse, the FCC simply decided to ignore 
the evidence.
---------------------------------------------------------------------------
    \21\ Report and Order at para. 98.
---------------------------------------------------------------------------
    Additionally, NAB provided evidence that showed the threat of 
interference to LPFM stations from full-power stations. We showed that 
it is possible that if a 100 watt LPFM station were placed on a third-
adjacent channel of a Class B FM station one mile from each other, 
72.9% of the LPFM station's service area would face 
interference.<SUP>22</SUP> Further, the FCC itself has not provided any 
protection from LPFM stations in this regard. The LPFM stations will be 
allowed to accept more interference from full-power stations (and other 
LPFM stations) than previously proposed by the FCC. These facts are 
significant costs that were not considered in the FCC's analysis.
---------------------------------------------------------------------------
    \22\ See NAB Comments, Vol. 1 at 23.
---------------------------------------------------------------------------
    The second cost that the FCC ignored is in the area of economics. 
NAB provided evidence to the FCC in this area concluding that the 
economic harms to both existing broadcasters in their efforts to serve 
their listeners and the economic costs to LPFM stations should preclude 
the FCC from moving forward on its proposal.<SUP>23</SUP> The study 
concludes that the limited benefit of the ``narrowcast'' programming 
that will be provided by LPFM stations is likely to be low quality and 
of limited value, making the viability of LPFM stations doubtful. 
Additionally, the introduction of LPFM service will cause interference 
to full-power stations and this interference translates into audience 
losses that results in a decrease in local service programming by full-
power stations. This result has strong support because the FCC has been 
down this road before.
---------------------------------------------------------------------------
    \23\ See LPFM: The Threat to Consumer Welfare, NAB Comments, Vol. 
1, Attachment C.
---------------------------------------------------------------------------
    In the early 1980's, the FCC adopted a plan to drop in thousands of 
new full-power stations to provide service to underserved 
communities.<SUP>24</SUP> In the eight years following, nearly 2,500 
stations were added. The effect of this was disasterous on the radio 
industry. In fact, the FCC was forced to modify its ownership rules to 
provide increased efficiencies to heal the radio marketplace. Congress, 
then, provided further deregulation with the Telecommunications Act of 
1996.
---------------------------------------------------------------------------
    \24\ Modification of FM Broadcast Station Rules to Increase the 
Availablility of Commercial FM Broadcast Assignments, 94 FCC 2d 152 
(1983).
---------------------------------------------------------------------------
    The FCC chose to ignore this evidence claiming it does not need to 
consider such arguments because, as Chairman Kennard stated, ``it is 
not the business of the FCC to pick winners and losers.'' <SUP>25</SUP> 
However, as Commissioner Michael Powell aptly points out, ``the 
Commission itself has recognized that the industry's ability to 
function in the public interest, convenience and necessity is 
fundamentally premised on the industry's economic viability.'' 
<SUP>26</SUP>
---------------------------------------------------------------------------
    \25\ See Separate Statement of Chairman William E. Kennard at 1.
    \26\ See Separate Statement of Commissioner Michael Powell at 2.
---------------------------------------------------------------------------
    Ironically, it is likely that the most harm from the LPFM service 
will come to the independently owned, ``mom-and-pop'' stations in the 
smaller markets that have fought to keep their heads above water and 
provide quality local programming. In many of these instances, these 
stations are minority owned stations. Even in the absence of the 
interference potential, the threat of new voices--even if non-
commercial--could reduce the ability of these stations to maintain the 
level of service now provided. If that service changes, it is the 
listeners who will suffer due to the inability of LPFM stations to fill 
in the gap of programming quality and quantity.
    Finally, the FCC virtually ignored the issue of enforcement as a 
factor in its analysis. With its LPFM service, the FCC expects to 
license over 1,000 new stations. These stations are subject to many--
but not all--of the same regulations as full-power broadcasters. 
However, the FCC has not proposed any plans as to how it expects to 
enforce its rules on this new amateur radio service where the licensees 
will either be those who have never operated a broadcast station or did 
so illegally. The fact is that the FCC is operating with greatly 
reduced Field Office staff. For the past few years, these offices have 
diligently attempted to shut down illegal pirate broadcasters, in 
addition to enforcing the rules for all other FCC licensees. The FCC 
apparently has no plans to devote more resources to enforcement, and 
thus seems to be relying only on the good faith of inexperienced LPFM 
operators to ensure that the rules are followed.
    These amateur operators will not possess the same incentive to 
abide by the rules as full-power broadcasters because they do not have 
the same investment in the license. While the FCC may think that it has 
no reason to believe that these amateur operators will not follow the 
rules, the fact is that the LPFM movement does have roots in pirate 
broadcasting. The FCC does not have the ability to control thousands of 
new LPFM stations and continue to shut down pirates. NAB believes that 
part of the FCC's mandate to provide efficient use of the spectrum also 
includes the ability to maintain that use through effective 
enforcement. That element is severely lacking in this case and must be 
considered in any analysis.

                               CONCLUSION

    Mr. Chairman, NAB is encouraged by the Subcommittee's interest in 
the LPFM issue. The FCC has taken steps that threaten the spectrum 
integrity of the FM band without justifiable cause. NAB also supports 
H.R. 3439, a measure that would turn back the clock and undo the FCC 
action before real harm results. The FCC has rushed to judgment by 
substituting social engineering for rational, prudent policy making by 
adopting a service that lacks any benefit that outweighs the 
substantial costs that will be produced. Once again, we would like to 
express on behalf of NAB, its appreciation for the opportunity to 
testify before the members of the House Telecommunications Subcommittee 
today.

[GRAPHIC] [TIFF OMITTED] T2973.002

    Mr. Tauzin. Thank you very much, Mr. Fritts.
    The Chair now recognizes Mr. David Maxon, Founder, 
Broadcast Signal Lab on behalf of The Lawyers Guild.

                    STATEMENT OF DAVID MAXON

    Mr. Maxon. Mr. Chairman, members of the subcommittee, thank 
you for inviting me to speak today.
    My name is David Maxon. I am co-founder and have been 
managing partner of Broadcast Signal Lab in Cambridge, 
Massachusetts since its inception in 1982. I was also Vice 
President, Director of Engineering, Charles River Broadcasting 
Company whose flagship radio station in Boston is the highest 
rated classical music station in the Nation. I served that 
company for 20 years.
    Broadcast Signal Lab was contracted by The National Lawyers 
Guild to evaluate a sample of consumer radios for their 
susceptibility to interference under a variety of conditions. 
We are here today at the request of the subcommittee to address 
the interference question in the matter of low power FM 
broadcasting. My role is that of an engineer and The National 
Lawyers Guild Committee on Democratic Communications has asked 
me to testify on its behalf in that capacity.
    They are very concerned with the free speech issues 
involved in the creation of LPFM and have asked me to introduce 
the attached statement of fundamental principles relating to 
spectrum integrity that is attached with my testimony into the 
record.
    On behalf of The National Lawyers Guild and the related 
parties that funded the work that my company did, we studied 11 
consumer radios to develop an understanding of their 
susceptibility to interference under a variety of conditions. 
We varied a number of things--signals strengths of desired and 
undesired signals, modulation of the signals--the loudness of 
the sound put on the signal, the types of sound put on the 
signal, and we looked at various measures of susceptibility. 
You have heard harmonic distortion mentioned, you have heard 
noise mentioned. We measured both and looked for patterns in 
the data.
    I would like to note well that the receiver tests alone, as 
you can see from the dissention among the different testers of 
receivers, do not prove or disprove anyone's case about 
interference. There are so many other factors such as how and 
where different types of radios are used, such as consumer 
preferences that should be considered in a thorough analysis.
    For the most part, the radios that we did test, and it was 
just a sampling of radios as were the other tests, they did 
have a much greater ability to withstand interference on second 
and third adjacent channels than one might anticipate using the 
rules that were established for FM broadcasting half a century 
or so ago.
    We felt that the FCC protection standards could be relaxed 
for low power services without causing a significant increase 
in interference. We did some testing of fourth adjacent channel 
interference, which is not an issue as far as interference is 
concerned, and found some comparison between fourth adjacent 
channel interference and third adjacent channel interference. 
There were some similarities. This suggests that if fourth 
isn't regulated, perhaps third doesn't need to be.
    We determined that with the low power FM stations, the 110 
watt stations, not the 1,000 that were originally also 
mentioned in the Notice of Proposed Rulemaking, but those lower 
power stations, we felt with the separation distances that were 
proposed, subsequently modified and adopted by the FCC, they 
are very conservative separation distances and that if any 
interference occurs, it will be no greater than the 
interference that the FCC and broadcasters accept on a variety 
of other circumstances throughout the country in urban and 
rural areas.
    The separation requirements for LP-100 stations are in fact 
much more conservative than those which apply to some existing 
low power services, specifically Class D stations and 
translators. These facilities have been coexisting successfully 
with full power stations for many, many years.
    Low power FM is, to my way of thinking, the way the 
separation distances have been applied, an extension of Class D 
radio basically. It is a creation of an additional number of 
low power stations similar to ones that are already in use by 
some noncommercial broadcasters today.
    We also felt that while we could take a radio signal and 
not put any sound on it and take a noise measurement, that 
wouldn't be a realistic measurement of interference, but just a 
measure of noise. So we also did measurements where we put 
sound on the interfering signal and sound on a signal that we 
would like to receive on our test radio. You can't measure 
noise because the sound is in the way, so you have to take out 
the sound and measure what is left and that is the noise. This 
is the harmonic distortion that is being mentioned by a number 
of other people.
    The harmonic distortion measurement is, in fact, a noise 
measurement. It is nothing other than that. It is a more 
practical, real world way to measure the performance of radios. 
One battery of our measurements did use the harmonic distortion 
technique.
    We also note that in the unlikely event there is a conflict 
between a noncommercial translator's ability to receive a 
distant signal, for instance, we understand there may be some 
issues especially with present noncommercial broadcasters of a 
translator somewhere else and picking up their signal and 
translating it onto a new frequency in this remove market, that 
perhaps an LPFM could come in and prevent them from picking up 
their own distant signal to put on their own translator.
    There are alternative delivery means that you can use to 
feed a translator. In fact, many translators are permitted to 
do this. We would suggest that in the case of an LPFM that 
interferes with the reception of a primary station for a 
translator, that the FCC can simply modify the rules to address 
any concerns that are raised about how LPFM may affect 
reception of signals for existing translators.
    As we said, we feel the decision the FCC made to authorize 
LPFM service is very conservative from a technical perspective. 
It is the least change possible to the technical rules that the 
FCC could have made. As the FCC has acknowledged, because of 
the conservative approach they took, it does preclude LPFM in 
places where it might otherwise have been permitted.
    As a point of comparison, I would like to just mention the 
Class D station in the Boston area at Brandeis University that 
has been there for many years. It is on a commercial channel 
and it is within the protected area of two third adjacent 
channel stations. The FCC permitted it because its supposed 
interference area would fall within the campus of the school.
    I have been to the campus many times, I have serviced the 
station. I have never seen, never heard any complaints about 
interference with either of the two third adjacent channel 
stations that are also received on campus.
    So it is our opinion that the third adjacent channel 
changes are de minimis and they do not have an impact on 
commercial broadcasting. I would suggest that the interference 
issue, in spite of all the people we have seated here today, is 
functionally a red herring, that we really should be discussing 
the policy issues with the people here who are the policy 
experts.
    Thank you very much.
    [The prepared statement of David Maxon follows:]

 PREPARED STATEMENT OF DAVID MAXSON, FOUNDER, BROADCAST SIGNAL LAB, ON 
                      BEHALF OF THE LAWYERS GUILD

    My name is David Maxson, co-founder and managing partner of 
Broadcast Signal Lab, LLP, Cambridge, Massachusetts since its inception 
in 1982. I was Vice President, Director of Engineering of Charles River 
Broadcasting Company, whose flagship radio station in Boston is the 
highest-rated classical music station in the nation. I served the 
company for twenty years.
    Broadcast Signal Lab was contracted by the National Lawyers' Guild 
to evaluate a sample of consumer radios for their susceptibility to 
interference under a variety of conditions. We are here today at the 
request of the Subcommittee to address the interference question in the 
matter of Low Power FM broadcasting (LPFM).
    The FCC decision to authorize an LPFM service is very conservative 
from a technical perspective. Its changes to the technical rules are 
the least one could make. While LPFM stations are being permitted to 
overlap with signals of third adjacent channel stations, the 
protections afforded to existing stations on the first and second 
adjacent, or on channels the same channel are extremely conservative. 
The FCC chose to employ a simple LPFM distance separation methodology 
that in the Commission's words ``will preclude new LPFM stations in 
some areas.'' (FCC 00-19, par. 70)
    As a point of comparison, consider the other two low power FM 
services peacefully coexisting with full power stations--Class D and 
translator stations. There are plenty of Class D stations and 
translators that would not meet the LPFM separation distances. One of 
our clients, WBRS, at Brandeis University, has a Class D station 
operating at 35 watts ERP at about 150 feet above average terrain. It 
is very similar to an LP-100 facility in its power and antenna height. 
This station is directly in the middle of the protected contours of 
third adjacent stations on 100.7 and 95.5. This station is also at a 
location and frequency that would not meet LPFM separation distances. 
The FCC licensed this station because the area of third adjacent 
channel overlap was contained within the college campus. In reality, 
even on the campus, there is no interference from the Class D to the 
third-adjacent stations.
    Therefore, based on practical experience, and our evaluation of 
radio receivers, ten or 100-watt low power FM radio stations that meet 
the FCC's conservative criteria will have an interference effect that 
is at worst, de minimus, with respect to the existing radio 
environment.
    The interference issue, in our opinion, is a red herring in this 
proceeding. I respectfully encourage the subcommittee to spend its 
precious time on considering the policy issues related to the LPFM 
service, not the interference issues.

    Mr. Tauzin. Thank you very much, Mr. Maxon.
    The Chair is now pleased to welcome Mr. Bruce Reese, 
President and CEO, Bonneville International Corporation, Salt 
Lake City.
    Mr. Reese?

                   STATEMENT OF BRUCE T. REESE

    Mr. Reese. Thank you, Mr. Chairman.
    I am Bruce Reese, President and CEO of Bonneville. We 
operate 15 stations around the country including several here 
in Washington, DC, WTOP AM and FM and WGMS, whose badly 
interfered signal you heard earlier on Mr. Jackson's 
evaluation. Our company has been in the radio business since 
1922.
    I am also here as Chairman of the NAB Specturm Integrity 
Task Force which was formed last year to monitor and evaluate 
the FCC's low power FM proposal.
    My job here today is to focus on real operating problems 
and real listener problems. As operators of FM stations, there 
is nothing more important to us and to our listeners than being 
able to hear our station without interference.
    This is the Sony Walkman that has been talked about here 
today. This one of the types of radios that the NAB tested. Our 
study found that the relaxed interference standards proposed 
and now adopted by the FCC would make this type and other types 
of radios much harder to listen to. In fact, hundreds of 
millions of radios fit into these threatened categories. Not 
every radio will experience interference everyplace, not every 
radio station will experience interference everywhere in its 
service area, but let us be clear on one point. The FCC's new 
rules will create new interference for millions of American 
listeners.
    Even Professor Rappaport, the outside expert the FCC cited, 
conceded that many radios will suffer new interference from 
LPFM. The FCC was ultimately forced to agree with that. 
Nonetheless, the FCC decided to plunge forward with LPFM. It 
simply ignored new interference to radios in millions of 
American homes. These radios won't stand up to more 
interference from gerrymandered stations.
    You have heard Mr. Jackson's examples of what the FCC now 
deems acceptable interference. The FCC says that the benefits 
outweigh the cost of this so-called acceptable interference. 
What are the benefits?
    The FCC supposedly wants to get these licenses into the 
hands of community-based groups and minorities in large 
markets. Will this work? In ignoring the laws of physics to 
reduce interference protections for full power stations, the 
FCC also had to reduce the protection levels for these new LPFM 
stations. As a result, the new LPFM stations themselves will 
suffer substantial interference. Thus, the FCC will be 
licensing new interfering stations that will be largely 
unlistenable for the intended audiences. The cost of this 
ineffective spectrum allocation is the creation of a swiss 
cheese coverage pattern for existing full service broadcasters.
    The combination of bad science, bad economics and ill 
conceived social engineering that is the LPFM decision also 
creates all kinds of incentives for LPFM stations to cheat, 
whether on the technical standards be it tower high power, 
hours of operations, or the educational and noncommercial 
requirements.
    The FCC does not have and is unlikely to get the resources 
to enforce these rules for hundreds or thousands of new 
stations. Notwithstanding their good intent, they haven't even 
been able to shut down the hundreds of pirate radio stations 
now on the air.
    The irony is that the Internet provides the creative tools 
and the distribution mechanism to accomplish all of the FCC's 
goals. Why reek havoc on the FM dial? The only apparent reasons 
not to use the Internet are one, that the FCC won't get to 
regulate it and two, that the FCC won't get credit for it.
    Broadcasters spend millions of dollars annually to keep 
high quality sound on the air. Our audience demands it. That is 
why we support the development of in-band, on-channel digital 
radio. Another reason why the FCC's LPFM decision is wrong is 
that it adds new low power stations to the dial before any 
testing to find out whether new digital radios can deliver the 
promised CD quality service in the face of this new LPFM 
interference. In fact, the Commission issued its final LPFM 
order before receiving initial comments on the digital 
rulemaking.
    Don't let misguided social policy and a disregard for 
scientific evidence undermine the investment we have made and 
the expectations your constituents have for the sound of their 
FM radios. We urge you to pass the Oxley-Pallone bill. It is 
the only way we can provide the spectrum integrity millions of 
American radio listeners need and deserve.
    Thank you.
    Mr. Tauzin. Thank you very much, Mr. Reese.
    The Chair is now pleased to welcome Dr. Theodore Rappaport, 
Professor, Virginia Tech Engineering School, Blacksburg, 
Virginia.

 STATEMENTS OF THEODORE S. RAPPAPORT, PROFESSOR, VIRGINIA TECH; 
 DON SCHELLHARDT, NATIONAL COORDINATOR, THE AMHERST ALLIANCE; 
 DIRK KONING, EXECUTIVE DIRECTOR, GRAND RAPIDS COMMUNITY MEDIA 
 CENTER; HON. HAROLD W. FURCHTGOTT-ROTH, COMMISSIONER, FEDERAL 
COMMUNICATIONS COMMISSION; AND KEVIN KLOSE, PRESIDENT AND CEO, 
                     NATIONAL PUBLIC RADIO

    Mr. Rappaport. Thank you, Mr. Chairman and other esteemed 
members of the committee. It is an honor to be here before you.
    My name is Ted Rappaport. I am the James S. Tucker 
Professor of Electrical Engineering at Virginia Tech.
    Mr. Chairman, I would like to thank you and commend you and 
your son for your choice of a higher education school in 
Blacksburg.
    Mr. Markey. May I interrupt for a second? The rest of the 
world might not have known a lot about Virginia Tech but since 
they beat Boston College every year, I am very familiar with 
them.
    Mr. Rappaport. I also serve as Chairman of Wireless Valley 
Communications in Blacksburg. My research expertise is in the 
field of radiowave propagation, communications system design 
and broadband wireless communications. I am also a registered 
professional engineer in the Commonwealth of Virginia and 
received the NSF Presidential Faculty Fellowship Award from 
President Bush back in 1992, the first class of its kind.
    In the Rose Garden, President Bush encouraged all of us, 
the 30 faculty there, to try to make a contribution to the US 
in our careers. So when I was approached by a number of public 
interest groups, the United Church of Christ and their lawyers 
at the Media Access Project to try to ring technically and 
objectively on this topic, I was eager to participate.
    In getting involved, I insisted that my work in this area 
would have to be preconditioned on the fact that it would have 
to be technical, objective and without bias. In so doing this 
work, my staff and I at Wireless Valley conducted a very 
extensive study of how the FCC licenses FM transmitters today 
and how low power FM might impact the future of FM services, 
digital services and also reading for the blind and the like.
    What we did is we made a very comprehensive study, 
extensive, using the entire data base of FCC FM licenses with 
maps and geographical input of power stations, of all the FM 
stations that exist in the US today, as well as all stations in 
Canada and Mexico and studied how low power FM would impact 
today's spectrum and also how newer, lower power, 10 watt and 1 
watt, stations, which were not on the FCC radar screen, would 
also impact the service to listeners both present and future.
    In fact, we spent several weeks not only analyzing FCC 
radio propagation programs but we also developed numbers of the 
actual channels and their specific locations in 60 
representative US cities. One of the interesting things about 
the study is unlike what has been claimed by low power 
opponents, is that it is not at all a swiss cheese type nature 
but in fact there must be very, very careful technical analysis 
and careful FCC licensing procedures to license these low power 
FM stations to protect the public. That is exactly what the FCC 
has proposed very responsibly in their low power FM ruling.
    My analysis concluded that low power FM will not cause 
unacceptable levels of interference for existing FM broadcast 
stations, their listeners or future services, digital radio. 
Our simulations demonstrated that under the conservative 
proposal adopted by the FCC, that in the absolute worse case, 
if all new low power FM stations used 100 watt transmitters, 
all of them put their antennas at 30 meters above ground level, 
the maximum number of new listeners who could receive low power 
FM, of that new number of served listeners at most 1.6 percent 
of those new listeners might, and that is just might, 
experience interference.
    Furthermore, of that small minority of 1.6 percent, the 
majority of the actually would not experience any interference 
whatsoever given the fact that the regulations as proposed by 
the FCC provide sufficient protection. In fact, if you look at 
the low power FM broadcast rules, they are very, very similar 
to existing FM stations. The only difference is the elimination 
of the third adjacent channel protection.
    I think it is very important to note, and I know Mr. Oxley 
would be interested in this, that the USADR, which is a digital 
radio proponent publicly stated in low power FM comments that 
it was the third adjacent protection ratio, not the second, 
that they were concerned about. In fact, this is what the FCC 
eventually did in the ruling.
    The second part of my study was based on analyzing the 
public comments that had been filed to date regarding the 
technical issues of low power FM. I must tell you, Mr. 
Chairman, I was very dismayed at the hyperbole and the lack of 
objectivity in those studies that were submitted from opponents 
of low power FM.
    I could name a large list of calculations and 
misrepresentations that in any technical journal that I review 
and my peers review, would never pass muster. In fact, I would 
be happy to address some of those in the comments.
    In concluding, I would like to say my hope is that this 
testimony has convinced you and the committee that indeed there 
was very, very good technical rigor in determining the low 
power FM standards and that there will not, I repeat not, be 
tremendous interference. It will be very, very slight and it 
will be of great benefit to the public.
    Thank you.
    [The prepared statement of Theodore S. Rappaport follows:]

 PREPARED STATEMENT OF THEODORE S. RAPPAPORT, PROFESSOR, VIRGINIA TECH

    Thank you for the honor to appear before you today. My name is Dr. 
Ted Rappaport. I am the James S. Tucker professor of electrical 
engineering at Virginia Tech, Blacksburg, and have been on the faculty 
for 12 years. In 1990, I founded Virginia Tech's Mobile and Portable 
Radio Research Group, one of the world's first research and education 
centers to specialize in the field of wireless communications. I also 
serve as Chairman of Wireless Valley Communications, Inc. in 
Blacksburg, VA. My research expertise is in the areas of radio wave 
propagation, communication system design, signal processing, and 
emerging broadband wireless communications. I have authored or 
coauthored more than 10 books in the field of wireless communications, 
including the popular textbook ``Wireless Communications'' published by 
Prentice-Hall. I received my engineering degrees from Purdue University 
in the 1980's, and in 1992 was recipient of the National Science 
Foundation (NSF) Presidential Faculty Fellowship. I am a registered 
professional engineer in the Commonwealth of Virginia.
    I became acquainted with low power FM radio, also known as LPFM, 
when I was approached last summer to perform technical analysis on 
behalf of a coalition of churches, non-profit foundations, and other 
public-interest groups, led by the United Church of Christ and their 
lawyers at Media Access Project. Before I agreed to do any work for 
them with regard to LPFM, I insisted the public interest groups would 
have to accept my results based on technical analysis, without bias or 
a predetermined outcome. The groups seeking my technical analysis 
agreed to these conditions, and I carefully studied the Notice for 
Proposed Rule Making (NPRM) for LPFM. It seemed well thought out, and 
made a compelling case for LPFM stations. In the NPRM, the FCC asked 
for technical analyses from the public to help them in the rulemaking 
process.
    After reading the NPRM for LPFM, I agreed to provide a detailed 
technical analysis of LPFM through my engineering company, Wireless 
Valley Communications, Inc. To determine the technical feasibility of 
low power radio, my staff and I did two things. First, we performed 
extensive analysis and computer simulation using the FCC's own 
interference protection rules and licensing procedures for existing FM 
radio stations. This analysis allowed us to determine how the addition 
of LPFM stations would impact existing FM stations, as well as emerging 
digital radio services. Second, we conducted a rigorous review of some 
of the technical data and public comments that had already been 
submitted to the FCC in response to the NPRM for LPFM.
    My analysis concluded that LPFM will not cause unacceptable levels 
of interference to existing FM broadcast stations or their listeners. 
My computer simulations demonstrate that under the conservative 
proposal adopted by the FCC, in the absolute worst case, if all new 
LPFM stations used 100 Watts, then at most, 1.6 percent of listeners 
who could hear a new LPFM station might be unable to receive a 
currently-existing broadcast station. More importantly, the large 
majority of the affected listeners would actually be able to receive 
all current stations, and other affected listeners would be able to 
receive an incumbent station by simply moving their radios a few feet 
or by rotating them on their nightstands.
    In addition, when I analyzed the technical data filed as public 
comments, I found that most of the technical studies would not meet the 
objective standards necessary for peer review or publication acceptance 
in the engineering community. Standards for peer review include the 
open disclosure of all formulas, assumptions, data processing 
methodologies, and in some cases software codes, such that others who 
are familiar with the technical issues can evaluate, replicate and 
corroborate results. To best serve the interests of the FCC and the 
public, I firmly believe that public comments of a technical nature 
should be filed such that they can be peer reviewed and stand up to 
scrutiny and objectivity. The studies filed by some opponents of LPFM, 
unfortunately, lacked technical details or objectivity, and were based 
on the misguided premise that most FM radios today do not work 
properly. This is clearly not true. Most consumers today are very 
pleased with their FM radios as evidenced by the lack of public outcry 
or FCC complaints.
    In the end, the FCC adopted a very safe and conservative ruling 
that is certain to minimize LPFM interference to incumbent broadcasters 
and listeners. The FCC was originally considering whether to create 
three sizes of radio stations--10 watts, 100 watts, and 1000 watts. In 
addition, the FCC was considering whether to change the transmitter 
spacing protections around those stations by lifting what is called 
third adjacent and second adjacent channel protection levels. These 
transmitter spacing rules create cushions (interference protection 
zones) around radio stations so their transmissions do not interfere or 
``bleed'' with one another. Existing commercial FM stations are 
required to obey these spacing rules prior to licensure.
    I determined that 1000 watt LPFM stations required full 
protection--both second and third adjacent protection. Ten watt and 100 
watt stations are so small in power, however, that they cover such a 
small area and therefore do not require either second or third adjacent 
channel protection. The proposal the FCC adopted is more conservative 
than my recommendations. The FCC not only decided not to adopt 1000 
watt stations, but they also retained second adjacent channel 
protection for the smaller 10 and 100 watt stations. This assures even 
greater interference protection to incumbent FM broadcasters and 
current station listeners than I had recommended, since it greatly 
reduces the number of possible LPFM stations that will be allowed. My 
computer analysis considered a wide range of possible interference 
rules, including the case of second adjacent channel protection which 
the FCC has adopted [see Appendix D of ``Technical Analysis of the Low 
Power FM Service'' by Wireless Valley Communications, Inc., August 26, 
1999, submitted to Media Access Project for public filing]. My analysis 
found that, by using worst case interference assumptions and by 
relaxing the second and third adjacent channel protections, 626 new 
LPFM stations could be added in 60 US cities. My recommendations would 
have allowed over 81 million new citizen-channels on the FM airways, 
with a worst case potential interference of 1.2 million citizen-
channels (however, since the analysis was worst case, only a small 
fraction of the 1.2 million citizen-channels actually would have 
experienced interference of some kind). However, the FCC adopted a more 
conservative approach, and insisted that all LPFM stations must obey 
the existing second adjacent channel projection rule, which reduces the 
number of new LPFM stations to 247 in the same 60 US markets. This 
reduces the number of citizens-channels by almost 300%, and decreases 
the number of potential interference events by the same factor.
Details Behind My Computer Analysis
    Let me now provide further details about the computer analysis that 
demonstrated low power radio would not harm current broadcasts. My 
computer analysis included an extensive radio spectrum simulation to 
demonstrate that hundreds of LPFM stations may indeed be deployed in 
the top U.S. markets with minimal impact to incumbent and future 
digital FM radio stations. We used the FCC's FM radio license database, 
the FCC radio propagation programs, and Part 73 interference and 
coverage rules for FM radio stations, to show that properly certified 
LPFM transmitters with radiated power levels between 1 and 100 Watts 
and no 2nd or 3rd adjacent channel protection requirements can serve 
tens of millions of neighborhood listeners in the U.S., while having 
minimal interference impact on a very small fraction of listeners. My 
computer program increased the granularity, or precision, of the FCC's 
models. In addition, my computer program analyzed the impact of 10 watt 
and 1 watt stations, which the FCC did not do in its original NPRM, and 
considered other channel protection schemes.
    We spent several weeks analyzing the FCC radio propagation programs 
and improving the FCC's software that is used for issuing standard FM 
radio licenses. In addition to analyzing new LPFM stations having power 
levels of 1000, 100, 10 and 1 watt, we also developed programs that 
could draw maps of the possible locations and the maximum number of 
LPFM stations that could be supported within a specific market for a 
given protection ratio ruling. To verify that we were following FCC FM 
radio license guidelines and to make certain that our programs were 
working properly, we spoke with FCC engineers throughout the process to 
verify our programs recreated the same data which FCC engineers could 
obtain with their original program. Since the FM radio license database 
is constantly changing, we used the most recent version of the FM 
station license database. The FCC's FM radio station license database 
includes key technical details that are vital for determining whether 
or not any new FM stations might cause interference.
    These key details include radio frequency, geographical position, 
and transmitter power of each FM station license in the US, as well as 
similar data for FM stations licensed near the US borders in Canada and 
Mexico. Using our modified programs, and considering a wide variety of 
transmitter powers, interference protection rules, and geographic 
resolutions, we determined the exact number of viable LPFM stations in 
60 representative US cities, and presented maps which illustrate 
possible LPFM locations in many of these markets. Once written, our 
computer program took about 2 days of continuous computer time on a 400 
MHz personal computer to produce the results provided in our public 
comments submitted to the FCC.
    I wish to point out that we have provided both the source code and 
executable code of our computer programs with our filing, and believe 
they could be of significant value to the FCC and to the public. In 
fact, these programs could be used with very little modification by the 
FCC or a private entity to properly license LPFM stations in the US. 
All of this data is available to the public on the Media Access Project 
web site at http://www.mediaaccess.org/.
    Our analysis shows that between 64 and 680 times as many citizens 
are able to receive LPFM programming over small distances (i.e. within 
neighborhoods) as compared with those who may rarely experience some 
level of interference or degraded service. Even those listeners 
experiencing some degradation of service will likely be able to improve 
their reception by simply relocating their radio or adjusting their 
antenna.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ People listening inside the interference area would experience 
interference to an incumbent station's signal if and only if all of the 
following conditions applied concurrently:
    If the LPFM station were placed near the coverage fringe of the 
incumbent station,
    If the incumbent station transmits on a channel 2 or 3 channels 
above or below the LPFM station's assigned frequency,
    If the listener only wishes to listen to the incumbent station out 
of the dozens of stations available, and
    If their radio happens to be a poor-performing model like a clock 
radio.
    In many instances, the listener would be able to ``tune'' out the 
LPFM interference by moving the FM receiver. It is quite common for 
people to adjust the position of their clock radio or boom box for good 
reception. Such adjustment could cause the LPFM interferer to fade 
while maximizing the desired signal.
---------------------------------------------------------------------------
    In my presentation to the FCC, I included maps to demonstrate 
suitable locations of LPFM stations in several representative cities. 
These maps demonstrate the careful analysis and limited nature of the 
new low power radio stations. They show that not every city will 
accommodate low power stations. In addition, in certain cities, it will 
be possible to add new stations in only certain areas of a city. Thus, 
concerns that low power stations might pop up like mushrooms, or like 
the holes in Swiss cheese, without regard for current broadcasts is 
completely false. Careful, stringent engineering analysis shows where 
the stations may safely be added and this same analysis must be used 
for the proper issuance of low power radio licenses.
    Although we made all of our information publicly available, the 
opponents of low power radio have been unable to find any flaws in my 
analysis.

Details Behind My Analysis of Other Studies

    The receiver studies submitted to the FCC by low power radio 
opponents show that the true ``real world'' FM interference environment 
for household radios is benign, due to the FCC's unnecessarily high 
interference protection ratios which stem from the state-of-the-art 
several decades ago. The receiver studies offer very strong support for 
LPFM as a viable service without the need for 2nd and 3rd adjacent 
protection ratios, because today's fixed and portable FM radios operate 
successfully with much less interference protection than assumed by the 
FCC in its present station licensing process. The small additional 
interference introduced by LPFM is miniscule in comparison to already 
existing levels of interference in the FM band.
    A simple analogy will explain the basis and conclusions of the 
NAB's and CEMA's studies. Let's imagine there is a Federal Building 
Commission (FBC) that regulates the occupancy of people on floors in 
office buildings. Let's say that the Commission's rules require each 
building owner to assume that each person weighs, on average, 300 
pounds, and that each person occupies a particular floor area, say 6 
square feet. The building owners, analogous to FM station license 
holders, are thus required to limit the number of people they allow to 
live on each floor of their building according to FBC rules.
    However, the construction companies, analogous to radio 
manufacturers in this example, realize that they can safely build 
buildings at much less cost if they assume that, on average, every 
person only weighs 200 pounds. Just as the radio manufacturers for FM 
radio are not regulated by the FCC to provide specific technical 
specifications of their product, the construction companies are not 
regulated by the Federal Building Commission, so a wide range of 
construction techniques and building materials are used.
    Assume this is what is done for years, with great success. Now, 
assume time passes and some new building owners wish to build small, 
low-cost buildings, but wish to allow more people to live on each floor 
of their buildings, because they have fewer resources and wish to 
provide shelter to more patrons. The Federal Building Commission 
decides that it has been too restrictive, and proposes that the safety 
standard for occupancy of floors in office buildings should be relaxed 
a bit to assume everyone weighs 250 pounds instead of 300 pounds--since 
this will allow the new building owners to allow more people within a 
building floor.
    But the construction companies and building owners now claim that 
the Federal Building Commission is going too far--they cry ``Wait, the 
current buildings don't even meet the safety standards now, how can we 
relax them further?'' But the construction companies and building 
owners already know that the original rules were far, far too 
restrictive. In fact, the construction companies have actually been 
assuming people weigh less on average all along, and in fact have been 
building offices for years which serve the public well using less 
costly materials. It is clear from this example that the Federal 
Building Commission's relaxation of the rules will have no impact on 
the existing buildings or the construction companies. Buildings will 
continue to hold occupants. All that has happened is the Federal 
Building Commission has realized that the old rules were much too 
restrictive and unrealistic, and has successfully accommodated the 
request of a handful of new, smaller building owners.
    This is the same situation for FM radio. Radio manufacturers and FM 
station license holders have known that the FCC rules for FM broadcast 
licensing provide an overabundance of interference protection. By FCC 
licensing guidelines, FM radio stations are spaced far apart in such a 
conservative manner as to prevent radio interference. This in turn 
allows FM radios to be manufactured very inexpensively. The FCC rules 
for FM broadcast licenses offer so much spacing (e.g. interference 
protection) because they were developed when FM radio was in its 
infancy, when older FM radio receivers were far more susceptible to 
adjacent channel interference and frequency drift than today's 
receivers. In fact, the FM station license rules used today were 
developed before most FM receivers used completely integrated receiver 
circuits (chips). Today's modern integrated circuit design and 
filtering technologies are far more robust to drift and interference 
than radio receivers of 30 years ago. The technological advances in 
receiver technology (just look at today's cellphone--its much more 
robust than its shoebox counterpart of 1985) is why the addition of a 
few LPFM stations in each market will make virtually no difference to 
the listening public.
    It is important to note that the FCC rules for FM broadcast 
licensing have no regulatory bearing on how FM radio receivers should 
perform or be constructed. This is a wise and sensible approach that 
the FCC has traditionally taken, because it allows various 
manufacturers of radios to freely compete and differentiate themselves 
on the basis of price and performance. In short, there is a great deal 
of protection in the FCC's FM broadcast licensing standards. Small 
stations of 10 and 100 watts will not harm any current broadcasts. 
Opponents of LPFM did not objectively point this out or properly 
address the relationship between FCC FM licensing guidelines versus 
commercial FM receiver performance.
    Another example will demonstrate the flaws in the NAB's study. The 
NAB sought to identify how well FM receivers work by establishing a 
performance standard. But more than half of the FM receivers tested in 
the NAB study could not even meet the NAB's performance standards 
before the simulation of new low power radio stations. That is, even in 
a perfect, interference-free environment in the test laboratory, 
without the introduction of any additional FM interference, NAB's 
experiments had more than 50% of the radios it tested as failing its 
own performance standard in a noise-free environment! But we all know 
that if we purchase FM radios at random, virtually all of them will 
work fine. Put another way, according to the NAB, half of all radios 
they tested do not perform acceptably today, even before LPFM is 
introduced! This result obviously defies common sense. There were many 
other issues which, as an engineer and reviewer, disturbed me and which 
would certainly disturb others if they were looking for objectivity.
    My hope is that this testimony has helped you understand some of 
the technical issues involved with FM radio licensing, FM receiver 
design, and the Low Power FM Process. I also hope it helps clarify the 
work that my staff and I have conducted and made available to the FCC 
and the public, for possible use in properly licensing LPFM stations in 
this country. As an engineering professional who makes a living by 
teaching, studying, and creating new technologies in the wireless 
communications field, I am confident that the FCC's low power FM 
system, as recently adopted, will have no detrimental impact on 
existing and future commercial FM radio stations or their listeners, 
and will benefit millions of Americans with a will and desire to 
communicate responsibly within their own neighborhoods and communities. 
Thank you again for the honor to address you, and to serve our nation 
in this matter.

    Mr. Tauzin. Thank you very much, Professor.
    The Chair is now pleased to welcome Mr. Don Schellhardt, 
National Coordinator, The Amherst Alliance.
    Mr. Schellhardt?

                  STATEMENT OF DON SCHELLHARDT

    Mr. Schellhardt. Mr. Chairman, members and staff of the 
subcommittee, good morning. Thank you for permitting me this 
opportunity to testify. Thank you also for ordering that my 
written statement and supplemental materials be included in the 
permanent record.
    Before I move into the substance of my remarks, I have a 
procedural point to raise. I have noticed that we have 
witnesses here who represent experts and advocates on both 
sides of the low power radio issue. However, we don't have 
anyone here who actually plans to apply for a low power radio 
license.
    Fortunately, seated behind me are two people who do intend 
to apply, Wesley and Marie Denick of Providence, Rhode Island 
and Christopher Maxwell of Richmond, Virginia. Wesley is with 
Providence Community Radio and Christopher is with the Virginia 
Center for the Public Press.
    With the subcommittee's permission, I would like to request 
that their written statements and supplemental materials which 
have already been submitted, be included in the record as well.
    Mr. Tauzin. The Chair has already, by unanimous consent, 
kept the record open for 30 days for supplemental filings. The 
gentleman is perfectly free to do so for the record.
    Mr. Schellhardt. I would also ask the subcommittee's 
consent to allow these people to participate in the question 
and answer session if it is relevant to LP FM licensing.
    Mr. Tauzin. The Chair wishes to inform the gentleman that 
witnesses are invited to testify in advance of these hearings 
and that it is standard procedure for the committees of 
Congress to hear from the witnesses invited. Unless there is 
unanimous consent that any other witness be introduced to the 
panel accepted by all the members here, that the witnesses are 
limited to those who attend.
    I might say Mr. Schellhardt, I don't think you can say 
categorically that there aren't some people at the table who 
might apply for one of these licenses. I can see Mr. Eddie 
Fritts applying for a license right now.
    Mr. Schellhardt. I took my procedural shot and I will move 
on to the substance of my remarks. I would like to mention at 
the outset I am planning to discuss interference last if time 
permits because there are other important issues that need to 
be addressed here.
    Let me begin on a personal note. This appearance today 
represents something of a homecoming for me. A number of years 
ago I was legislative counsel to Representative Matthew 
Renaldo, Republican of New Jersey, who served on the Commerce 
Committee and on this subcommittee.
    Also for 12 years, I worked with the American Gas 
Association holding several positions which included Director 
of Legislative and Regulatory Affairs. Of course that brought 
me over here fairly often. In fact, Mr. Chairman, I remember 
working with you to reform the Fuel Use Act and repealing 
incremental pricing back in the 1980's. That shows why it is 
important to be civil and reasonable in debates like this. You 
never know whether the ally of today is going to be an 
adversary of tomorrow or vice versa.
    I can't speak for everyone in the movement but in Amherst, 
we are trying to be firm but at the same time, very reasonable 
and courteous.
    I have four points to raise, with interference being last. 
The first point concerns my powder blue sports jacket and 
bright yellow tie. The relevance there is that back at home, I 
have an $800 pure wool corporate gray suit. Some of my friends 
thought I should wear that so that I would like all the other 
lawyers, but I figured this time, I am not testifying on 
somebody else's dime, I am not representing anybody else except 
me, I am here on my own time, my own dime, I am going to be 
myself. So here I am in my $40 Sears suit.
    The relevance of that comment is that a lot of people feel 
that way about the radio. They feel that every time they turn 
on the dial, all that is out there are corporate gray suits. 
They would like to have some powder blue suits and bright 
yellow ties on the dial as well.
    Mr. Tauzin. I am sure you will look great on the radio. I 
am not sure how you are going to do that, but good luck.
    Mr. Schellhardt. My second point concerns the pent-up 
public demand out there for reform of the way that ideas and 
information are circulated in our society. Low power radio is 
only the tip of that iceberg. Beyond low power radio, there is 
a lot of concern among a lot of people about the general 
overconsolidation of ownership in the radio industry and in the 
mass media. There is also connected to that concern about the 
way the political process is covered by the media and the way 
the candidates are able to present their views to the voter.
    Mr. Tauzin. Your time has expired but I want to do 
something. I am going to ask unanimous consent that given the 
long and very interesting preamble to your discussion, I will 
ask that we give you an additional 3 minutes.
    Mr. Schellhardt. Moving rapidly, we hope that Congress will 
also look at auctions, ending the statutory mandate for 
auctioning of all commercial radio licenses. If you can't do 
that, we hope that you will at least choose to exempt 
commercial low power radio stations 100 watts or less so that 
we can get some commercial airing stations out there too.
    Not speaking for Amherst, but just speaking for myself, I 
hope you will support free air time for candidates and public 
financing of elections. I know personally I would like to run 
for Congress if I could afford it, so I have a vested interest. 
Most of the people I talk to in Amherst don't want to run for 
Congress but many of them want to be on the air and they can't 
afford to get a radio station either.
    So if you multiply my frustrated political ambitions by 
tens of thousands and if you multiply the frustrated career 
aspirations of some of my followers by millions, that is a lot 
of pent-up energy. I think that pent-up energy could do some 
good.
    I remember my friend Bud Laurence from the American Gas 
Association used to always say, it is better to have them on 
the inside spitting out than on the outside spitting in. He 
didn't actually say spitting but you get the point.
    Third, to quote another gentleman you all know, former 
Representative Phil Sharpe from Indiana who was on the House 
Commerce Committed, he used to always say let us do the doable. 
That is my feeling toward the FCC's proposed final rule. Most 
of us at Amherst would like it to go farther, the details of 
how much further are in the written testimony but we still 
think it is the best that probably could have been accomplished 
under the current circumstances. We think it is a beach head 
for building more reform in the future.
    We hope that Congress will at least leave it alone and 
preferably embrace it with enthusiasm.
    Thank you for the extra 3 minutes, Mr. Chairman.
    [The prepared statement of Don Schellhardt follows:]

   PREPARED STATEMENT OF DON SCHELLHARDT, NATIONAL COORDINATOR, THE 
                            AMHERST ALLIANCE

    Mr. Chairman, Members of the Telecommunications Subcommittee and 
Staff of the Telecommunications Subcommittee: My name is Don 
Schellhardt. I am the Co-Founder and National Coordinator of THE 
AMHERST ALLIANCE. I speak to you today on behalf of this group.

                     WHAT IS THE AMHERST ALLIANCE?

    THE AMHERST ALLIANCE may not be a household word. However, it is 
the channel for an immense tide of human energy. We are a nationwide 
citizens' advocacy group, organized and mobilized mainly over The 
Internet. We are composed of roughly 200 individuals, from Maine to 
California and Florida to Alaska. Thanks to Internet postings, we have 
a ``sphere of influence'' which reaches hundreds, or possibly 
thousands, of additional people around the globe.
    We take our name from the small but distinguished college town of 
Amherst, Massachusetts--where Minutemen were recruited, two centuries 
ago, and Emily Dickinson wrote her gentle, brilliant poetry, which was 
then rejected by the Media Establishment of her day. Our group was 
born, over dinner at Friendly's, a century after Emily: on September 
17, 1998.
    Roughly a third of our members, and about two thirds of our Board 
Members, are people who want to obtain a Low Power Radio license and 
set up a station. The rest of us, including me, are ``simply'' 
concerned citizens. We want more choices on the dial--and we fear that 
our representative democracy is endangered by today's excessive 
concentrations of mass media ownership.
    Every member of Amherst, without exception, has signed a document 
known as THE AMHERST DECLARATION. It is our only requirement for 
membership--and a copy of it may be found in APPENDIX A of this 
testimony.
    When you read the text of THE AMHERST DECLARATION, you may be 
struck by its attempt to invoke the spirit of our nation's founders. 
Some consider this effort at emulation to be pompous, or pretentious, 
but we see it as a humble attempt to revive the spirit which gave birth 
to this nation. That spirit seems to be missing today, in many 
quarters, and we like to believe the nation's founders--wherever they 
may be now--are pleased to see us trying to bring it back.

                        WHO IS DON SCHELLHARDT?

    I am an attorney and a writer, with several articles, untold 
ghostwritten speeches and one novel--CURRENTLY unpublished--to my 
credit. I earned a B.A. in Government from Wesleyan University in 
Connecticut and a law degree from George Washington University, here in 
Washington, DC. Among other posts, I have been Legislative Counsel for 
Representative Matthew J. Rinaldo (R-NJ, retired), Director of 
Legislative and Regulatory Affairs at the American Gas Association and 
a policy advisor on global warming at U.S. EPA.
    With Nickolaus and Judith Leggett, of Reston, Virginia, I co-
authored the Petition For Rulemaking that triggered FCC Docket RM-9208. 
This Docket led, in turn, to the FCC's proposed rule, and later its 
final rule, on Low Power Radio.
    I left Washington for a number of reasons. One key factor, however, 
was my rising level of frustration with my inability to get things done 
in this town.
    I had worked for a succession of causes, which I considered to be 
both noble and important: Coolwater-style coal gasification, which 
could enable us to burn America's abundant coal, efficiently and 
CLEANLY, in combined cycle powerplants . . . Natural Gas Vehicles and 
electric vehicles, which could further reduce our dangerous dependence 
on imported oil, and greatly improve our balance of trade, while making 
the air we breathe much. much healthier--and meaningful government 
action on global warming, which may be costly but is still cheaper than 
the price tag of global ecosystem collapse.
    These three causes were my great passions as a Washington 
``insider''. However, I was able to make only marginal headway on 
Natural Gas and electric vehicles--and no headway at all on the other 
two fronts.
    I did play a role in the 1987 legislation which repealed 
incremental pricing and most of the Fuel Use Act. I also played a role 
in enactment of the 1990 legislation that reduced, and is still 
reducing, the acid rain in our atmosphere.
    Still, in the face of what needs to be done in our country, these 
steps forward were painfully modest. Further, even these ``modest steps 
forward'' came only at the cost of enormous investments of time and 
energy, often mustered at the expense of progress on other crucially 
important priorities.
    I finally decided I could accomplish more OUTSIDE The Washington 
System, at ``the grassroots'', than I could accomplish WITHIN The 
Washington System.
    This leads me back to our Hearings. Topic A is Low Power Radio, but 
The Topic Behind The Topic is REFORM. Reform of the media--and, with 
it, reform of the political system. Less power for the 
megacorporations--and other elites. More power for the people. .Reform 
of The Washington System.

                        A SYSTEM OUT OF BALANCE

    I want to stress the need for reform--of both the overly 
``consolidated'' mass media AND the current system for choosing our 
elected leaders.
    At the same time, I do not want to ``demonize The System''. There 
ARE good people in Washington: MANY good people. Some of them even work 
for special interests. I worked for a special interest myself, for 12 
years, and my work there was honorable. I was promoting natural gas: 
``America's cleanest, most affordable fossil fuel.'' Most of it drilled 
right here in the U.S.A.
    In short, I saw myself wearing a white hat.
    The truth is that Congress and the Executive Branch NEED to hear 
from special interests. How can either Branch regulate knowledgeably 
without SOME kind of consultation, preferably in advance, with people 
in the industries they are trying to regulate? Unless special interests 
have SOME kind of a voice in Washington, Washington will be ``flying 
blind''.
    The problem isn't the fact that special interests have a voice.
    The problem is: All too often, nobody else does.
    The System is Out Of Balance. The special interests often speak so 
loudly that the voice of the people cannot be heard.
    The same can be said of the massive concentrations of ownership in 
the mass media--particularly after Congress, AND President Clinton, 
decided to let megacorporations ``raid the cookie jar'' through the 
Telecommunications ``Reform'' Act of 1996.
    There ARE radicals, and even Marxists, within the movement to 
legalize Low Power Radio stations. However, most of us in the Low Power 
Radio movement--and, certainly,most of us in THE AMHERST ALLIANCE--
recognize the value of having a viable private sector in our economy. 
We even recognize the value of having SOME large corporations. With 
their resources and their profit motivations, they can get things done 
that no other institutions can do.
    By the same token, however, there are some things that only SMALL 
businesses can do. And some things that only non-profits can do. And 
even some things that only INDIVIDUALS can do.
    So: Few us in Amherst want to put Fox or Disney or ABC out of 
business.
    We just don't want them to become so large, and control so much, 
that they smother everyone else.
    More to the point: We don't want them to smother US.

                 THE EVIDENCE ON THE RECORD AT THE FCC

    When it comes to radio, the high level of public discontent is 
evident from the high level of public participation in the FCC's Low 
Power Radio Dockets.
    Indeed, the FCC's proposed rule on Low Power Radio set a record for 
public participation in the 65-year history of the FCC.
    The proposed rule attracted more than 3,000 written comments. Most 
of these 3,000 comments FAVORED Low Power Radio--and many of them came 
from individuals and small groups who had never participated in an FCC 
proceeding, or for that matter any kind of governmental proceeding, 
before.
    Clearly, there is widespread, and intensely felt, public 
dissatisfaction with the status quo in radio. Clearly, there is public 
demand for something new.
    Just as clearly, the stance of total ``stonewalling'' and non-
negotiation by the National Association of Broadcasters (NAB) tells us 
that this ``something new'' is not going to come from the established 
broadcasters.
    It is clear as well that the FCC's decision to establish a Low 
Power Radio Service was not ``a rush to judgment''.
    The Commission held a 6-month comment period on RM-9208, the 
previously referenced Petition For Rulemaking that was filed in June of 
1997 by Nickolaus Leggett, Judith Leggett and myself.
    The FCC issued Docket RM-9208 in February of 1998: 8 months after 
our Petition For Rulemaking was filed. Three weeks after the FCC 
established this Docket, soliciting public input on the Leggett/
Schellhardt Petition For Rulemaking, an alternative Petition For 
Rulemaking was filed by J. Rodger Skinner of TRS Communications in 
Florida. In March of 1998, Skinner's competing vision of Low Power 
Radio was assigned to Docket RM-9242 and the two Dockets were 
consolidated.
    Thus, the FCC spent 6 months receiving public comments on two 
different Low Power Radio proposals. Over 1,000 public comments were 
received, many of them coming from individual citizens and most of them 
urging favorable action. Then the FCC spent several months reviewing 
these public comments before it drafted and released a proposed rule--
in January of 1999.
    Once the proposed rule was issued, public comments were received 
over an exceptionally long period: 9 months.
    Two months after the close of this 9-month comment period, the FCC 
issued the final rule that is the target of H.R. 3439. Along the way, 
it had granted each of several requests by the NAB for extensions of 
the comment deadline(s).
    In short, the FCC's final rule on Low Power Radio is the product of 
very deliberate deliberations over a cumulative period of 2 years. 
Further, the FCC's decision is based on abundant evidence of public 
demand for this Service: far more abundant, in fact, than the evidence 
that the public wants Digitalization.

DOES ANY KIND OF LOW POWER RADIO, UNDER ANY KIND OF CIRCUMSTANCES, POSE 
     AN UNAVOIDABLE LIKELIHOOD OF UNACCEPTABLE RADIO INTERFERENCE?

    This is the proper way to ask the question--because H.R. 3439, the 
Oxley bill, would remove the FCC's authority to authorize any kind of 
Low Power FM stations, anytime or anywhere . . . 100 watts and 10 watts 
and 1 watt, in mid-town Manhattan and the prairies of Nebraska, 
regardless of the technology used or the channel spacing required or 
the level of regulatory oversight.
    In the eyes of Representative Oxley's bill, there is no place in 
America where the spectrum is open enough, and no level of wattage 
where the signal is low enough, and no technology--present or future--
where the signal is controlled enough. Now and forever, from sea to 
shining sea, FM stations of 100 watts or less pose an inherent risk of 
unacceptable interference to all of those helpless, endangered 30,000 
watt and 50,000 watt stations.
    Needless to say, Amherst doesn't see things that way.
    Neither does the Federal Communications Commission. Thank God!
    The evidence for the Oxley bill's premise is Missing In Action. The 
interference studies commissioned by the NAB may predict major 
interference, In SOME locations. However, this has not been the 
conclusion of other studies, conducted by those who do not have a 
financial stake in the status quo.
    Alarms about radio interference are also unsupported by evidence in 
``the real world''.
    In recent years, many Americans, unable to afford a conventional 
radio station and unable to obtain a license for an unconventional one, 
have taken to the airwaves without FCC authorization. Depending on 
whose estimates you believe, their numbers run into the hundreds or 
even the thousands.
    All of these unlicensed broadcasters have been COMPLETELY 
unregulated.
    However, even though many of these unlicensed stations have been 
shut down by the FCC for violating its regulations, only a handful have 
been shut down on the basis of evidence that they have actually caused 
interference.
    Thus, under something approaching a ``worst case scenario''--that 
is, hundreds or even thousands of totally unregulated stations on the 
air, many of them broadcasting in crowded urban areas--the actual 
evidence of reported interference has been minimal.
    Why is this the case?
    Maybe it's because there are more ``holes in the spectrum'', even 
in crowded urban areas, than the NAB wants to admit. Or maybe it's 
because ``unlicensed broadcasters'', even including those left-wing 
``aging hippies'' with the sour dispositions, are more prudent and 
responsible than the NAB wants you to know.
    Or maybe both.
    There is, in any event, a problem with the NAB's logic:
    WHATEVER the actual level of interference from unlicensed 
broadcasters might be, why would it INCREASE--rather than decrease--
after some or most of these broadcasters obtain licenses and become 
regulated?
 if radio interference is not a problem, is there any other reason to 
  override the fcc's authority to establish a low power radio service?
    As we read the various statements by Representative Oxley, and 
others whose names appear on H.R. 3439, it appears their answer would 
be ``No''.
    So far as we can tell, their sole expressed concern has been 
interference.
    We cannot think of any other reasons to ban Low Power Radio, 
either.
    We do consider it worthwhile to mention some of the BENEFITS of Low 
Power Radio. These benefits include more choices for radio listeners, 
more opportunities for innovation, the return of decent community 
coverage and--most important of all--a much-needed increase in the free 
flow of ideas, without which our country cannot remain a representative 
democracy for long.
    These benefits are worth fighting for--and many everyday Americans 
have in fact been doing just that.
    It would indeed be a tragedy if Congress erased these hard-won 
gains on the basis of inflated fears, peddled solely by those with 
dollars to lose.

                 DOES THE FCC'S NEW RULE GO FAR ENOUGH?

    Does the FCC's rule go as far as Amherst would like? No, it does 
not.
    Is it nevertheless a vast improvement over the status quo that 
preceded it? Yes, it is.
    Further, given the practical politics of assembling a bi-partisan 
majority at the Federal Communications Commission, at this time in our 
nation's history, this new rule may well represent the best work that 
the Commission could have done under the circumstances.
    We salute the Commission and its willingness to consider, and 
embrace, positive change. In particular, we commend FCC Chairman 
William Kennard--as well as his indispensable ally, Commissioner Gloria 
Tristani--for their vision and their courage.
    We also thank Commissioners Susan Ness and Michael Powell, whose 
enthusiasm for Low Power Radio was somewhat more contained--but who 
nevertheless voted to proceed.
    To those in the Low Power Radio movement who wanted something more, 
I quote the words of Representative Phil Sharp (D-IN, retired): a 
former member of the House Commerce Committee and a man I admire.
    Phil used to say, all the time: ``Let's do the doable.''
    That's what Chairman Kennard, and his fellow Commissioners, have 
done. They have done the doable--and we should applaud their efforts.
    Having said this, the limits of what is ``doable'' can change 
dramatically over time. They can contract, but they can also expand. In 
the case of Low Power Radio, and of media reform and political reform 
in general, we expect that these limits WILL expand--if only because a 
concerned public insists on it.
    In the immediate future:
    1. Amherst may ask the Commission, in a Motion For Clarification 
and/or a Motion For Reconsideration, to allow LPFM licenses for 
Individuals as well as organizations.
    2. We may also ask the FCC to either: (1) license non-commercial 
LPFM stations which are NOT ``educational''; or (2) clarify that the 
``educational'' category may include stations which are primarily or 
exclusively oriented toward entertainment, IF their kind of 
entertainment is not otherwise available on the airwaves of their 
community.
    3. We may ask again for Primary Service Status for LPFM stations.
    4. We may ask for greater protection of Low Power stations from 
``bumping'' by license applications that ``warehouse'' frequencies for 
possible future use and/or translator applications made for anti-
competitive purposes.
    The Amherst Board of Directors has not yet decided how and when to 
seek resolution of these concerns by the FCC. As noted earlier, a 
Motion For Clarification is a possibility, as is a Motion For 
Reconsideration, but neither filing Is a certainty at this time.
    Looking further down the road, Amherst has also made clear to the 
Commission that we do not automatically oppose any kind of 
Digitalization--but we can accept Digitalization ONLY if reasonable 
accommodations are made to preserve a viable, and meaningful, Low Power 
Radio Service.
    On the legislative front, we ask this Subcommittee, AND Congress as 
a whole, to reform the Telecommunications ``Reform'' Act of 1996.
    A. Repeal the statutory mandate for auctioning of all commercial 
radio licenses. Failing that, AT LEAST allow room for commercial-airing 
Low Power stations by exempting commercial stations from the mandatory 
auctions if they broadcast at 100 watts or less.
    B. Reduce--don't raise or eliminate--the limits of how many radio 
stations a single entity, including its subsidiaries and affiliates, 
can own.
    C. Restore meaningful restrictions on CROSS-MEDIA ownership, 
INCLUDING acquisitions related to The Internet. Make radio more open 
and competitive. Don't let The Net follow radio's current pattern of 
``consolidation''.
    D. Encourage--don't DIScourage!--reasonable efforts by the FCC to 
combat radio ``over-consolidation'' by ordering divestiture of certain 
radio stations.
    E. While you're at it, direct the Justice Department to start 
enforcing the anti-trust laws again. One Microsoft case, every 20 years 
or so, isn't enough.

             DOES DON SCHELLHARDT HAVE ``A HIDDEN AGENDA''?

    Let me close as I began: on a personal note.
    When people learn that I have no desire to be a Low Power 
broadcaster, that I run Amherst on my own time and my own dime, with no 
pay whatsoever for the thousands of personhours I've invested in it--
they often start to look puzzled, or even suspicious.
    ``What's in it for you?'' they ask.
    The bolder ones ask: ``What's your `Hidden Agenda'?''
    It's a commentary on our time that so few people will accept pure 
patriotism as a major motivation. Yet, in truth, patriotism IS one of 
my motivations.
    I was in college during the Vietnam War. I never ``dodged'' the 
draft, or joined the National Guard, but I did have a high enough 
lottery number to stay out of the military. I don't regret that my 
birthday did get matched to a number that kept me out of Vietnam: I 
might not be here today if it hadn't. Nevertheless, I have always felt 
guilty because I believe we all SHOULD give a year or two of service to 
our country.
    So . . . I put in my year of service around 50 instead of around 
20. Call me a late bloomer. And I spread the year or two over two years 
or three--because I had to leave enough room in my schedule to make 
enough money to keep me alive. But I did serve my country, even if the 
service was delayed--and I did fight for freedom, even if the enemy was 
here at home.
    So much for my noble motivations! I also had self-interested 
motivations. Not exactly ``a hidden agenda'' . . . but an agenda that 
might not be too visible until you got to know me.
    First, Low Power Radio added meaning to my life at a time when I 
needed it desperately. Most of us like to feel that we add something 
positive to the planet by being here--but some of us NEED to feel that 
way. We need to feel it the same way we need to drink our water and 
breathe the air.
    I'm one of that second group. Founding Amherst gave me a reason to 
``keep on keepin' on''--at a low point in my life.
    Second, I'm trying to gain name recognition and build a political 
base--because I'd like to be a Member of Congress. In fact, I'd like to 
have a seat on the House Commerce Committee.
    I've served my time as an advisor and an aide. I won't come back to 
Washington just to do that again.
    I want to be a player--perhaps right on this Committee.
    There are several reasons why I've never run, but most of them have 
faded into the past.
    Now there's only one reason I don't run for Congress:
    I haven't got the money to run. I'm not even close.
    Further, being an independent thinker (and an independent feeler), 
I don't see any special interests I can approach for the money without 
selling out my conscience.
    So I'm stuck On The Outside, Looking In. Along with the other 99% 
of the American people who can't afford to run for Congress.
    So far, Mr. Chairman, founding Amherst has been the next best thing 
to being up there on the Commerce Committee with you. In fact, I may 
just start up another national organization, with a broader agenda and 
a broader base, and push for change on a bigger scale--from my place On 
The Outside, Looking In.
    And maybe, somewhere along the line, I'll get my chance to run--and 
win.
    In the meantime, all of this makes my work for reform very, very 
personal.
    Of course, most of the folks in Amherst don't want a seat in 
Congress.
    They just want a VOICE in the national dialogue. But they don't 
feel they have one now--and, believe me, Mr. Chairman, for them it's 
personal, too.

                               CONCLUSION

    Mr. Chairman, and Members and Staff of this Subcommittee, we in THE 
AMHERST ALLIANCE urge you to begin moving--this year, this month, this 
day--toward the kind of media reform and political we need to revive 
and maintain our representative democracy.
    Supporting the new Low Power Radio Service Is quite literally THE 
LEAST that Congress can do. It is a minimal step . . . a ``down 
payment'' on real reform.
    Low Power Radio is as clearcut as ``reform'' issues ever get.
    To the best of our knowledge, ALL of the institutions which oppose 
it have a direct financial stake in the status quo. To the best of our 
knowledge, NOT ONE financially impartial group or institution is 
against it.
    Politically, tough choices don't get any easier than this one.
    If Congress cannot summon the courage to embrace reform on the Low 
Power Radio issue, how can the people of America trust this Congress to 
make the hard decisions of the future?

    Mr. Tauzin. Thank you very much, Mr. Schellhardt.
    Mr. Markey. Mr. Chairman, I just want to let you know that 
I am going to let Congressman Olver know about your 
congressional aspirations so that he can take a closer 
interest.
    Mr. Tauzin. I assume you will be dressing differently in 
the next few weeks as well.
    The Chair is now pleased to welcome Mr. Dirk Koning, 
Executive Director, Grand Rapids Community Media Center.
    Mr. Koning?

                    STATEMENT OF DIRK KONING

    Mr. Koning. Thank you very much. That is a tough act to 
follow. I will do my best.
    Mr. Tauzin. But you look good too, I want you to know that.
    Mr. Koning. Thank you very much. I appreciate that.
    I too am here in support of the FCC's decision. I am Dirk 
Koning from beautiful Grand Rapids, Michigan. I operate a 
community media center there that operates an LP 1000 license, 
owned and operated by the citizens of the community with over 
70 volunteers, programming 24 hours a day. I also edit the 
community media review magazine. Our latest issue actually 
talks about the politics of community media. I am the President 
of the Alliance for Communications Democracy, a legal defense 
fund here in DC that tries to support citizen access to media 
where it is challenged constitutionally.
    I also would like to address you as a 20-year veteran in 
the field with sleeves rolled up, soldering connections, trying 
to make micromedia work. In the best of conditions, it is not 
easy to do. I have been involved with projects in South Korea, 
projects in Brazil, projects in Ireland and most recently 
working with the Mandela government to launch 18 microradio 
stations in South Africa.
    I am here to say when it comes to citizen access to media 
and social uses of media, there is nothing more valuable than 
media of, for and by the people. The possibility of these 
licenses going into communities, going into the hands of 
nontraditional users and with information coming from the 
community to the community for community needs and interests, 
that is what this is about.
    In southern Africa we had very tough conditions, especially 
without electricity in most villages and trying to get micro 
stations to work with solar power adds a whole other twist to 
it, but it can happen and a little interference in that case is 
better than no information at all. In fact, I point out that 
the message, even though they say the medium is the message, 
the message is still the message and we appreciate the 
Declaration of Independence even though it is kind of sloppily 
written in ink on hemp paper. The contents still comes through 
loud and clear and is very valuable to citizens to this day.
    I try to specialize in researching new technology for its 
social and cultural development purposes. How can we use this 
technology in a social fashion, not necessarily for profit or 
for gain and how can we use appropriate technology in 
appropriate circumstances. That is a real tricky one. With all 
the new technology out there, how do you assess the value of 
any given technology. Community radio, microradio is a very 
critical source in community for underserved communities. For a 
niche mark, it is a niche programming.
    We are always looking for a way to share those resources. 
In fact, I was looking in a dictionary of word origins. I 
looked up the word community. The Latin sub means to share. 
Then I took a chance and looked up communication and I 
shouldn't have been surprised that the Latin sub for 
communication is also to share. I think it is critical in that 
context of community communication and low power radio that we 
are finding ways to share the air with the communities in which 
these are located. That is the critical juncture that the 
Community Media Center and other low power activists are 
working for.
    In the history of communication, it is quite interesting 
that sharing has not been a tradition. If you go all the way 
back to scribes, Pharisees, in many cases who were able to read 
and write and make paper out of papyrus, it wasn't about 
helping everyone make paper out of papyrus. It was a control 
factor that they knew how to read and write and they kept that 
information very close to themselves.
    I wonder if even in some cave somewhere back when there was 
argument about who was going to be able to paint what bison on 
what wall, if there was a limited spectrum in that particular 
case.
    I know with the church and the Gutenberg printing press, 
that thing was locked up and protected very carefully because 
in fact the idea was not everyone should have one of these. I 
think in the United States, we have taken the chance 
historically on providing access to information and the means 
to create and disseminate it and I think the low power radio 
stations are a prime example of citizen access to media and 
information being the currency of democracy.
    So I encourage you to go forward. Find a way to get through 
the technical situation, it can't be that complicated. Let us 
allow citizens to use media to share in their communities.
    Thank you very much.
    [The prepared statement of Dirk Koning follows:]

  PREPARED STATEMENT OF DIRK KONING, EXECUTIVE DIRECTOR, GRAND RAPIDS 
                         COMMUNITY MEDIA CENTER

                INFORMATION IS THE CURRENCY OF DEMOCRACY

    I am Dirk Koning, the executive director of the Community Media 
Center in Grand Rapids, Michigan, the chair of the editorial board of 
the Community Media Review Magazine of the Alliance for Community Media 
and the president of the Washington D.C.-based Alliance for 
Communications Democracy. This testimony is in opposition to House Bill 
3439, the Radio Broadcasting Preservation Act of 1999. By many accounts 
the Telecommunications Act of 1996 has already provided a vast amount 
of radio broadcasting preservation by allowing expanded ownership of 
multiple broadcast licenses in local communities and nationwide.
    I respectfully provide this testimony as a 20-year veteran of 
community media including community radio, television and the Internet. 
I submit that LPFM promotes the, ``public interest, convenience and 
necessity.'' I have read several technical surveys on this issue and am 
convinced along with the FCC that technical interference from 10-100 
watt stations is not a problem. The relative equivalent of LPFM to full 
strength broadcasting is a static shock from dragging your feet across 
the carpet versus putting your finger in a socket. My testimony comes 
from a ``trench'' worker who has dedicated half his life to improving 
civil society through media access and democracy.
        ``[T]he people as a whole retain their interest in free speech 
        by radio and their collective right to have the medium function 
        consistently with the ends and purposes of the First Amendment. 
        It is the right of the viewers and listeners . . . which is 
        paramount''
 Justice Byron White, writing the unanimous opinion of the Supreme 
          Court in Red Lion Broadcasting v. Federal Communications 
                                                        Commission.

                    BUILDING COMMUNITY THROUGH MEDIA

    A media center has a simple mission to: ``Build Community Through 
Media.'' Providing for additional non-commercial local voices to the 
choir of FM stations in a market will build community with valuable 
local information, cultural enhancement and niche services. One of the 
crucial benefits of LPFM is the concept of narrowcasting. Traditional 
commercial radio often selects a marketable format and then attempts 
the shotgun approach to build listenership to sell time.
    Local non-commercial radio will have the ability to concentrate on 
narrow interest groups to provide unique and critical services without 
market pressures of building audience share. This is a novel concept in 
the burgeoning ``deregulated'' environment of national and 
international consolidations for cost-effective mass marketing.
    Our local communities need a collective local non-commercial voice 
via radio. Our local communities need their own voices amplified 
electronically to serve their own community. Our local communities need 
a thin sliver of the public airwaves.

            INFORMATION ACCESS AS A FUNDAMENTAL HUMAN RIGHT

    I have had the good fortune to travel to a dozen countries 
developing various non-commercial media models ranging from local 
television in Korea to community video in Brazil and low power radio in 
South Africa. Many international community media Activists have crafted 
the People's Communications Charter (www.waag.org/pcc) to spell out 
basic human rights pertaining to information. The hope is to ultimately 
amend the United Nation's Human Rights Charter to add access to 
information as a fundamental human right worldwide. Several of the 18 
published Articles include: Justice, Privacy, Respect, Access, Literacy 
and Cultural Identity.
    Community Media is an entirely different animal than commercial 
broadcast media. The community model provides a motive for social 
improvement and development via information exchange with no regard to 
market share, profit or shareholder desires. I often tell people our 
Community Media Center is a social service agency that provides 
fundamental community needs through media training, equipment access 
and uncensored transmission via voice, video or data. We are not unlike 
United Way, Goodwill or the Red Cross. We just happen to use media as 
our community development tool.
    Lower Power FM in the United States could easily follow 
international models pertaining to community development work. The 
World Association of Community Radio (www.amarc.org) cites dozens of 
community improvement projects developed exclusively through community 
radio. I personally am aware of community radio development efforts in 
South Africa. In an attempt to ``jump start'' democracy in South 
Africa, the Mandella Government launched community radio stations. 
Community radio was strategically chosen due to the low cost of 
implementation and operation, ability to serve niche communities with 
different languages and dialects, the lack of expense for the receivers 
and the ability to operate from solar power.
    This ``Bush Radio'' as it is called provides local programming on 
HIV/AIDS awareness and prevention, water quality issues, planting and 
crop rotation issues and indigenous music.

FUNDAMENTAL SOCIAL DEVELOPMENT AND COMMUNITY CAPACITY BUILDING THROUGH 
                                 MEDIA

    On the home front in Grand Rapids, the Community Media Center 
(www.grcmc.org) is a valuable resource for local governments, churches, 
non-profit groups, politicians, artists, activists, seniors and youth. 
Centers like this are located in over a thousand communities in the 
U.S. and groups like the Alliance for Community Media, Community 
Technology Centers Net and National Federation of Community 
Broadcasters provide national guidance and support for these Centers. 
On any day but Sunday, you can walk into the Media Center on the second 
floor of a 1925 ``Carnegiesque'' Library and take low cost classes in 
radio, television and Internet use and production. Once you take a 
class you are welcome to use on-site equipment ranging from camcorders 
to microphones to digital editing equipment to a computer lab to tell 
your story. Once you have your voice, video or data material ready, you 
can broadcast it or narrowcast it via cable access television channels, 
a 1000 watt FM radio station or high speed Internet connections with 
real audio and real video streaming. Not to mention all of the above is 
provided first come, first served, non-discriminatory on a content 
neutral basis. Over 30 church groups use the Center, seven political 
parties, neighborhood associations, the Public Museum, Library and Art 
Museum to name a few. Programs are produced in half a dozen languages 
and media from around the world is introduced to the local community. 
Almost a thousand local web sites are indexed by major categories to 
expedite local research for local services. We even host on line 
community computer conferences on critical local issues. As the digital 
convergence of voice, video and data marches relentlessly onward, 
citizen access to integrated information technology will become 
increasingly important if not a critical necessity. We are already 
experiencing effects of the Digital Divide in Grand Rapids. Certain 
communities and schools have 70% access to the Internet and others are 
lucky to crack 10%.

                    MEDIA OF, FOR AND BY THE PEOPLE

    Corporate radio consolidation has been hot and heavy in Grand 
Rapids. Located in the top 50 broadcast markets, Grand Rapids has been 
indicative of the aggressive and expansive amount of corporate 
consolidation of broadcast radio properties. With the impending merger 
of Clear Channel and AMFM, over 10 stations will be under single non-
local ownership prior to forced divestiture. In fact Federal Trade 
Commission guidelines may kick in slowing consolidation for fear of 
more than 70% of the advertising market being in a single corporate 
hand. Arbitron numbers from fall of 1999 indicate the top three radio 
companies own just under 70% of the radio stations in our market. Local 
news is funneled through less channels, local musicians are almost 
completely ignored for e-mailed play lists from ``corporate'' and non 
English programming is virtually non existent. We all know the 
difference between someone saying, ``Here take this, I know what's good 
for you'' versus self-discovery and self-programming.
    On April 22nd, 1999 the FCC broke into a local Hispanic Church 
Basement and seized approximately $2,000 in equipment from La Voz 
Broadcasting for broadcasting in 93.1 FM without a license. The channel 
was open and a preliminary injunction had been filed against the FCC. 
The all-Hispanic programming station provided consumer advice, health 
and employment information and Christian Music to the fastest growing 
minority population in the Grand Rapids market. On September 10, 1999, 
the Grand Rapids Press endorsed Low Power Radio in an Editorial that 
stated:
          ``Why is this important? Because the more opportunities that 
        people have to get their messages out, the better. The FCC is 
        mulling the small station issue right now. If the members value 
        free speech, they will let the little broadcasters in.''
    The FCC's January 27, 2000 Report and Order is a giant step forward 
in fostering local non-commercial communication. This action opens a 
thin but important sliver of the public airwaves, for such 
communication. I urge you not to overturn that needed action.

    Mr. Tauzin. Thank you very much, Mr. Koning.
    We are pleased now to welcome one of the Commissioners of 
the FCC who has arrived and I want to skip the order and 
welcome him and allow him to testify. A former staffer of our 
own Commerce Committee, so he is well known here.
    We want to welcome you again, Commissioner Harold 
Furchtgott-Roth.

           STATEMENT OF HON. HAROLD W. FURCHTGOTT-ROTH

    Mr. Furchtgott-Roth. Thank you, Mr. Chairman. As always, it 
is a great privilege and honor for me to come home to the 
Commerce Committee. I see a lot of friends here.
    I would like to have my testimony entered into the record.
    Mr. Tauzin. Without objection, it has been ordered.
    Mr. Furchtgott-Roth. I have spoken often on the issue of 
low power radio in the past year. My message has been 
consistent. I am not opposed to low power service but I am 
opposed to new interference.
    I just would like to note that Mr. Koning and his station 
is a precise example that under preexisting rules community 
radio can get on the air, low power radio can get on the air, 
we do not need to change the interference standards. Mr. Koning 
is exactly the poster child for why that is the case.
    The FCC's recent decision to create a new class of low 
power radio service is really, in effect, the degrading of the 
quality of radio service on the FM band for listeners 
nationwide. As you know, Mr. Chairman, I dissented from the 
Notice of Proposed Rulemaking which is very rare, as well as 
the Order adopting the final rules on this matter.
    At the outset of the low power proceeding, however, I made 
clear that I was not then and am not today opposed to the 
creation of a low power radio service per se. Whatever new 
service could have been provided within the range of existing 
interference regulations would have been worth considering but 
I did not believe that we should create new stations at the 
expense of those interference protection standards. That, 
unfortunately, is precisely what the Commission did last month.
    Under the protection standards in place at the time of the 
Notice of Proposed Rulemaking, the Commission could have 
authorized so few new stations, not more than a handful across 
the country, that the results would not have warranted the 
efforts of even printing the new regulations.
    In order to create any marginal amount of new service, 
protection standards had to be loosened so as to eliminate 
third adjacent channel interference safeguards. In my view, 
this action represents a severe incursion on the rights of 
current licenseholders, as well as on the value of those 
licenses. These licensees had a reasonable expectation that the 
Commission would protect the integrity of the band on which 
they were licensed to operate as we do for licensees in any 
part of the spectrum.
    Far more importantly, this action impairs the ability of 
current licensees to serve their listeners who must not be 
forgotten. While a few new people may be able to broadcast, 
others may lose their ability to receive and to listen to 
existing stations due to interference. I do not think that 
radio listeners will be pleased to find out that their favorite 
station is no longer listenable on their radio. It troubles me 
that the Commission never made any effort to assess, much less 
quantify, the entire effect on existing stations and listeners 
of eliminating interference protections. Not simply conducting 
some laboratory tests over which we have a very conflicted, 
mixed record, but actually go out across America and find out 
how this is going to affect ordinary citizens.
    Clearly the Commission's actions harm existing 
licenseholders and their listeners. On the other side of the 
ledger, the benefit side, let us consider what the Commission 
has actually achieved.
    According to the NPRM in this proceeding, elimination of 
third adjacent channel protection for 100 watt stations will 
allow for the creation of entirely one station in Houston, 
Texas in the top five markets in America. No such stations will 
be created in New York, Los Angeles, Chicago, Philadelphia, San 
Diego, Dallas, San Francisco, Washington, Charlotte or Miami.
    At the very last minute, the Commission staff rejiggered 
these numbers so as to produce slightly more stations. Current 
and final estimates are that in the five largest cities there 
will now be a total of three stations. Where there were 
previously no stations, there will now be one station in 
Philadelphia or in Dallas, two in San Francisco, three in 
Washington and four in Miami, but still none in New York, Los 
Angeles, San Diego, Charlotte or any number of other cities.
    Of course the extra stations that were created between the 
NPRM stage and the final Order were bought at the price of 
dropping interference protection that would have protected low 
power stations from full power stations. So while there may be 
a few more stations now than originally thought, they are still 
very few in number and those stations are defenseless in terms 
of interference from regular power stations, further decreasing 
the utility of these stations.
    In short, so much for the gall of creating low power 
stations to serve urban communities. There will simply be 
precious few new licenses in urban America. In fact, the bulk 
of new licensees will be in smaller markets. In many of these 
areas, full power stations could likely already be dropped in 
without changing the third adjacent channel standards at all. 
At least there is no indication of an effort on the part of the 
Commission even to consider such an alternative approach.
    Given that there is little existing demand for additional 
full power stations in these markets, there is no evidence of 
commercial viability. Indeed, the evidence suggests that such 
stations are not capable of existing as going concerns.
    Perhaps there is a demand for low power, noncommercial 
stations. Theoretically, however, any such actual demand could 
be met by the dispensing licenses within our previous rules, 
that is by giving out 101 watt licenses consistent with the 100 
watt minimum requirement.
    Notably the rationale for the 100 watt minimum was 
efficiency in spectrum distribution. It was thought 
inefficient, unwise and unmanageable to license radio stations 
at operating powers any less than 100 watts. The Commission has 
never explained why it is any less inefficient today than it 
has been for decades to allocate radio spectrum at lower 
levels. This was Commission policy for decades. There would be 
no licenses at 100 watts or less because it was inefficient 
spectrum management.
    In any event, we receive few, if any, applications for 101 
watt licenses. People could walk in and say I want a 101 watt 
license. No one came. As far as going below that, people could 
seek a waiver and say, I would like a 10 watt station. Do you 
know how many applications we have had for waivers over the 100 
watt rule. As far as I can tell, no such waiver request has 
ever been filed, again suggesting a lack of any real demand for 
such licenses.
    In short, there is no evidence in the behavior of actual 
license applicants that suggests any pent up demand for the 
stations in question.
    After creating this new class of licensees, the Commission 
loaded them up with the heavy regulatory burdens that most 
broadcasters must shoulder. Make no mistake, being a 
broadcaster, a small radio broadcaster is not the way to get 
rich in America today. You do it because you love it and you do 
it knowing you have to put up with all kinds of regulations. 
The Commission loaded them on this new class of licensees.
    The required actions and paperwork for compliance with the 
new regulations may well prove overwhelming for the operators 
of low power radio stations. If these duties are taken 
seriously by operators and enforced by the Commission, low 
power operators will spend more time attempting to figure out 
what Title 47 of the Code of Federal Regulations requires than 
actual time spent broadcasting.
    The net result of the foregoing is that there is very 
little evidence in the form of applications for 100 watt 
stations or waivers to put in 10 watt minimum stations 
indicative of current market demand for the stations now being 
created. When we do receive license applications for the new 
low power licenses, one must ask the question, why didn't you 
apply 6 months ago? You could have.
    The only instances where you couldn't have is where we had 
changed the interference standard. The only instance where 
anyone in America can come in and request these new licenses 
where they couldn't have before is where interference will be 
created, where the listeners of radio are going to be harmed.
    In short, the Commission has, at the expense of existing 
service quality to the American listening public, created a 
handful of new stations in primarily nonurban markets, stations 
that themselves may well be unlistenable due to interference 
from high power stations, a threat to the development of 
digital radio services, with the new heavy regulatory scheme 
including ownership, cross ownership, political programming to 
govern these very small operators, and more enforcement 
obligations on an already taxed Commission.
    To conclude, let me say that this is not a wise balance of 
interests. Nor does it comply with our fundamental statutory 
charge to make available a rapid--let me emphasize efficient--
nationwide and worldwide wire and radio communications service.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Harold W. Furchtgott-Roth 
follows:]

  PREPARED STATEMENT OF HON. HAROLD W. FURCHTGOTT-ROTH, COMMISSIONER, 
                   FEDERAL COMMUNICATIONS COMMISSION

    Thank you Chairman Tauzin, distinguished members of the 
Telecommunications, Trade and Consumer Protection Subcommittee, for 
inviting me to testify on the Federal Communications Commission's 
recent decision to create a new class of ``low power'' radio service--
or, put another way, to degrade the quality of radio service on the FM 
band for listeners nationwide.
    As you know Mr. Chairman, I dissented from both the Notice of 
Proposed Rulemaking (NPRM) and the Order adopting final rules on this 
matter. At the outset of the low power proceeding, however, I made 
clear that I was not--nor am I today--opposed to the creation of a low 
power radio service per se. Whatever new service could have been 
provided within the range of existing interference regulations would 
have been worth considering. But I did not believe that we should 
create new stations at the expense of those interference protection 
standards. That, unfortunately, is precisely what the Commission did 
last month.
    Under the well established protection standards in place at the 
time of the NPRM, the Commission could have authorized so few new 
stations--not more than a handful across the country--that the results 
would hardly have warranted the effort of printing the new regulations. 
In order to create any marginal amount of new service, protection 
standards had to be loosened so as to eliminate long-standing third 
adjacent channel safeguards.
    In my view, this action represents a severe incursion on the rights 
of current FM band licenseholders, as well as on the value of their 
licenses. These licensees reasonably expected that the Commission would 
protect the integrity of the band on which they were licensed to 
operate, and they invested heavily in their businesses based on this 
reasonable expectation.
    Perhaps more importantly, this action also impairs the ability of 
current licensees to serve their listeners, who must not be forgotten. 
While a few new people may be able to broadcast, others may lose their 
ability to receive and listen to existing stations due to interference. 
I do not think that radio listeners will be pleased to find out that 
their favorite station is no longer listenable on their radio. 
Troublingly, however, the Commission never made any effort to assess, 
much less quantify, the effect on existing stations and listeners of 
eliminating these well established interference protections.
    Clearly, the Commission's action harms existing license holders and 
their listeners. On the other side of the ledger--the ``benefits'' 
side--let's consider what the Commission has actually achieved.
    According to the NPRM in this proceeding, elimination of third 
adjacent channel protections for 100 watt stations will allow for the 
creation of one such station--in Houston, Texas--in the top five 
American cities. No such stations will be created in New York, Los 
Angeles, Chicago, Philadelphia, San Diego, Dallas, San Francisco, 
Washington, Charlotte, or Miami.
    At the very last minute--in fact, the evening before the final vote 
took place, and without the knowledge of this Commissioner--these 
numbers were rejiggered so as to produce slightly more stations. 
Current and final estimates are that in the five largest cities there 
will now be a total of three stations. And, where there were previously 
no stations, there will now be one station in Philadelphia, four in 
Dallas, two in San Francisco, three in Washington, and four in Miami. 
But there will still be no stations in New York, Los Angeles, San 
Diego, or Charlotte. Of course, the extra stations that were created 
between the NPRM stage and the final Order were bought at the price of 
dropping proposed spacing requirements that would have protected low 
power from full service stations.
    So while there may be a few more stations now than originally 
thought, they are still very few in number, and those stations are 
defenseless in terms of interference from regular power stations, 
further decreasing the utility of these stations. So much for the goal 
of creating low power stations to serve urban communities; there will 
be precious few new licensees in urban markets, and these small-scale 
licensees will have to contend with a sea of interference from full 
power broadcasters.
    In fact, the bulk of new licensees will be in smaller markets. In 
many of these areas, full power stations likely could already be 
dropped in without changing third-adjacent channel standards at all. 
(At least, there is no indication of an effort on the part of the 
Commission even to consider such an alternative approach.) Given that 
there is little existing demand for additional full-power stations in 
these markets, there is no evidence of commercial viability. Indeed, 
the evidence suggests that such stations are not capable of existence 
as going concerns.
    Perhaps there is a demand for lower power noncommercial stations. 
Theoretically, however, any such actual demand could be met by the 
dispensation of licenses within our previous rules--i.e., by giving out 
101 watt licenses consistent with the 100 watt minimum requirement. 
Notably, the rationale for the 100-watt minimum was efficiency in 
spectrum distribution. It was thought inefficient, unwise, and 
unmanageable to license radio stations at operating powers any less 
than this. The Commission has never explained why it is any less 
inefficient today than it has been for decades to allocate radio 
spectrum at lower levels.
    In any event, we receive few if any applications for 101 watt 
licenses, even in the noncommercial arena. Similarly, if somebody 
really wanted to operate a 50-watt station, they might file a request 
for waiver of the 100-watt minimum rule. As far as I can tell, though, 
no such waiver has ever been filed, again suggesting a lack of any real 
demand for such licenses. In short, there is no evidence in the 
behavior of license applicants that suggests any pent-up demand for the 
stations in question.
     After creating this new class of licensees, the Commission then 
loaded them up with the same heavy regulatory burdens that most 
broadcasters must shoulder. For instance, the newly recreated Equal 
Employment Opportunity rules will apply to low power stations to the 
same extent that they apply to all broadcasters. Also applicable are 
all the political programming rules, cross-ownership restrictions, 
special ownership limits for low power stations, and a slew of other 
FCC regulations.
    The required actions and paperwork for compliance with these 
regulations may well prove overwhelming for the operators of low-power 
radio stations. If these duties are taken seriously by operators and 
enforced by the Commission, low power operators will spend more time 
attempting to figure out what Title 47 of the Code of Federal 
Regulations requires of them than they will spend broadcasting.
    The net result of the foregoing is that there is very little 
evidence--in the form of applications for, say, 101 watt stations or 
waivers of the 10-watt minimum--indicative of current market demand for 
the stations now being created. Layered on top of the apparently low 
state of demand for these licenses today are the many regulations to 
which the stations will be subject. Any current demand for 100 and 10 
watt stations will only be dampened by these regulatory burdens.
    In short, the Commission has, at the expense of established service 
quality and existing radio listeners, created: a handful of new 
stations in primarily non-urban areas, failing to fulfill one of its 
own chief goals; stations that themselves may well be unlistenable due 
to interference from high power stations; a threat to the development 
of digital radio services; a heavy regulatory scheme, including 
ownership, cross-ownership, political programming, and EEO rules, to 
govern these very small operators; and more enforcement and 
administration burdens for the Commission.
    To conclude, this is not a wise balance of interests. Nor does it 
comply with our fundamental statutory charge to ``make available . . . 
a rapid, efficient, Nation-wide and world-wide wire and radio 
communication service.'' 47 USC section 151 (emphasis added).
    Thank you.

    Mr. Tauzin. Thank you very much, Mr. Commissioner.
    Our final witness is Mr. Kevin Klose, President and CEO, 
National Public Radio.

                    STATEMENT OF KEVIN KLOSE

    Mr. Klose. Good morning, Mr. Chairman, Congressman Markey 
and distinguished members of the subcommittee.
    Thank you for allowing me to speak to you today on behalf 
of National Public Radio and the hundreds of public radio 
stations across the country that air both their own innovative 
local programming as well as NPR programming reaching audiences 
estimated at close to 15 million listeners each week in the 
United States.
    NPR is a private, nonprofit corporation that produces and 
distributes award winning programming such as Morning Edition, 
All Things Considered, Performance Today and Car Talk. It was 
founded 30 years ago this month under the aegis of the 1967 
Public Broadcasting Act. We are very pleased to say we will be 
marking that 30th anniversary within a few weeks.
    At the outset, let me say firmly that we favor in 
principle, diversity of voices and access to the radio space. 
We acknowledge the intent of the FCC to expand diversity in 
adopting the recent report and order for a new service of low 
power FM radio stations to encourage such diversity.
    While recognizing that LPFM will never be a viable 
substitute for the services provided now to millions of 
listeners by the public radio community, we nevertheless 
believe there can be compatibility between a new LPFM service 
and public radio. However, there are several significant, 
unresolved issues that need to be addressed in order to ensure 
a compatible environment for the benefit of listeners. We seek 
the following actions and we make the following points. We are 
concerned that public radio listeners may be adversely affected 
by the new LPFM stations due to signal interference caused by 
the insertion of LPFM transmitters into existing radio 
spectrum. We note there are different opinions on the 
possibility of potential interference which underscores the 
uncertainty about this crucial matter. Unfortunately, this 
issue is not adequately addressed in the FCC's recent LPFM 
decision.
    We take the position that it is reasonable to address this 
issue in order to ensure that audiences to existing public 
radio stations can continue to receive our services without 
interference and that potential new audiences not be denied 
that opportunity. In addition, the radio reading services that 
predominantly rely on public radio's subcarrier channels are 
much more susceptible to this kind of interference.
    David Noble, President of the International Association of 
Audio Information Services is with us here today. Mr. Noble and 
the IAAIS represent hundreds of radio reading services for the 
print impaired and blind serving and estimated 1 million-plus 
listeners every day across the country.
    We seek timely creation of a swift, fair process at the FCC 
to adjudicate cases of interference to full service stations, 
translator inputs and radio reading services for the print 
impaired. We seek protection of translators that are generally 
used to broadcast to underserved areas. In our view, the FCC 
order provides secondary and inadequate protection for these 
areas.
    The LPFM decision was announced just days before comments 
were due on the FCC Notice of Proposed Rulemaking on the 
transition of analog radio stations to digital audio 
broadcasting, DAB. This is a very complex transition for public 
radio with many technical matters still to be resolved. Having 
both initiated the DAB process and having acknowledged the 
potential effect of LPFM on this process, the FCC proceeded 
with its plan without, in our opinion, carefully analyzing the 
impact on DAB, digital audio broadcasting.
    We believe it imprudent to act on LPFM without fully 
exploring the potential adverse consequences of these actions 
on DAB or without considering the comments of broadcasters, 
receiver manufacturers and digital audio broadcast proponents 
prior to acting on LPFM.
    There are various reasonable remedies to these problems to 
assure compatibility and to do no harm to existing services. We 
are considering appropriate administrative and/or judicial 
processes to resolve these issues. NPR and our member stations 
also are prepared to seek appropriate and timely legislative 
redress.
    We will continue working regularly with stations and other 
professional and industry organizations on this matter. We seek 
a reasonable, rational outcome that assures compatibility by 
creating the practical means to guarantee compatibility.
    Thank you, Mr. Chairman.
    [The prepared statement of Kevin Klose follows:]

   PREPARED STATEMENT OF KEVIN KLOSE, PRESIDENT AND CHIEF EXECUTIVE 
                     OFFICER, NATIONAL PUBLIC RADIO

    Good morning Chairman Tauzin, Congressman Markey and distinguished 
Members of the Subcommittee. Thank you for inviting me to speak to you 
on behalf of National Public Radio (NPR) and the hundreds of public 
radio stations that air NPR programming across the country. As you 
know, NPR is a private, nonprofit corporation that produces and 
distributes award-winning programming such as Morning 
Edition<SUP>'</SUP>, All Things Considered<SUP>'</SUP>, Talk of the 
Nation<SUP>'</SUP>, Performance Today<SUP>'</SUP>, and Car Talk. NPR is 
also a membership organization. NPR Member stations are independent 
entities, licensed to a variety of non-profit organizations, local 
communities, colleges, universities and other institutions. The 
majority of NPR Member stations are licensed to educational 
institutions such as the University of Houston and The Ohio State 
University. In addition, a number of states have established state-wide 
networks to provide universal access to public radio service.
    Thank you also for the opportunity to comment on the Federal 
Communications Commission's (FCC) decision to implement a new service 
of low power FM radio (LPFM) stations. At the outset, let me say firmly 
that NPR favors, in principle, diversity of voices and access to the 
radio space. We applaud the intent of the FCC in adopting the recent 
Report and Order (Order) regarding LPFM to encourage such diversity. 
While recognizing that LPFM will never be a viable substitute for the 
services provided now to millions of listeners by the public radio 
community, we nevertheless believe there can be compatibility between a 
new LPFM service and public radio. LPFM stations can only provide 
service to narrow geographic segments of a community since the largest 
stations covering 3.5 miles and the smallest stations covering 1 mile.
    However, there are three significant unresolved issues that need to 
be addressed in order to insure a compatible environment for the 
benefit of our listeners. We seek the following actions:
    1--Timely creation of a swift, fair process at the FCC to 
adjudicate cases of interference. The FCC has overturned long-standing 
policy of providing protection on ``third adjacent'' frequencies and 
now will permit LPFM stations to acquire frequencies that may disrupt 
radio stations in their extended coverage areas. In addition, the radio 
reading services that rely on FM subcarrier channels are much more 
susceptible to this kind of interference. We recognize that the FCC has 
chosen to rely on its own engineering studies rather than the evidence 
submitted by NPR, the NAB and others, and we do not intend to argue 
that issue in front of the Subcommittee. However, what is deeply 
troubling to public radio is that the FCC has chosen to commit to this 
course without providing a more complete remedy to radio stations or 
their audiences if in fact interference does occur.
    2--Protection of translators. Many areas, especially in the West 
and the Midwest, depend upon translator stations to receive public 
radio broadcasts that repeat full service stations in the heart of the 
community. In rural and other under-served areas, with relatively fewer 
radio and television signals available, translators have a heightened 
meaning to listeners of public radio. But, the FCC Order provides 
secondary and inadequate protection for these services.
    3--Assuring the transition to Digital Audio Broadcasting. The LPFM 
decision was announced just four days before comments were due on the 
FCC Notice of Proposed Rulemaking on the transition of analog radio 
stations to Digital Audio Broadcasting (DAB). Having both initiated the 
DAB process and acknowledged the potential effect of LPFM on this 
process, the FCC proceeded with its plan without analyzing the impact 
on DAB. We believe it imprudent of the FCC to act on LPFM without fully 
understanding the consequences of its actions to DAB or considering the 
comments of broadcasters, receiver manufacturers and DAB proponents.
    We are considering appropriate administrative and/or judicial 
processes to resolve these issues. NPR and our Member stations also are 
prepared to seek an appropriate and timely legislative solution. 
Millions of Americans listen to and support public radio. We ask that 
that support be honored by a positive response to our presentation of 
the need for assuring the compatibility of this powerful, yet fragile 
public radio space.

  PUBLIC RADIO'S LONG-STANDING SERVICE TO UN-SERVED AND UNDER-SERVED 
                               AUDIENCES

    NPR and its Member stations appreciate and value the public policy 
objective of fostering a diversity of broadcast voices to ensure 
programming that is responsive to local needs and interests. Since its 
origins in the first part of this century, public radio has pursued a 
mission of producing and disseminating programming to meet the needs of 
audiences un-served and under-served by commercial media. In fact, one 
of public radio's greatest strengths derives from a proven record of 
producing high quality public service broadcasting that both celebrates 
the individual community and welcomes national programming. This 
powerful local-national amalgam has created a broadcast space greater 
than the sum of its parts.
    NPR's devotion to presenting ideas, whether news or cultural, 
engages audiences and enhances the connections between people in local 
communities and across the nation. For example:

<bullet> Morning Edition is the premier national/local program on 
        public radio, with 10 million weekly listeners, larger than the 
        Today Show. The program is designed to encourage local 
        stations' news departments to report on community news and 
        events by inserting these stories into the national feed.
<bullet> All Things Considered is NPR's award-winning, flagship 
        program. It produced the Lost and Found Sound series that 
        included the ``Quest for Sound,'' a call to listeners to send 
        in their home recordings of sounds of the last one hundred 
        years. This is a prime example of local contact that creates 
        national content.
<bullet> Weekend All Things Considered invites listeners to collaborate 
        with novelist Paul Auster by submitting true stories to be re-
        worked and read on air as part of The National Story Project.
<bullet> Talk of the Nation is a distinctive news program providing 
        opportunities for listeners to call into national and 
        international experts to discuss the issues of the day and the 
        issues behind the headlines. The show also takes to the road on 
        the last Thursday of each month as part of a year long series, 
        The Changing Face of America. This series also allows a studio 
        audience to share local concerns with a national audience and 
        allowing the national audience to compare and contrast local 
        views with its own.
    In addition, local public stations complement and strengthen this 
noncommercial, educational service by producing programs particularly 
relevant to their communities:

<bullet> WABE-FM in Atlanta, Georgia, produces The New South Radio 
        Drive-In, drawing together some of Georgia's best talent in 
        theater, comedy, oral tradition storytelling, and folk music 
        for a live, half-hour show devoted to a celebration of 
        Georgia's historic culture.
<bullet> WCPN-FM in Cleveland, Ohio, produced a four-month special in 
        collaboration with public television station WVIZ-TV called 
        Your Land, My Land. This special focused on urban development 
        and its impact on the citizens of northeast Ohio. WCPN-FM 
        produced a series of special news reports on all issues 
        surrounding development, while WVIZ-TV produced local TV 
        programs. WCPN also hosted call-in programs that featured 
        local, state and national organizations on all sides of the 
        development issue.
<bullet> WWNO-FM in New Orleans, Louisiana, records and broadcasts 16 
        or more concerts of the Louisiana Philharmonic Orchestra and 
        other classical music concerts each year. In 1997, the station 
        won special recognition at the Big Easy Awards Tribute to the 
        Classical Arts for its role in the broadcast and promotion of 
        classical music.
    The value of public radio goes beyond its own broadcasts. Public 
radio stations are working directly with communities. Some examples:

<bullet> KSMU-FM in Springfield, Missouri, works with fifth grade 
        students in the Springfield Public School system to produce and 
        edit a monthly news program about issues and activities at 
        their school. KSMU-FM both broadcasts and web-casts the program 
        on the station's web site.
<bullet> KPCC-FM in Pasadena, California, works with inner-city kids by 
        sponsoring essay contests and arranging for students to tour 
        the station. In past years, young people from Heart of LA Youth 
        (HOLA) have worked with a KPCC-FM and a NPR reporter to create 
        radio documentaries that aired locally. Similar collaborations 
        involved African-American students from All Saint's Episcopal 
        Church in a program called Brothers Making a Difference.
    As a result, Americans have come to rely on public radio to provide 
thought-provoking, in-depth programming that addresses national, 
regional and local issues.

   THE SUBSTANTIAL LOCAL, STATE AND FEDERAL SUPPORT FOR PUBLIC RADIO

    Consistent with this public service record, the federal government 
has a long-standing policy of promoting the development and expansion 
of locally oriented public radio. Congress has made a substantial 
federal investment through the Corporation for Public Broadcasting 
(CPB) to support the basic operations of public radio and television 
stations and to foster the production of programming. Congress has also 
invested in the construction of public broadcast facilities through the 
Public Telecommunications Facilities Program (PTFP) since 1962. 
Moreover, Congress established the Public Radio Satellite System (PRSS) 
in 1978, the first of its kind. This nationwide interconnection system 
is a lifeline that provides universal access to programming.
    Although federal support is important, the majority of funding 
comes from local and state governments and from community sources, 
including listeners. The fundamental element underlying the public's 
support for public radio has been the role of public radio stations as 
community resources and as outlets of community expression. Indeed, the 
history of public radio has been the evolution of public radio stations 
as sources of locally responsive programming. It has accomplished these 
important public service objectives as the result of concerted federal 
policies and with the assistance of a substantial investment of 
resources over the past half-century.

                             THE LPFM ORDER

    In several important respects, the Commission's Order accommodated 
concerns expressed by public radio. Although NPR appreciates these 
accommodations and the spirit in which they were intended, we are 
deeply concerned that the Order may diminish the service public radio 
provides to the American people. As the record demonstrates, public 
radio is an invaluable community resource, and it makes little sense to 
implement the LPFM plan in such a way as to undercut public access to 
public radio.
    INTERFERENCE: In eliminating 3rd adjacent protection for FM radio 
stations, the FCC has departed from its long-standing and traditional 
standard of measuring interference. It has done so despite substantial 
evidence presented by NPR, the NAB and others. We recognize that the 
FCC may disagree with that evidence, but we believe it to be imprudent 
for the Commission to fail to provide an adequate remedy if, in fact, 
interference does occur. The consequence of error by the Commission in 
this technical debate will fall directly on existing radio services and 
the communities which long and faithfully have supported these stations 
with substantial voluntary financial support and growing audiences.
    Full Service Stations: If the Commission is incorrect in its 
predictions about the likelihood and severity of interference, there is 
no apparent means to remedy or even minimize the harm.
    As a related matter, we request clarification that mutually 
exclusive applications, which in many cases have been held up for 
years, are indeed protected. Public radio stations are making a 
substantial financial investment in gaining access to spectrum in order 
to expand public service to the American people.
    Radio Reading Services: The potential harm also extends to radio 
reading services offered by public radio stations across the country to 
the visually-impaired and others such as paraplegics whose disability 
prevents them from using print media. This service is unique. No other 
source adequately satisfies these citizen's needs. Approximately one 
hundred radio reading services use public radio stations' sub-carrier 
channels, which operate closer to other signals and thus are more 
likely to engender interference, for broadcast information and 
programming to commonly available receivers.
    For instance, the radio reading service in Pittsburgh, 
Pennsylvania, serves 6,500 people, 24 hours, seven days-a-week with 
readings from local newspapers, geographic and ethnic community 
newspapers such as the Jewish Chronicle, Pittsburgh Catholic and The 
Pittsburgh Courier which serves the African-American community. 
Moreover, the radio reading service provides daily grocery and shopping 
information. In addition, community organizations such as Lion's Clubs 
help purchase sub-channel receivers, and WDUQ-FM and its licensee, 
Duquesne University, donate engineering assistance and the subcarrier 
frequency on which the service is broadcast.
    Translator Inputs & Outputs: Although the Commission required LPFM 
stations to protect existing translator/booster facilities, it did not 
expressly require the protection of translator/booster input signals. 
Because translator/booster facilities operating on non-reserved 
frequencies must be "fed" by an over-the-air signal, disruption of the 
input signal could eliminate the service of that translator/booster 
facility as well as every translator/booster facility that depends on a 
clear signal to and from the affected facility.
    Particularly in more rural areas of the United States, networks of 
translator and booster facilities are typically the only means by which 
public radio stations can cover large, sparsely populated areas. For 
example, KUWR-FM in Laramie, Wyoming, has seven translators that carry 
the station's signal to approximately 45,000 people in underserved 
areas. Similarly, the translators in Rawlins and Dubois, Wyoming, 
provide the only public radio service in these areas.
    This problem may also impact other regions of the United States. 
For instance, public radio station WKMS-FM in Murray, Kentucky, has 
translators in Paducah, Kentucky, and in Paris, Tennessee. These 
translators bring the only public radio service to about 43,213 
persons. In Southwest Virginia, WVTF-FM is in the process of 
constructing a translator in Lynchburg on 89.5. If its input is not 
protected, the service it will provide may be entirely negated.
    PROTECTING FUTURE TRANSLATORS AND BOOSTERS: While the FCC grand-
fathered existing translator/booster facilities, it required future 
translator and booster stations to protect previously authorized LPFM 
stations. Since there has been a freeze on translator applications 
since 1997, this aspect of the LPFM decision is likely to further 
undermine the extension of public radio services to under-served and 
un-served areas.
    In addition, translator and booster stations are considered a 
secondary service to full powered stations. As a result, a translator 
or booster station that is forced to relocate to accommodate a new or 
newly modified full power station will likely have an even harder time 
relocating the facility and maintaining service once significant 
numbers of LPFM stations have begun operations. If the dislocated 
translator is part of a network of such facilities, service may be lost 
over a wide area.
    DIGITAL AUDIO BROADCASTING: The LPFM decision was announced just 
four days before comments were due on the FCC's Notice of Proposed 
Rulemaking regarding the transition of analog radio stations to digital 
audio broadcasting (DAB). Having initiated a proceeding to address the 
transition of existing full power radio broadcasters to DAB, and 
acknowledged the potential impact of LPFM interference to DAB, the 
FCC's Order essentially ignores the issue. Given the uncertainty 
regarding the transition to DAB, we believe the potential affect of 
LPFM stations on full powered stations warrants further analysis.

                               CONCLUSION

    Although public radio supports a multitude of voices over the 
nation's airwaves and the general principle of empowering communities 
to make their voices heard, we do not believe that it constitutes sound 
public policy to implement LPFM in such a way as to interfere with the 
educational and community mission of public radio. Our belief in this 
proposition is only strengthened by the realization that the LPFM 
proposal, as currently constructed, could have the greatest harm on 
public radio audiences in rural and traditionally underserved areas, 
the exact audience who may be in the greatest need for access to public 
radio programming. We thus seek an adequate remedy for existing 
stations in case of actual interference, greater protection for 
translator services in rural and under-served communities, and 
reevaluation of the LPFM plan in concert with the ongoing DAB 
proceeding.

    Mr. Tauzin. Thank you very much, Mr. Klose.
    The Chair will recognize himself for a round of questions.
    Let me first observe a couple of things. As I observed the 
testimony of the Commissioner, you, Mr. Franca, and others, 
what we are really talking about is an order that relaxes 
standards of interference that have been in place a long time 
to accommodate the new stations, relaxing standards of 
interference.
    As I understand, the office used distortion to test for 
interference rather than signal to noise ratios which has been 
the standard used by the FCC in setting interference protection 
rules for a long, long time. Am I wrong about that?
    Mr. Franca. One of the difficulties here and one of the 
reasons why people came up with different standards is the way 
FM service was started. It started as a monophonic service. We 
established mileage separations among stations but the 
Commission never defined what level of service or what grade of 
service that meant for FM service.
    Mr. Tauzin. Hasn't the international standard always used 
signal to noise ratios?
    Mr. Franca. There is an international ITU standard.
    Mr. Tauzin. Isn't that the standard they have always used?
    Mr. Franca. It is not the standard that we use.
    Mr. Tauzin. It is not the standard that has been used by 
the FCC?
    Mr. Franca. Absolutely not, and in fact, the reports cited 
by the NAB in their comments to this proceeding in which they 
said they cite the ITU standard of 50 db should be used for our 
standard----
    Mr. Tauzin. But you are saying you did not abandon a long-
held standard by the FCC in measuring interference?
    Mr. Franca. Absolutely not.
    Mr. Tauzin. Second, I was puzzled by why a Walkman was used 
in Mr. Jackson's test and then it dawned on me what is going on 
here. Here is the question I want to ask you. Portable, 
personal, clock radios make up 65 percent of the radios sold in 
the year 1998, according to our numbers, hundreds of millions 
of them out there. What I think I am hearing is that the 
rationale of the Commission is that because these radios are 
always likely to be subject, susceptible to interference 
because people use them anyhow, it is okay to have more 
interference on them? Is that the rationale upon which this 
decision was based?
    Mr. Franca. I think the rationale is that those radios 
provide limited service today. In fact, if you look at the NAB 
test data and their 50 db number, the Walkman radio 
performance, their 50 db number, at the edge of service is 
1,000 times less than that.
    Mr. Tauzin. The point I am making is that we are talking 
about radios that hundreds of millions of Americans have bought 
and use. These are the low cost radios that people use for the 
clock radios, the Walkman we just saw demonstrated and I hear 
the Walkman being described as a poor performance radio today, 
that these so-called poor performance radios are going to be 
poorer in performance as a result of some of this interference 
that you now will permit as acceptable interference.
    Let me start with Harold's premise that the idea of 
diversity, of public radio, letting more people into the 
business of the airwaves, Mr. Koning made very strong and 
convincing arguments for that and I think it is something we 
have always accepted. But in doing so in a rule that is 
premised upon the notion that the radios most Americans buy and 
use are going to be poorer quality performers now because you 
are going to allow more interference on those radios and the 
rationale is, well, you bought a poor radio to start, you 
deserve a little more interference. Has that rationale been 
behind this decision? It is pretty disturbing to us.
    Mr. Franca. I think the rationale is always the benefits of 
a service versus the interference it cause.
    Mr. Tauzin. What you are saying is, in order to get a few--
if Harold is right about this, if we are only talking about 
four, five, six, eight stations in the major metropolitan areas 
of America, if you are telling hundreds of millions of 
Americans that you are going to have poorer quality radios 
because you can't afford the highest quality radios, you are 
buying these Walkmans, you thought you got a great product, but 
now you are going to have a less quality product because we 
want to accommodate for the good, eight to ten new radio 
stations in these metro areas and heaven knows what else?
    What I am telling you though, I want you to hear this, is 
that many of us who are concerned that kind of subjective 
balancing of American values is something perhaps you should 
have talked to us about. We get elected by those Americans who 
buy those radio stations as well as the Americans who would 
like to own a radio station. All the Americans who bought those 
Walkmans are going to be calling us, if Mr. Jackson's 
demonstration is correct, wondering why they have all this 
backtalk on the radio they used to listen to.
    Mr. Franca. Well, I think you have to look at where that 
interference will occur. What we are saying is that the 
interference area will be right around the low power station.
    Mr. Tauzin. A square mile in the metro area. Do you know 
how many people drive through that square mile on a daily 
basis?
    Mr. Franca. If they are driving through, their car radios 
are going to operate perfectly.
    Mr. Tauzin. Do you know how many people use Walkmans in 
those square miles? What concerns me, sir, is that you are 
saying for the first time I think in the history of the 
Commission, No. 1, that this is a good and efficient use of the 
spectrum and it doesn't matter, for the good of this rule, that 
all of these products that Americans have bought will now serve 
them in a poor capacity. Your argument is, well, you should 
have known it when you bought those cheap, old products? That 
is a pretty nasty way to treat the American public, sir.
    Mr. Franca. Sir, every service that we authorize--and we 
think it is good spectrum management policy--is interference 
limited. So when we put in a new service and a new station, 
such as a full power FM station, someone is going to lose 
service. They are, however, going to be gaining service from 
that new station.
    Mr. Tauzin. Let me ask you the tough question. You 
eliminated third adjacent channel protection for the LPFM 
station but you kept it for the full power station. If your 
arguments are as you concluded, that you reject third channel 
interference, why keep it for the full stations? If you are 
creating all these new low power stations that can receive all 
this horrible interference from the full power station, you are 
creating new stations that are going to be horrible to listen 
to on the one hand because you are not protecting them against 
adjacent interference and at the same time saying it is okay to 
establish these because, in our opinion, third adjacent 
interference is not significant for the public good. That seems 
a bit inconsistent. Would you please explain that to me?
    Mr. Franca. I think the difference there is looking at 
where the interference would occur. Generally, it is a very 
small area. The reason why you don't do it for the full power 
stations is basically because the higher power of those 
stations would cause a much greater service area loss to the 
public.
    In most instances, the loss of service in the LPFM case 
will be on the property of the low power station owner.
    Mr. Tauzin. I just have real problems. I am like the 
Commissioner, I don't start from the notion that what you tried 
to do is all bad. I supported low power television and still do 
for a lot of the reasons that low power television has added a 
component to our communications marketplace. I think it has 
been good for this country.
    I don't necessarily think low powered FM is a bad concept 
to start with, but the notion that the order is based on a 
premise that it is okay to have more interference on the radios 
that most Americans buy and use because they are low cost 
radios is a very disturbing premise to me. We will have more 
discussions of this.
    My time has expired. The chairman recognizes the gentleman 
from Massachusetts for a round of questions.
    Mr. Markey. Thank you, Mr. Chairman.
    I would like to begin by first congratulating Mr. Franca 
for his historic testimony today. Usually when the Federal 
Communications Commission is testifying before this committee, 
it is to receive a round of bitter criticism for dragging its 
feet and not moving quickly enough. Today, Mr. Franca, you have 
been able to elicit criticism from those same people for moving 
too quickly and trying to get the process completed in an area 
of important national policy. For that, you are to be 
congratulated because you demonstrate to a very large extent 
much of the criticism of the FCC has nothing to do with speed, 
it has to do with result, the conclusion to which they come on 
issues with which they are dealing.
    Today what we are talking about is a obviously a huge 
deregulation issue--how do we deregulate the third adjacent 
station. As part of the deregulatory agenda of the Congress, we 
are obviously moving forward. Sometimes there are realignments 
on deregulatory issues. That is just the way it is but clearly 
there is a real intent here to move forward.
    We begin, of course, by noting the limited nature of this 
interference. It is a significant issue but with limited 
consequences, so all of the FM car radios, 150 percent of all 
listenership is that. Home stereos, they are out. People who 
use Sony Walkmans or cassettes, which I would say is a very 
high percentage of people out there jogging using these Sony 
Walkmans, are also out as well.
    So we come down to the Sony Walkman issue which is an 
important issue, I don't deny that. I think most of us begin 
with a pretty low quality portable radio, although they may not 
be the highest target audience for advertisers in terms of 
generating revenues.
    I guess what I would like to know, Mr. Franca, is, first of 
all, is there a disagreement about the underlying data between 
you and Mr. Jackson, for example, or is there a debate over the 
interpretation of the data? Which is it? Is it the data or the 
interpretation of the data that we are discussing here?
    Mr. Franca. We believe the primary differences here are in 
the interpretation.
    Mr. Markey. So you agree with Mr. Jackson's conclusions?
    Mr. Franca. We certainly think their tests provided good 
information that we used to make our decision.
    Mr. Markey. Do you agree with Mr. Franca, Mr. Jackson, in 
terms of his evaluation that the data you both are working from 
is identical?
    Mr. Jackson. I wouldn't say identical but what Professor 
Picholtz and I did in our study was we tried to reconcile the 
four studies and make adjustments. We were able to find that 
they all came pretty close and that the difference between the 
people who thought the third adjacent channel interference was 
going to be a real problem and those who thought it wasn't, 
came from how people defined interference and how badly a 
signal had to be degraded before a consumer suffered.
    Mr. Markey. So we debate then not over the technical 
conclusions which you reached. Do you agree with that Mr. 
Rappaport?
    Mr. Rappaport. Yes.
    Mr. Markey. Anyone here disagree that it is a debate over 
data rather than interpretation of data?
    [No response.]
    Mr. Markey. Is there an appeal process here, Mr. Franca?
    Mr. Franca. We have a reconsideration process at the 
Commission.
    Mr. Markey. Are all of the panelists here and all others in 
the country free to participate in that appeal process?
    Mr. Franca. Yes.
    Mr. Markey. What is that process? Can you explain it to us 
in terms of its length and the process that interests would use 
in order to testify or have their views heard?
    Mr. Franca. Thirty days after publication of the rules in 
the Federal Register, people can file petitions to ask us to 
reconsider the adopted rules.
    Mr. Markey. Then what happens after that, Mr. Franca?
    Mr. Franca. The Commission looks at that information and 
puts out a Memorandum Opinion and Order either agreeing with 
the petitioner or upholding the rules.
    Mr. Markey. So how long a period has yet to elapse? Can you 
give us an idea as to the duration of that period of time that 
everyone will have a chance--Mr. Jackson and others--in order 
to present their information and contest the conclusions you 
have reached with regard to your interpretation?
    Mr. Franca. I believe the rules were published in the 
Federal Register yesterday, so the 30-day period started 
yesterday.
    Mr. Markey. In terms of the comment period and then how 
long after that before the FCC would then rule on those 
additional comments?
    Mr. Franca. That depends on what gets filed but we 
certainly try to look at this information relatively quickly 
and the staff would present a recommendation to the Commission.
    Mr. Markey. So the process has not concluded yet with 
regard to modifications that could be made taking into account 
the concerns which have been raised by this panel and others in 
the country?
    Mr. Franca. That is correct.
    Mr. Markey. So at this point we are kind of at the halfway 
point in the process in terms of your initial conclusions and 
now the commentary coming from the public and other interested 
parties.
    Thank you.
    Mr. Tauzin. I might note for the record that Associated 
Press carries the story today that the National Broadcasting 
Association has filed a petition in U.S. District Court of 
Appeals asking the court to set aside this rule. So we also 
have a court proceeding commenced in the matter.
    The Chair recognizes the vice chairman of the committee, 
Mr. Oxley, for comments.
    Mr. Oxley. Thank you, Mr. Chairman.
    Commissioner Furchtgott-Roth, welcome. I take it from your 
comments that you support my bill?
    Mr. Furchtgott-Roth. Mr. Oxley, I have a longstanding 
position of not taking positions on legislation before 
Congress. I am not sure it is the appropriate role of 
commissioners to be out lobbying Congress.
    Mr. Oxley. We would welcome you as an ally at any point.
    Your testimony was interesting, and I was thinking 
initially when this whole issue came up, why would my 
broadcasters back home be concerned? I thought there would be 
more angst perhaps in urban areas as opposed to rural and semi-
rural areas and yet, as you indicated and others indicated, the 
bulk of these new licenses would be in the smaller markets. 
Then I realized that a station in Delphos, Ohio that has been 
there for a long time, family owned, that is why they would be 
concerned about a low power license.
    Could you characterize and give us some idea why apparently 
there is very little, if any, demand for existing low power 
licenses? Is it not that people don't realize they are out 
there? Why is there apparently a lack of demand for the 
existing licenses out there?
    Mr. Furchtgott-Roth. Mr. Oxley, I think in smaller markets, 
anyone could come in and apply for a license and in most small 
and mid-size markets, get a license, a full power license. If 
they want to operate at a low level, they could. The reason 
they don't is they would lose a lot of money. Presumably in 
small markets, anyone who could make a penny at this business 
is already in the business and there are a lot of folks who are 
in the business who are losing a lot of money. So it is not 
very attractive to enter a market where you are probably going 
to lose money.
    Where there is demand is in the major urban markets where 
even the smallest, lowest power station in a major market can 
sell for a lot of money. No one can come in and get a license 
today for free in those markets, but those are precisely the 
markets where few, if any, new licenses will be created for low 
power FM. The only ones that will be created will be created at 
the cost of new interference.
    Mr. Oxley. As I understand it, in 1998 over 65 percent of 
radios sold were portable, personal and clock radios, a rather 
substantial number. I have a shower radio, a great invention. 
If I want to sing along with the oldies station, I should be 
able to do that without interference. You listen to news, music 
and everything. There are a lot of those out there, and I would 
think that I ought to be entitled to a clear signal, the same 
with the Walkman user or anybody else.
    Mr. Franca, would you acknowledge that there are literally 
millions and millions of those kinds of radios out there, the 
shower and Walkman radios?
    Mr. Franca. Absolutely and I think the numbers and 
distances that were presented here were based on the NAB test 
results and a very, very high level of performance that these 
radios don't meet. We think that the interference areas would 
be much, much smaller than were presented based on the NAB 
tests.
    The only issue, if you actually look at the data, is with 
regard to the Walkman-type radios which really were an anomaly 
of all the radios tested.
    Mr. Oxley. Would you put the Walkman and the shower radio 
all in the same category?
    Mr. Franca. No.
    Mr. Oxley. You wouldn't? Why is that?
    Mr. Franca. We didn't test the shower radio but I would 
assume it would be more like a clock radio or the portables 
which offered much better performance.
    Mr. Oxley. My time has expired.
    Thank you.
    Mr. Tauzin. The gentleman from Tennessee, Mr. Gordon, is 
recognized.
    Mr. Gordon. Thank you, Mr. Chairman.
    Thank you also for having this important and timely 
hearing. This is a subject we need to be discussing now. I have 
a couple of questions.
    Mr. Franca, if there is a need for the low power stations, 
can that not be met on the noncommercial band?
    Mr. Franca. I am with the Office of Engineering and 
Technology. That is really outside my area of expertise how 
many allotments are available there. We really just looked at 
the interference issues. I can certainly go back and get that 
information.
    [The following was received for the record:]

    Of the 100 FM radio channels, 20 are reserved for 
noncommercial use. Noncommercial stations are not assigned 
channels in the FM Table of Allotments, for which protection is 
based on minimum separations between stations assumed to be 
operating at the maximum facilities for their class. Rather, 
noncommercial FM stations are fit into the broadcast landscape 
on the basis of protecting the service contours of earlier-
authorized stations, based on the licensed facilities. As a 
result, the noncommercial band is intensely utilized in many 
areas. Restricting LPFM stations to the noncommercial band 
would further preclude or limit opportunities for LPFM service, 
especially in urban areas where there are few opportunities for 
LPFM stations on commercial and noncommercial channels. For 
these reasons, we do not believe that the substantial interest 
in LPFM service could be accommodated in the noncommercial 
band.

    Mr. Gordon. I would like you to do that.
    Two people can see an accident and view it differently and 
sometimes who hires an expert has an impact on those. I have to 
say that you were very persuasive here today.
    As a proponent of the low power stations, you are still 
saying there is going to be interference. It is really a 
question of what is acceptable interference and how large an 
interference. In your testimony, you said there was going to be 
interference, it would be acceptable. Can you better define for 
me what is the high level of your acceptability?
    Mr. Rappaport. Sure. That unfortunately as you can see with 
this panel is a bit subjective. We can all measure the same 
data, but what is and is not interference can differ between 
two parties.
    Mr. Gordon. Proximity is one major element?
    Mr. Rappaport. Yes, that is the major impact. In radio 
propagation, the closer you are to a transmitting source, the 
more interference you will experience for a given transmitter 
power. These low power FM stations are orders of magnitude 
weaker in power from the antenna than any of the other 
commercial broadcast stations.
    Mr. Gordon. In a quarter of a mile of a low power station, 
would that be unacceptable interference?
    Mr. Rappaport. In a quarter of a mile, which is longer than 
the 125 meter blanketing region, my estimation is you would 
have no interference to virtually every radio that exists 
today.
    Mr. Gordon. What about three blocks?
    Mr. Rappaport. If three blocks are about 300 meters, that 
again is well outside of the 125 meter footprint of the maximum 
power-low power FM station, so I would say you would have 
virtually no interference whatsoever.
    Mr. Gordon. What about a ham operator?
    Mr. Rappaport. I am glad you mentioned that because there 
are about 250 to 300,000 amateur radio operators in schools, 
apartments, houses all across the country transmitting ten to 
twenty times the power.
    Mr. Gordon. So if you have one of these in your home, how 
many next door neighbors do you bother?
    Mr. Rappaport. It depends on the proximity of the neighbor.
    Mr. Gordon. Typical.
    Mr. Rappaport. If it is a typical quarter acre lot, 
probably two to three neighbors might be impacted to some of 
the stations depending on their make of radio, maybe no 
stations, maybe two or three stations. If it is a very 
inexpensive radio, possibly all of the stations.
    If I could just mention the FCC I think was very 
responsible because they enforced the same ruling on low power 
FM.
    Mr. Gordon. Again, I don't have time. The gentleman next to 
you on your left, what is your proximity issue? Is it going to 
be more than two or three neighbors, two or three houses down 
the block?
    Mr. Jackson. It is going to depend on the consumer's 
receiver and that is an issue I haven't spent a lot of time on, 
so I am going to beg off on that. I would like to make one 
observation which is Professor Rappaport said the interference 
would be acceptable, it was a good tradeoff. That is not what 
engineers are for. Engineers are to tell you how bad things 
are, how good things are and what the choices are.
    Mr. Gordon. So you are an engineer and you can't tell me 
this? What I am trying to ask you is whether you are going to 
affect one neighbor or two neighbors.
    Mr. Jackson. Mr. Franca had an exhibit showing the range 
which was fairly substantial.
    Mr. Gordon. From what you know, can you not interpolate the 
information?
    Mr. Jackson. I apologize, sir. I have not looked at that 
issue and I can't give you a number.
    Mr. Gordon. That is fine. Thanks.
    With my time running out, let me say, Mr. Chairman, we need 
to have more hearings and take more information. My quick 
thought for what it is worth, probably not much and if anyone 
cares, is that I certainly understand the FCC's interest in 
trying, in this period of consolidation and concentration, to 
have more diversity, more access. Is there going to be a new 
Spike Lee or Bob Dylan or someone out there who wants to bring 
in something new that might catch on, I think has some merit. 
But, I think there is a price that we have to consider here. It 
is this inference.
    I certainly want to know the answer to this noncommercial 
band question. We really haven't talked much but it doesn't 
seem there is an outpouring for these stations right now. 
Potentially, the noncommercial band could take care of that 
until there is an increase, as there will be, in technology for 
Walkmans and others that can better accept this interference.
    I want to hear more about that and I would hope that the 
Commission, during this comment period, would go slow, let us 
learn a little more about it. I certainly would very 
unfavorable to wholesale getting into this without knowing more 
than we do. If there is the potential to do two or three 
experiments, I want to know. I want to know more about the FCC, 
whether it is an open door, if we are going to have lots of 
these if no turning back or whether there is a way to do it 
incrementally as we learn more.
    Again, Mr. Chairman, thanks for bringing this open. We need 
to study this more. I would assume even with good cause, as I 
think the FCC has, anytime you are going to bring about this 
kind of change, the burden of proof is on you in terms of this 
matter of interference. My feeling at home has been that 
everybody wants gravel on their roads but they don't want the 
rock quarry next door. Everybody wants the garbage picked up 
but they don't want the landfill next door. You may want these 
extra stations but you don't want them next door to you if they 
are going to cause interference. I think we really do have to 
answer the question of what happens to those neighbors. I just 
want to learn more about that.
    Thank you.
    Mr. Tauzin. Thank you.
    Mr. Klose wanted to respond. We will allow that and move on 
to the next.
    Mr. Klose. Thank you, Mr. Chairman.
    Mr. Gordon, I would like to point out that the reserve 
portion of the FM band, which is the noncommercial part that we 
are most concerned about, as we are noncommercial, is more 
subject to interference for engineering reasons. We can submit 
information to the record to detail those problems. They have 
to do with the way our signals are processed to give full, 
dynamic range of our particular program matter and the sound we 
give is processed differently from the sounds you hear and the 
way sound is processed in the nonreserve portion.
    Mr. Gordon. Is it as crowded?
    Mr. Klose. It is extremely susceptible to interference 
because it is a much higher range.
    Mr. Gordon. Is it as crowded now, the noncommercial?
    Mr. Klose. I can't say comparatively. We view it as a fill 
part of the spectrum.
    Mr. Tauzin. The record will stay open. We would appreciate 
a submission that details why you have a special problem with 
this.
    The Chair recognizes the gentleman from Florida, Mr. 
Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    I appreciate your having this hearing today.
    I was intrigued that my colleague from Massachusetts talked 
about how quickly the FCC reacted and his commendation of the 
Commission. I would bring to his attention that our vice 
chairman, Mr. Oxley, was very instrumental in acting quickly 
when the FCC had a ruling on December 29, 1999 in which the FCC 
said noncommercial television stations, as a part of their 50 
percent allocation for education programming, could not count 
religious programming. Mr. Oxley and a few of us quickly got a 
bill and as a result the FCC rescinded its decision that it 
made last December. This decision was made without any hearings 
or any information from the religious community. So I was glad 
to see the FCC acted to rescind what it did so quickly on 
December 29.
    I bring that because lots of things that happen in 
Washington--and I am not saying this was one of them--happen 
for political reasons.
    Mr. Tauzin. Will the gentleman yield for a second?
    Mr. Stearns. Yes.
    Mr. Tauzin. The gentleman might be aware that we submitted 
a very extensive list of questions to the Commissioners 
regarding that decision that was pulled, one of which asked how 
was Handel's Messiah considered cultural when it was performed 
at the Kennedy Center but not on a religious broadcast station? 
I must tell you that we got no answers to those questions. We 
did get a response from the Chairman saying that it was now 
moot since they had withdrawn the rule but it is a good example 
of how moving too fast has created some real problems out 
there.
    Mr. Stearns. It is a good example of what is the basic 
motivation sometimes for moving so quickly without public 
input.
    Let me ask Mr. Franca, say I get this spectrum allocation 
and I guess the assumption is that I will have full integrity, 
that I am going to build my station, build my towers and spend 
a lot of money, go to the banks and put my name on a mortgage. 
Then I am going to find out that this spectrum you gave me has 
interference. I am going to complain to you. Aren't you going 
to have to go ahead and hire a lot of people to enforce all 
these low power stations to make sure they are in the proper 
performance? My first question I guess is, have you done an 
analysis of this? How many more people are you going to hire to 
administer these new licenses and to make sure there is enough 
personnel to prevent interference and to give the full 
integrity to the person that is obligated to building the 
tower, mortgages, and has put all the capital out there?
    Mr. Franca. Congressman, again, I am from the Office of 
Engineering and Technology. That is a little outside my area 
but certainly that was an issue that was discussed before the 
Commission. The Commission felt comfortable that it had the 
resources to do that.
    We do that today. We have an Enforcement Bureau, we have 
offices around the country. We do investigate causes of 
interference and we find those cases and correct those cases.
    We think having the rules and regulations that we are 
adopting for this low power service really will minimize the 
interference.
    Mr. Stearns. Have you done an analysis of this? Is this 
analysis available for the committee?
    Mr. Franca. Analysis of the interference or analysis of the 
enforcement effort?
    Mr. Stearns. Enforcement?
    Mr. Franca. I don't believe an analysis was done, not a 
formal one.
    Mr. Stearns. A formal one, okay.
    Let me ask Mr. Jackson, how do you respond to the criticism 
that FM receivers used in your study could not even meet the 
NAB's high performance standard before the simulation of low 
power radio stations?
    Mr. Jackson. There are two points--that is a criticism that 
has been raised not at my study but of a study that the NAB 
filed. There are two responses to that. One, it involves a 
misreading of the criterion that the NAB used. The NAB's 
criterion did apply to every radio and basically the criterion 
they used was if it is a very high performance radio, say 70 db 
signal and noise ratio, it is not degraded until interference 
drives the performance all the way down to 50 db. I am using 
db's and I apologize.
    If it is a lower performance radio, then if interference 
degrades it enough that it would bug a consumer a little bit, 
according to the research, that is harmful interference and 
that is the definition the NAB used in their study and it 
applies to all radios. What is done to take the part of that 
definition that applies to the highest performance radios that 
says that was the definition and that is unreasonable.
    I will observe, by the way, that the Commission did earlier 
use signal to noise ratios in their analysis in FCC Docket 
8090. If you look at their report, we had some dispute on this 
before saying the FCC had never used signal to noise ratio in 
their analysis of FM but if you look at report in Docket 8090, 
paragraph 36, you will find such an analysis.
    Mr. Franca. If I might respond?
    Mr. Tauzin. I think he needs to since we have two conflicts 
in testimony. Mr. Franca?
    Mr. Franca. What I said is that the Commission has never 
defined a specific signal to noise ratio as acceptable FM 
service. We, in fact, measured signal to noise even when we did 
our testing in this----
    Mr. Stearns. My question to you was have you used that 
standard previously?
    Mr. Franca. There is no standard signal to noise.
    Mr. Stearns. You said you had not used it as a standard?
    Mr. Franca. We have not used signal to noise as a standard.
    Mr. Stearns. You are saying, Mr. Jackson, they have?
    Mr. Jackson. I will let you judge for yourself, Mr. 
Chairman. I will read a couple of sentences from their 1984 
order, ``A 50 db, audio frequency signal to noise ratio was 
used to represent the high quality stereophonic service 
referenced by the comment. We developed the following table 
based on the receiver having the performance characteristics'' 
and then it goes on and shows characteristics of different 
signal to noise ratios. It is paragraph 36 and the order is FCC 
83-259.
    Mr. Tauzin. The record will speak for itself. The Chair 
will extend the gentleman's time.
    Mr. Stearns. You are saying the FCC has never used signal 
to noise as a criteria? Notwithstanding what he just said, you 
are just saying as a general practice?
    Mr. Franca. I was saying that one of the difficult things 
in this proceeding was that we could not point to a specific 
signal to noise reference as a criteria for acceptable FM 
service. That is why the CEA folks came up with the value used 
by NPR. The study funded by NPR said 45 db signal to noise is 
what they believe should be high quality service; NAB said 50 
db should be the appropriate level of FM service. Nobody 
pointed to an FCC rule that says this level of signal to noise 
is what we have determined should be used to define service 
area or interference.
    Mr. Stearns. Mr. Chairman, it just seems to me, since this 
is very controversial, there should be established signal to 
noise ratios. The NAB says it is 50 and you don't agree. Let me 
ask the panel, am I wrong in assuming that there is a signal to 
noise ratio as a criteria that we should use, that we should 
all agree upon? Mr. Jackson?
    Mr. Jackson. I think this is where some of the problem in 
the engineering studies came from. The FCC said tell us whether 
today's receivers provide satisfactory--I think the words in 
the Notice of Inquiry were ``satisfactory rejection of 
interference,'' but they didn't define what satisfactory was.
    Mr. Stearns. They gave no signal to noise criteria?
    Mr. Jackson. Right. So on one side, you had the parties 
coming in, the interference had to knock the receiver 
completely off the air before it is impaired and other people 
said, if it is the level that subjective tests have shown bugs 
consumers, that is an impairment. If the Commission had chosen 
one or the other of those standards in advance, then I think 
the studies would have been much closer. That is what the 
debate is about. Is interference to be defined as something 
that harms consumers or does it have to be something that 
knocks the radio station completely away from the consumer's 
availability?
    Mr. Stearns. Mr. Chairman, I think it is pretty clear that 
some of this controversy is hinging on the question that there 
is no established signal to noise ratio.
    Mr. Tauzin. The gentleman's time has expired but you have a 
couple of people who want to respond. Why don't we let them?
    Mr. Furchtgott-Roth. Mr. Stearns, I am not an engineer but 
I am reminded that we have another major proceeding that has 
gone on at the Commission for about a decade on digital 
television. On digital television, the Commission spent years 
doing detailed engineering studies, new service, very 
controversial, years and years and years of study.
    At the end of the day, the service went on and despite 
years of preparation, we haven't worked out all the bugs yet. 
Digital television is a very important service but the 
Commission waited until we had years of engineering studies 
before we moved forward.
    Low power FM, we went to a Notice of Proposed Rulemaking 
without a single engineering study. Within a year and with all 
due respect to the engineers present at the table, if I as an 
economist went to a referee journal and said, I have a study 
based on a handful of receivers, I want this published, I would 
be laughed at. If I said, I can tell you about interference 
across America based on laboratory experiments, I wouldn't have 
confidence.
    We have had what can only be described as a rush to 
judgment, a judgment that was predetermined before we had a 
single engineering study.
    Mr. Tauzin. Mr. Franca, you wanted to respond?
    Mr. Franca. Yes. What we have in our rules in terms of 
standards of interference are separation distances between 
stations. If I might, basically this is an NAB report that was 
cited by NAB in its comments. It says ``The FCC's allocation 
technical standards are based, to a large degree, on a co-
channel signal to inference ratio of 20 db.'' It then goes on 
and talks about the 50 db signal to noise and the international 
matters. It says ``For stereophonic transmission, a 20 db 
signal to interference ratio, the FCC rules, yields an aural 
signal to interference ratio of only 30 db.''
    What the NAB was saying in this report is that our 
separation standards do not yield a 50 db audio signal to noise 
ratio that the NAB now advances as a performance standard. That 
is based on the distance separation among stations as defined 
in our rules.
    Mr. Tauzin. Let me see if we can move to the last and those 
who want to respond, I will give you time.
    Thank you, gentleman.
    Mr. Markey is asking consent for 30 seconds. Any objection?
    [No response.]
    Mr. Markey. Thank you, Mr. Chairman, very much. I apologize 
to the gentleman from Maryland.
    I think we are at half-time. Obviously there are 
disagreements. NAB is seeking relief in court halfway through 
the process. I think it is good to have called the hearings, 
Mr. Chairman, so that we can air all of these issues. Obviously 
we have reached a level now where it has become very 
contentious.
    My hope is that out of this over the next 30 days and the 
period beyond, that we can have intensive negotiations and try 
to resolve this issue. I think it would be best for all parties 
if that was the case. I would rather have a reconciliation than 
escalation of the issues. I hope this hearing has made it 
possible to give all the parties incentive to get together.
    Mr. Stearns. Will the gentleman yield?
    Mr. Tauzin. The gentleman has about 10 seconds. He yields.
    Mr. Stearns. Wouldn't you agree though that based upon what 
Commissioner Furchtgott-Roth has said that there should have 
been a lot more analysis of this before they rushed to 
judgment?
    Mr. Markey. The experts are here. It is beyond my technical 
knowledge. That is why I went to law school rather than 
engineering school. I think the experts can definitely 
telescope the timeframe to resolve the complex issues you have 
raised.
    Mr. Tauzin. Thank the gentleman.
    I am going to give each of you just a minute to sum at the 
end but I want to yield to my friend from Maryland, Mr. Wynn.
    Mr. Wynn. Thank you, Mr. Chairman.
    I would like to yield 20 seconds to my colleague from 
Tennessee.
    Mr. Gordon. That is very generous, Al. I am late for a 
meeting also and I am sure you are too. I just have one thing I 
want to quickly ask to receive more information.
    There seems to be a consensus, although there is lots of 
conflicting testimony, that there is going to be some 
interference. The question is what is acceptable and what is 
unacceptable.
    One element that really hasn't been discussed that much is 
the question of proximity. I would like to know whether there 
can be some matrix with proximity and acceptable and 
unacceptable so that in conjunction with getting a license, 
there may be a proximity requirement. That is, if you are on a 
campus, a church that has a little bit of property so that a 
part of the license would mean that you had enough proximity 
that you wouldn't be interfering with your neighbors. At a 
later date, I would like to hear more about that.
    Thank you.
    Mr. Wynn. Mr. Jackson, you said in your last statement I 
think that there really isn't a subjective level for 
interference, what really disturbs the consumer. Mr. Franca, my 
question is, do you agree with that and if so, can't we use 
that as a starting point as to what is the level of 
interference that annoys the general public, the average 
consumer? Do you agree with him and can we get a consensus?
    Mr. Franca. There is technical literature that suggests--
this is the reason why we chose 1 percent distortion--that a 1-
percent change is the minimal amount the expert listener can 
hear. So you can't hear less than 1 percent.
    Mr. Wynn. Mr. Jackson, do you agree with that?
    Mr. Jackson. I am very troubled by the fact that the FCC 
continues to conflake distortion and signal to noise. Typically 
distortion can be heard at about the 1 percent to 3 percent 
level depending on the kind of distortion it is and things like 
that. I believe consumers can tell the difference between a 60 
db signal to noise ratio and 50 db signal to noise ratio and FM 
and that is well below the 1 percent level. I am sorry about 
the jargon.
    Mr. Wynn. Mr. Franca, it seems to me that FCC should 
address that issue with some consumer-based studies that either 
say it is this or that level. I don't speak the jargon, so I 
won't attempt to. That should be the threshold for having this 
discussion.
    Mr. Franca. Absolutely.
    Mr. Wynn. Everyone is talking about what we do from here. 
One of the things I hope we will do from here is have the FCC 
come up with a definitive consumer-based analysis of what level 
of distortion or interference is acceptable.
    Mr. Tauzin. Will the gentleman yield?
    Mr. Wynn. Were you here when the demonstration was made?
    Mr. Wynn. I missed the Jackson demonstration. I heard the 
demonstration by Mr. Franca.
    Mr. Tauzin. It might be good for you to hear both. Could 
you just do one of those so you get the flavor of why we are 
having an argument and what is the difference in the 
demonstration?
    Mr. Rappaport. Mr. Chairman, may I say one word about this 
demonstration?
    Mr. Tauzin. Sure.
    Mr. Rappaport. This is just an example of how interference 
was used as scare tactics in this entire proceedings.
    Mr. Tauzin. Mr. Rappaport, you are giving an opinion but I 
simply want Mr. Wynn to have the advantage of hearing it and 
then you can criticize it if you like, but let him hear it 
first.
    Mr. Jackson. This is a short cut. It is a cut from WGMS, a 
local classical station here in Washington, DC. It was recorded 
off the air. First, you will hear WGMS as it was recorded and 
then you will hear a recording with cross-talk added at a level 
that the FCC's test procedure would regard as acceptable if a 
consumer had a Sony Walkman.
    Mr. Wynn. That is the same 1 percent Mr. Franca referred to 
in his test?
    Mr. Jackson. No. This is actually just under 3 percent 
which the FCC said was the boundary of harmful.
    Mr. Tauzin. Let us hear it.
    [Playing of sample.]
    Mr. Jackson. This is the interfered one.
    [Playing of sample.]
    Mr. Wynn. It is pretty evident that is unacceptable. It is 
also pretty evident that Mr. Franca's test at 1 percent was 
acceptable and so it seems to me we are still passing in the 
dark with respect to what is acceptable to the consumer.
    Mr. Tauzin. To be fair to the witness, the disagreement to 
whether this would happen or could happen, I just wanted you to 
hear both of them because that's the way the hearing started 
with these two demonstrations. These two gentlemen have a 
disagreement about their demonstrations.
    Mr. Wynn. First of all, thank you, Mr. Jackson. That was 
helpful, but I still think what the consumer would need in 
order to make a judgment would be something that has not 
occurred yet. I would like to see that. I would like you to be 
able to say--because I guess you have the burden of proof--this 
is what the consumer would hear and this is what we think is 
acceptable or unacceptable and then give it some numerical 
designation that makes some sense.
    Mr. Franca. Yes, sir. The point I only wanted to make is 
that the presumption that we used the 3 percent level as a 
determination of our judgment here is just incorrect and the 
item is very clear about saying when we measured, we said we 
used the 1 percent level in all of our receivers. In fact, the 
reason why we measured at 3 percent, our initial testing, is 
that we talked to Carl T. Jones, the contractor for NAB. In 
fact, this was the reason why we actually started with 
distortion measurements.
    Mr. Wynn. Mr. Franca, I don't have a lot of time but I 
think there ought to be a better consensus than I am hearing. I 
want to go back to another issue. It seems that you and Mr. 
Maxon, and to some extent, Mr. Rappaport, all agree that the 
Sony Walkman example is problematic, that if someone has a 
Walkman or, in my case a clock radio, that we would have 
problems under a scenario in which we introduced low power. Is 
that true, is there consensus on that or not? You disagree, Mr. 
Maxon?
    Mr. Maxon. Yes. I think one thing we are doing is we are 
generalizing the specific to the whole case. We are saying that 
because one Walkman in one room in one house near one LPFM 
transmitter might, might get interference on one radio station 
that we are assuming whatever it is, 65 million radios get it, 
and that is where I think the leap in thinking is going.
    What we have is a circumstance where if you are within the 
blanketing radius or one of these interference radiuses that 
has been calculated by a number of the different parties 
involved, there is a greater likelihood that the proper 
conditions of an interfering level from the LPFM and an 
interfered level of the desired station will combine to cause 
you to perceive interference.
    That doesn't mean in every room in your house or for every 
moment or every Sony Walkman you have, that you will have that 
problem.
    Mr. Wynn. I think we need more tests then, something from 
which we can draw some broader conclusions. Is it four out of 
ten, six out of ten. There ought to be some averages. I agree 
with you, you can't say one Walkman makes a case but by the 
same time, if this is one of the more popular brands and 
argument is being made that this brand is affected or similar 
products are affected, it seems to me that is a concern.
    I want to move on because I know time is limited. The 
Commissioner made a pretty persuasive argument about a lack of 
demand and Mr. Koning actually kind of suggested humorously 
that you might be the poster child for why there is a lack of 
demand. I put to you and to Mr. Schellhardt, how do you respond 
to the Commissioner's argument that there is really not 
legitimate demand for this type of low power station?
    Mr. Koning. I briefly mentioned that in the 20 years I have 
been involved with various forms of micro radio, I was unaware 
of the ability to apply for the smaller licenses. We have held 
two hearings now in Grand Rapids where we have five potential 
licenses under the current FCC guidelines, five potential new 
licenses. We have had over 100 citizens participate in these 
forums.
    It is a matter, in my opinion and in our community, for 
lack of awareness of availability. Now that it has become 
public and now that people are discussing it, we do have a 
groundswell of interest, especially in the Hispanic community 
that is very underserved in our market.
    Maybe it is ignorance in some cases or a practical ability 
with new technology now to very inexpensively launch these low 
power stations.
    Mr. Wynn. Mr. Schellhardt, and then I would like to come 
back to the Commissioner for his response.
    Mr. Schellhardt. I think low profile visibility including 
very low profile and visibility for the possibility of getting 
waivers has been a contributing factor but I want to stress 
that there has been an enormous amount of public interest in 
this. The proceedings at the Commission on this proposed rule 
drew over 3,000 comments from the public, most of them from 
individuals and groups supporting low power radio. That set a 
record comfortably for the highest public participation in any 
FCC proceeding in the 65 years the Commission has been 
operating.
    The year before they started the rulemaking process, they 
received 13,000 unsolicited inquiries from the public about 
whether or not low power licenses were available and how to 
apply for them. So there is a tremendous interest and it is 
spreading.
    If you look at the metropolitan Detroit area where we have 
some activists at the Michigan Music Is World Class campaign, 
they have the city of Detroit and virtually every community in 
metropolitan Detroit to pass resolutions calling for low power 
radio. Portraying this as a minor concern of a few people is 
totally inaccurate.
    I will say one thing about the 101 licenses. The higher the 
wattage, the more it is going to cost you to set up the 
station. A lot the reason people want something below 100 watts 
is because they are middle-class, lower middle-class and in 
some cases, they are even poor and if they can't get it down to 
50, 20, 10 watts, they can't afford to get on the air, 101 
watts is just above their budget.
    Also, the higher the wattage, the bigger your coverage 
area. Believe it or not, there are some folks in the movement 
who feel that their coverage area should be self-limited, so 
that they are forced to concentrate on specific neighborhoods 
or specific towns, specific communities that are just lost in 
the demographic background noise today.
    Mr. Wynn. I think you have made a good argument.
    Commissioner, I think that is pretty persuasive. What would 
be your response?
    Mr. Furchtgott-Roth. Mr. Wynn, let me respond to both sets 
of comments. I think Mr. Koning makes a good point, that there 
may not have been a great deal of awareness. When people want 
to go into the broadcast business, they want to do it despite 
the fact that all their friends tell them they are crazy. They 
want to do it despite the fact their parents say they are going 
to disinherit them. They want to do it because they love to do 
it. They want to get into the business because only a crazy 
person would dare to do this.
    It takes a great deal of initiative, it takes an incredible 
amount of commitment. It takes a willingness to take risks that 
ordinary people rationally choose not to do. Part of that is 
saying I am going to find out what is out there. There are 
people who come to the Commission every day, applying for 
licenses. We get lots of requests. What is amazing is all of 
those requests are for high power wattage because that is the 
only way these people think they have any chance of ever 
breaking even, even though they know the chances are when they 
apply for a full power license, the odds are against them.
    I think the point about Detroit is very instructive. Where 
we do have a shortage of licenses today, where if you came to 
the Commission and you couldn't get a 50,000 watt station, you 
couldn't get a 10,000 watt station, you couldn't get a 1,000 
watt station, you couldn't get a 101 watt station, you couldn't 
get a 10 watt station, are in major urban areas.
    There is a lot of demand. I have no idea how many of the 
thousands of inquiries that were made were from urban areas. I 
suspect a great many. The Commission gets a lot of reaction on 
issues that are very hot at the time. I can attest that in the 
past month I have probably gotten and have saved over 2,000 
emails on the religious broadcaster issue. The American public 
is aware when things become hot at the Commission.
    What continues to surprise me is if there really is a 
demand for low watt radio stations, why have we not seen people 
come forward before the fact and apply? It is there.
    Mr. Wynn. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tauzin. The ranking minority member of the full 
committee, Mr. Dingell, submitted a list of five questions he 
would like the FCC to respond to and ask that I read them into 
the record. I am going to do that as a courtesy.
    One, I understand the FCC used harmonic distortion as a 
primary standard for measuring harmful interference. How many 
field tests were performed in the real world to ensure this 
standard was proper? He has in parentheses, ``No field tests, 
just laboratory,'' is what he understands happened. He would 
like an explanation as to whether or not that is true.
    Two, did you perform any lab tests to determine the degree 
of cross-talk interference that might exist within the FCC 
susceptible levels of harmonic distortion?
    Three, let us assume the standard you chose was the right 
one, you know that laboratory and real world test results often 
differ. Why did the Commission reject a phase-in approach to 
putting the stations on the air in order to mitigate potential 
disruption to existing stations? He understands at last one of 
the Commissioners suggested this approach during the process.
    Four, what are the enforcement procedures and remedies 
available to help broadcasters who may be harmed by any 
inaccuracies in your assumptions?
    Five, history shows that the FCC has been slow to address 
the problem of unlicensed operators, the so-called pirates. It 
would appear that not enough resources were devoted in the past 
to pursuing violators and shutting them down. Now some of these 
pirates will be operating legally. What specific new and 
improved plan does the FCC have in place to ensure that new 
licensees do not boost their power levels above the legal 
limit.
    If the Commission would please respond in writing to the 
committee that Mr. Dingell might have an answer?
    [The response appears at the end of the hearing.)
    In conclusion and I will give each of you a chance to say 
one final thing if you would like, the vice president of NBC 
Broadcasting is quoted as saying that Gutenberg made us all 
readers and that television made us all viewers and the 
Internet has made or can make us all broadcasters.
    An interesting observation and one of the questions that 
Mr. Schellhardt, Mr. Koning and others who have come before us 
have talked about this issue, I would like to sort of leave 
hanging out there, is will the Internet, as it becomes 
predominantly distributed among the citizens of the country and 
the planet, assume a role whereby anyone can become a 
broadcaster, can establish a talk show, can establish a 
cultural program to reach the citizens that otherwise would 
have been reached over the air processes?
    Let me give each one of you a chance to have a last word, 
the last thing you would like us to remember and I will ask you 
to do it in as quick a manner as you can because I too have to 
run.
    Commissioner?
    Mr. Furchtgott-Roth. Mr. Chairman, I simply would like to 
thank you for holding these hearings. I have spoken many times 
on this topic and I am glad there is yet another chance to get 
this information.
    Thank you.
    Mr. Tauzin. Mr. Klose?
    Mr. Klose. Mr. Chairman, I would like to say that under 
paragraph 64 of the LPFM report and order, there is no process 
to address actual interference that could result from the 
elimination of the third adjacency protection.
    The Commission also has not proposed to protect the input 
signals of translators and boosters, it has required future 
translators to protect LPFM stations, even when the translator 
is necessary to replace one that was dislocated by a full power 
station.
    Also, we believe that greater protection of translators is 
essential and that a process to handle interference issues must 
be put in place for this to work.
    Thank you.
    Mr. Tauzin. Mr. Koning?
    Mr. Koning. I really appreciate the chance to speak. We had 
cleared a videotape through Congressman Markey's office. It is 
2 minutes. Is it possible to have that cued and at the end of 
the comments, that would be the final statement?
    Mr. Tauzin. Actually not. I won't have time for it. We will 
accept it to the committee record.
    Mr. Koning. Let me briefly say then that I do hope the 
technical interference questions can be answered; that when you 
do talk about the ratio of these broadcast properties, that 10 
watts and 100 watts are exponentially smaller and have so much 
less potential for interference than 50,000 and greater watt 
stations. So I think the benefits for community uses and free 
speech activists to have a local voice in a local community 
with programming of, for and about that community have to be 
paramount and that the technical questions can be answered and 
must be.
    Mr. Tauzin. Mr. Schellhardt?
    Mr. Schellhardt. One, Amherst will be filing a supplemental 
statement on some of these matters. I am sure Christopher 
Maxwell and Wesley Dimick will do the same.
    Two, I want to say hello to those who are listening to the 
webcast. Amherst does have a web site and you can find me, Don 
Schellhardt, in the phonebook of Bridgewater, Virginia.
    Third, substantively, we have had a lot of talk about how 
much interference there might be with the Sony Walkman and how 
horrible it might be if some degree of interference occurred. I 
just want to close by pointing out what is at stake on the 
other side.
    Look at what happens if we don't act, if we allow the 
status quo to remain. As of 1997, according to Radio World, 90 
percent of the dollars spent on radio advertising in America 
went to just four companies. That is an awful lot of market 
concentration.
    On the publishing side, according to Professor Stephen 
Barber of Princeton, six companies own 50 percent of the 
publishing capacity in the entire world. Now with the loosened 
cross ownership restrictions, you could theoretically have a 
new AOL-Time Warner that owned half of the Internet, owned the 
biggest TV station in the biggest five cities and owned several 
of the biggest radio stations in the biggest five cities and 
owned the largest newspaper in the largest five cities and on 
and on and on. It is legally possible for one company or a 
handful of companies to control the lion's share of media 
across the board.
    That is extremely dangerous and if I have to take a few 
chances with reception on a Sony Walkman to stop that from 
happening, I think it is a price worth paying.
    Mr. Tauzin. Mr. Jackson?
    Mr. Jackson. I also thank you for the opportunity to be 
here today. I have a lot of points but I will be very brief and 
I will skip them all.
    I would like to observe that engineering should inform 
democratic choice and that the standards of interference that 
are chosen should reflect how consumers will be affected, not 
cooked to provide support for the position of the proponents. I 
think that is a problem in this proceeding.
    Second, I think your closing comment about the Internet was 
directly on target. When we try to think about this choice, the 
Internet is going to open doors, we are going to see very 
rapid, continuing development in the Internet, we are going to 
have consumers with wireless access to the Internet, so when we 
think of the choices before us, you must keep the Internet in 
mind and understand that gives you more tradeoffs than you 
would otherwise have.
    Mr. Tauzin. Mr. Rappaport?
    Mr. Rappaport. I agree engineering should be used to make 
intelligent choices. What I fear has happened here is that the 
engineering facts have not been properly communicated. The fact 
is that there is a lot of scare tactics being used on the 
interference.
    We all agree Walkman radios work but in the filing of 
public comments from NAB and others, they claim by their own 
standard, without any interference in a perfect test chamber, 
Walkman radios and over half the other radios tested would not 
work. This was then multiplied into maps that show a very scary 
impact of interference throughout cities across the Nation 
which won't happen.
    We just heard an audio rendition of what cross-talk would 
occur but that would never happen in the commercial FM service. 
In fact, the low power FM service is usually the exact same co-
channel and first and second adjacent spacings that all FM 
licenses are happening today, so you would never hear that co-
channel interference as demonstrated. It would never happen. It 
doesn't happen today in FM radio and it would never happen with 
low power FM.
    Furthermore, if we were scared of every little bit of 
interference and didn't look at the impact it would have in 
improving our lives, we would put our head in the sand. 
Increased interference has allowed keyless entry to our cars, 
baby monitors in our houses, more and more millions of 
subscribers in the cellular telephone service by allowing more 
and more towers and when engineered responsibly, we can 
accommodate many, many more users with intelligent and proper 
management of the spectrum.
    In my technical opinion, the FCC has been very thorough and 
very careful to address all of the current concerns in their 
rulemaking. I think it is a very responsible action and as a 
citizen just on the technical issue, forget the political 
debate, they have done a very, very good job of taking into 
consideration all of the concerns voiced in the extensive 
public filing comment.
    Mr. Tauzin. Mr. Reese?
    Mr. Reese. I think your closing comment was the one I would 
make. There is a solution, it doesn't involve the creation of 
new interference for existing radio listeners and for existing 
radio stations. It is the Internet, it will be wireless, it 
will be wireless soon. It is not bandwidth limited. We do not 
need to mess up the FM band in order to provide all of the 
benefits that the FCC purports to be pushing here.
    Mr. Tauzin. Mr. Fritts?
    Mr. Fritts. Congress established the FCC and entrusted it 
as the guardian for spectrum integrity. I think what we have 
seen here today is somewhat appalling. What we have seen is 
that the FCC has turned its back on spectrum integrity and for 
10 years, the FCC studies the transition to digital television. 
Now we are talking about adding new FM radio services and the 
FCC was told--quite frankly, Chairman Kennard told the FCC 
engineering staff to find a way to make this happen. What we 
have ended up with is interference by the FCC's own admission.
    How much is subjective? I would submit that any additional 
interference is too much and that we should stop where we are 
in terms of that. There is plenty of diversity on the air 
today. There is plenty of opportunity as enunciated by 
Commissioner Furchtgott-Roth for various groups to get on the 
air. I would hope we would go forward by moving the legislation 
which Vice Chairman Oxley has introduced.
    Mr. Tauzin. Mr. Maxon?
    Mr. Maxon. I would just like to say that we have a track 
record in this Nation already with low power FM stations, 
called translators and Class D stations. Many of those are 
already exceeding the third adjacent channel protections quite 
successfully and quite safely. I made an example in my 
introductory remarks about a station outside of Boston that 
does so.
    We have evidence that the interference these things cause, 
if they cause any interference at all, is de minimis. The low 
power FMs are simply an extension of what we are already 
familiar with in translators and Class D.
    Mr. Tauzin. Mr. Franca?
    Mr. Franca. I would just like to say Chairman Kennard did 
not ask us to make this happen in any way. He basically asked 
us to make sure that we preserved the integrity of the FM band.
    Seventy-five radios were tested during this proceeding. I 
believe signal to noise versus distortion and the discussions 
about them are really red herrings. Whether you measure 
somebody's height in inches or feet, they are the same height. 
Whether you measure with signal to noise or distortion, you can 
determine whether interference is caused. You heard what 3 
percent distortion sounds like. It sounds like interference.
    I believe we have taken a very conservative approach here. 
We didn't adopt low power proposals for 1,000 watt stations. We 
didn't abandon second adjacent channel restrictions. We also 
added extra protections on both co-and first adjacent 
separations for full power stations to allow those stations 
additional flexibility. I believe we have taken a very 
conservative and reasonable approach and that there will not be 
significant interference from LPFM operations.
    Mr. Tauzin. Thank you all very much. I think we have added 
to the understanding of the issue if nothing else today and I 
cannot yet predict the next step of the subcommittee other than 
to tell you that I would deeply appreciate the request I have 
made for you to follow up with additional information.
    You have seen the questions raised by members on both sides 
of the aisle. You have seen the request of the ranking minority 
member that the concerns we have heard expressed today be 
considered by the Commission. Hopefully in the time that 
remains before final judgment is made on this at the Commission 
level, those concerns can be thoroughly vented and hopefully 
addressed to the satisfaction of members of this committee 
before we are called upon to take congressional action or 
before the courts are called upon to consider the matter.
    That is always the best result and I would join my 
colleague from Massachusetts in encouraging all of you to 
continue these discussions so that we can have an outcome that 
gets you the advantages you want without the disadvantages we 
are hearing may be present in this operation.
    To that end, I commend your attention going from this 
meeting and appreciate your other submissions and certainly 
your testimony today.
    The hearing is adjourned.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

    RESPONSES OF THE FEDERAL COMMUNICATIONS COMMISSION TO QUESTIONS 
                  SUBMITTED BY REPRESENTATIVE DINGELL

    Question 1: I understand the FCC used ``harmonic distortion'' as 
the primary standard for measuring harmful interference. How many field 
tests were performed in the real world to ensure that this standard was 
proper?
    Answer: The FCC Laboratory tested a sample of 21 FM radio 
receivers. Distortion measurements were used to measure the effects of 
interference from low power FM (LPFM) stations on those sample radios. 
The FCC Laboratory used a measuring instrument called a distortion 
analyzer, which measures Total Harmonic Distortion plus Noise (THD+N). 
All interference impairments to the desired audio signal appear as 
either distortion or noise; thus the THD+N measurement captures all 
interference effects. Interference was deemed to occur when the 
receiver's unimpaired THD+N level (i.e., the level with no interference 
present) increased by 1%. For example, if the receiver had a THD+N 
level of 0.2% with no interference present, interference was assumed to 
occur in the FCC tests when the interfering signal caused the THD+N of 
the receiver to be 1.2% or greater. A harmonic distortion value of 1% 
was chosen based on scientific literature that suggests that a 1% level 
is the minimum that can be perceived by listeners. For example, NAB, in 
its reply comments, notes that that ``(I)t is generally accepted that 
harmonic distortion has to rise to about 1 to 2% before people find it 
objectionable'' and that ``(S)ome people would find 1% harmonic 
distortion hard to notice.''
    The FCC Laboratory staff also measured a small sample of radios, 
including one of the receivers tested by the Consumer Electronics 
Association, using both signal-to-noise (S/N) ratio and harmonic 
distortion measurements. Having performed both distortion and S/N 
measurements, the FCC stated that both S/N and harmonic distortion can 
be used to satisfactorily measure interference to FM receivers. It 
further stated that both of these techniques quantify in an accurate 
and repeatable manner the amount of energy produced by the interfering 
signal in the receiver's audio output. In this regard, the FCC 
considered data from all of the tests in making its decision. For 
example, in paragraphs 101 and 102 of the decision, the FCC computed 
interference areas based on NAB's test results. It further stated that 
even using this NAB data for its three ``worst'' FM radio categories, 
the area where such receivers could experience degradation from 
interference would be small, generally 1 km or less from the LPFM 
antenna site.
    No field tests were performed by the FCC or any of the other 
entities that tested FM receivers. However, there is no reason to 
believe that the results in the field would vary from those in the 
laboratory. In fact, defining radio performance and subjective matters 
such as when interference occurs that involve human hearing and 
perception are best quantified in a controlled laboratory environment.
    Question 2: Did you perform any lab tests to determine the degree 
of ``crosstalk'' interference that might exist within the FCC's 
acceptable levels of harmonic distortion?
    Answer: No lab tests were performed ``to determine the degree of 
`crosstalk' interference.'' As indicated above, the 1% distortion level 
was chosen based upon scientific literature that suggests that this 
level of distortion or interference would not be perceived by listeners 
as objectionable.
    Crosstalk interference is a term that is generally associated with 
voice and wireline networks. Crosstalk can be classified as 
intelligible and unintelligible. Intelligible crosstalk can be 
understood by the listener and, because it diverts his or her 
attention, it is more objectionable and therefore has a more 
interfering affect than unintelligible crosstalk. NAB demonstrated a 
simulation of intelligible crosstalk at the February 17, 2000 hearing 
using audio mixing of two recorded signals.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ According to NAB staff, their demonstration was made by 
recording two off-air FM radio signals and then combining those signals 
using an audio mixer at different signal strengths to represent the 1% 
and 3 % distortion levels. In other words, they merely recorded the two 
signals (one loud and one soft) on the same audio track. This does not 
represent accurately the way interference occurs in the FM radio 
service or would occur from LPFM stations. In the real world, an FM 
receiver ``captures'' the strongest signal appearing at the channel to 
which the receiver is tuned and only this signal is intelligible. Any 
lower level interfering signals are heard as noise. The FCC 
demonstration, on the other hand, used the exact same test set up that 
was used to measure interference and recorded the actual interference 
effect of a 3rd adjacent channel signal.
---------------------------------------------------------------------------
    As pointed out by Dr. Rappaport of Virginia Tech at the hearing, 
that type of intelligible crosstalk ``would never happen in the 
commercial FM service . . . It doesn't happen today in FM radio and it 
would never happen with low power FM.'' The crosstalk or interference 
from a 3rd adjacent channel LPFM station would be unintelligible and 
would appear as an increase in the noise level in the receiver. As was 
shown in the FCC demonstration, such noise is much less objectionable 
to the listener. See, for example, Reference Data for Radio Engineers 
at 35-1, ``crosstalk due to incomplete suppression of sidebands, to 
intermodulation of two or more carrier channels, or . . . between 
carrier channels having offset frequency spectra is generally 
unintelligible. Such crosstalk is often classified as miscellaneous 
noise.''
    Question 3: Let's assume the standard you chose was the right one. 
We know that laboratory and real world test results often differ. Why 
did the Commission reject a phase-in approach to putting the stations 
on the air in order to mitigate potential disruption to existing 
stations?
    Answer: A ``phase-in'' of LPFM stations was believed to be 
unnecessary given the technically conservative approach taken in the 
LPFM Report and Order. The Commission chose to limit LPFM stations to a 
radiated power level of 100 watts, deciding not to create a 1000-watt 
station class. It established minimum distance separations between LPFM 
and full-service FM stations on the same channel and first and second 
adjacent channels, based on the assumption that all FM stations operate 
at the maximum permitted antenna height and power for their station 
class. Also, a 20-kilometer buffer zone was added to the required 
minimum separations to protect co- and first adjacent channel stations, 
thereby permitting FM operators the flexibility to relocate their 
stations in the direction of an LPFM station without a loss of 
interference protection. The Commission concluded, based on a careful 
review of the record, that LPFM would be unlikely to cause unacceptable 
levels of interference to FM stations operating on third adjacent 
channels and, therefore, found a third adjacency protection requirement 
to be unnecessary. The Commission remains confident that its various 
interference requirements for LPFM are conservative and will adequately 
protect existing and future FM service requirements.
    Question 4: What are the enforcement procedures and remedies 
available in your Order to help broadcasters who may be harmed by any 
inaccuracies in your assumptions?
    Answer: The Order contemplates that enforcement procedures and 
remedies for LPFM stations will be similar to those for all FCC 
licenses. Specifically, LPFM stations are required to eliminate 
interference caused by operations that violate the terms of the 
station's authorization or the Commission's Rules. LPFM stations also 
must respond to complaints of blanketing interference. Further, they 
are subject to international agreements regarding the elimination of 
interference to primary Canadian and Mexican broadcast stations. LPFM 
Report and Order, FCC 00-19, 1, 27 para. 64. LPFM stations also must 
not cause actual interference within the principal community contour of 
subsequently authorized full-power FM stations. Within 24 hours of 
receiving a complaint of actual interference to a subsequently 
authorized FM station's principal community contour, LPFM stations must 
suspend operations unless the interference has been eliminated by 
application of suitable techniques and to the satisfaction of the 
complainant. The LPFM station may resume operations only at the 
direction of the Commission. LPFM Report and Order, at para. 67.
    Parties experiencing harmful interference from any source, 
including LPFM operations, may file a formal or informal complaint with 
the FCC Enforcement Bureau's Technical & Public Safety Division or one 
of the FCC's Field Offices. Consistent with the regular practice of the 
agency, the FCC may take a number of actions to address harmful 
interference. Possible actions by FCC agents in Washington, D.C. and 
around the country include identifying the source of interference, 
assisting the parties to eliminate the interference, and requiring 
licensees to eliminate interference. In addition, the FCC may issue a 
notice of violation against a licensee causing interference in 
violation of FCC rules, issue a monetary forfeiture or, in extreme 
cases, institute a license revocation proceeding.
    Question 5: History shows that the FCC has been slow to address the 
problem of unlicensed operators--the so-called ``pirates.'' It would 
appear that not enough resources were devoted in the past to pursuing 
violators and shutting them down. Now some of these ``pirates'' will be 
operating legally. What specific new and improved plan does the FCC 
have in place to ensure that new licensees do not boost their power 
levels above the legal limit?
    Answer: We have no basis at this time to conclude that LPFM 
licensees will be any more likely than other broadcast station 
licensees to operate their stations in a manner not authorized by their 
licenses or the FCC's Rules. Our experience in general has been that 
broadcast licensees are diligent in attempting to comply with the rules 
and we anticipate that LPFM licensees, which will include schools, 
community groups, churches, etc., will do so as well. The LPFM rules 
specifically preclude former ``pirate'' operators who did not comply 
when directed by the FCC or after a date certain from receiving LPFM 
licenses. Moreover, LPFM licensees who operate at power levels beyond 
that authorized will be subject to enforcement action, including 
assessment of monetary forfeitures and possible license revocation.
    As noted in response to Question 4, parties believing that a LPFM 
licensee is operating in a manner inconsistent with their license or 
the FCC's Rules may file a formal or informal complaint with the 
Enforcement Bureau's Technical & Public Safety Division or one of the 
FCC's Field Offices. Further, as is the case with all FCC-licensed 
radio station operators, LPFM stations will be subject to periodic 
inspection by FCC agents.
    Quite apart from LPFM enforcement, we should comment briefly on the 
FCC's enforcement against unlicensed ``pirate'' operators. The FCC 
takes the issue of enforcement actions against pirate broadcasters very 
seriously. In 1998, the FCC shut down 153 pirate radio operations 
through seizure of their equipment or through issuance of warning 
letters. In 1999, the FCC shut down 154 pirate radio operations. So 
far, this year, from January 1, 2000 to February 23, 2000, the FCC has 
shut down 25 pirate radio operations. In addition, the Commission has 
issued numerous monetary forfeitures against pirate operators. It has 
also worked with the U.S. Attorneys' Offices for injunctions and 
arrests. The Commission is continuing active enforcement in this area, 
with several matters pending, including several with the U.S. 
Attorneys' or U.S. Marshals' Offices.
                                 ______
                                 
    PREPARED STATEMENT OF THE MICHIGAN MUSIC IS WORLD CLASS CAMPAIGN

    Mr. Chairman, and Members and Staff of the Subcommittee: I am the 
founder and representative of the Michigan Music is World Class 
Campaign. We are an informal coalition of thousands of musicians, 
music-related business owners and music fans based primarily in 
Southeastern Michigan.
    The Michigan Music Campaign has far exceeded any other party in 
measuring and demonstrating the will of the public when it comes to low 
power ``community'' FM radio. We have gathered approximately 10,000 
constituent letters in support of the new service (copies of over 4,000 
on file and available for inspection). We have gathered 45 supporting 
resolutions from Michigan cities, townships and county commissions 
representing about three million Michigan citizens. Every single one 
has passed unanimously (with the exception of just two votes)! We 
gathered over 1,200 endorsements of our Comments filed with the F.C.C. 
We have held weekly public meetings for over three years, along with 
many other public forums, to give residents of our area an opportunity 
to express their support or opposition to community radio. We have 
given dozens of presentations to community groups in our area about the 
subject.
    No other party in the entire country, either in support or 
opposition to community radio, has come close to matching our efforts 
to gauge public opinion about community radio.
    What did we find? Consistently, wherever we turned, we found 
virtually unanimous support for opening up access to the public 
airwaves through community radio. In all sincerity, it was very 
difficult to find anyone who was opposed to the new service (who wasn't 
already a broadcaster). We found overwhelming support from labor, 
religious, ethnic, civil rights and educational institutions. We even 
found considerable support from existing licensed broadcasters who 
expressed disgust with the National Association of Broadcasters' manner 
of opposition to LPFM.
    Particularly striking to us was the contrast between the unanimous 
support for community radio at the local governmental level (who will 
be directly affected by the new stations), the substantial but 
weakening support at the state level--and the almost total absence of 
visible support in the U.S. Congress! The city governments we worked 
with are very well informed of the technical ramifications, much more 
so than the Congressional offices we visited. So how can one explain 
the extraordinary divergence in support between the local, state and 
federal governments--except as a clear demonstration of the undue, 
excessive and anti-democratic influence of the powerful broadcast lobby 
which is non-existent at the local level, strong at the state level and 
nearly tyrannical in Washington.
    For 66 years, Congress has wisely maintained a clear mandate in 
regards to the public airwaves: they must be administered in a way 
which serves the ``public interest, necessity and convenience.''
    But who is to say what is really in the public interest? Should we 
listen to the broadcasters?
    Should we listen to the F.C.C.? Should Congress be the final 
arbiter? Or should we not consult the public directly?! We maintain 
that to ignore the overwhelming public demand for LPFM community radio 
would be a direct betrayal of our democracy.
    Let the public use our public airwaves! We are not prepared to 
suffer anything less.
    These comments are offered with the greatest respect.

                     SUMMARY & GUIDING PRINCIPLES:

    1. The fundamental issue with which Congress must concern itself in 
the matter of H.R. 3439 is that of determining and fulfilling public 
interest and demand. It is impossible to square with the ``public 
interest'' (which Chairman Kennard accurately refers to as the F.C.C.'s 
``bedrock principle'') a ruling which fails to abide by the virtually 
unanimous public demand for LPFM. We point out the absolute failure of 
the broadcast industry to demonstrate opposition to LPFM from the 
public itself, and that a significant part of the broadcast industry 
itself favors LPFM.
    2. Congress, through the F.C.C., is obligated to institute a system 
of license allocation which does not discriminate on the basis of 
economic standing; where the rights of one are not held superior to the 
rights of others and; where those rights are not held in perpetuity 
such that the rights of others are never recognized. Such a system now 
exists with the creation of LPFM, albeit in a dramatically limited 
fashion.
    3. We express concern for: A. Fundamental issues of fairness 
regarding the allocation of public resources. B. The twin threats to 
democracy of i. Media consolidation and ii. Rising economic thresholds 
barring access to public resources; C. Cultural homogenization; D. 
Local economic issues.
    4. In contrast to other forms of public property where use and 
participation is encouraged, access to the public airwaves has been 
held in elitist reserve, despite the historic role played by amateurs 
and hobbyists in the development of radio technology.
    5. The broadcast industry exerts an excessive, undue and anti-
democratic influence over the regulatory process at the F.C.C. and in 
Congress itself.
    6. We dispute our opponents' claims that existing stations already 
serve ``the myriad needs'' of our communities.
    7. We regret the reckless endangerment of our democracy by those 
who advocate lifting further or even altogether media ownership limits. 
And we criticize the nonsensical and argumentative ploy of suggesting 
that less owners are ever likely to produce greater diversity.
    8. We draw attention to Canadian and Mexican provisions which allow 
LPFM broadcasting without harm.
    9. Actual broadcast industry studies conclude that existing 
commercial stations continue to lose listeners every year because 
listeners want more local content, more diversity and fewer 
commercials. These conclusions strongly suggest that N.A.B. opposition 
to LPFM is really due to fear of competition. In fact, the broadcasters 
are on the record admitting that they oppose LPFM because they seek to 
avoid additional competition.
    10. In terms of communication options available to the public, 
there are no serious alternatives that stand equivalent to LPFM. And 
even the existence of such alternatives fails to justify the granting 
of broadcast licenses to some but not others, including, as is 
apparently the case, when such discrimination is based essentially on 
economic standing. This argument against LPFM clearly represents 
unconstitutional prior restraint.
    11. We are deeply concerned about IBOC terrestrial digital, and how 
it is being foisted on the American public with barely a pretense of 
public debate. There is an almost complete lack of public demand for 
digital broadcasting of any kind, in contrast with powerful demand for 
LPFM.
    12. The need and demand for LPFM did not begin with the Telecom Act 
of 1996 nor was it inspired solely by the ensuing consolidation. These 
factors merely aggravated the need and demand for LPFM.
    13. We suggest that a more meaningful definition for the term 
``spectrum efficiency'' would be based on the quality and level of 
public interest, necessity and convenience; that ``efficiency'' should 
refer to how well the spectrum is used, rather than simply how much.
    14. The Michigan Music Campaign has documented long-term, 
consistent interest and activity in this issue. As well, we have 
documented overwhelming and essentially unanimous public support for 
LPFM.
    15. Locally-based independent musicians and composers are 
effectively shut out of commercial broadcast outlets, thus making it 
impossible for them to ``display their wares'' in the music industry 
marketplace. This has a detrimental ripple effect on entire local music 
economies. It also carries negative cultural ramifications.
    16. We should not continue to allow transnational media empires to 
act as our nation's cultural gatekeepers, with such comprehensive 
authority not only over what we hear on our airwaves, but also what we 
read, see and hear elsewhere.
    17. We have documented a consistent effort to work with existing 
license holders towards resolution of our concerns and a consistent 
record of being rebuffed, with some substantial hostility, by the 
broadcast industry. We have documented their efforts to restrain debate 
about this subject over the public airwaves, and a consistent pattern 
on the part of licensed broadcasters of arrogance, hypocrisy and 
callousness towards both their listeners and their public interest 
responsibilities.
    18. We have demonstrated how unlicensed broadcasters have filled 
the public-interest gap left by the licensed broadcasters in our area. 
We offer an alternative perspective on who are the real ``pirates'' in 
the broadcast industry--in our opinion it is those who exploit the 
public airwaves for tens of billions of dollars annually while 
flaunting their contempt for their public interest obligations. We 
point to the respect and admiration our society often gives to acts and 
practitioners of non-violent civil disobedience, and invoke the 
historic role such action has played in nurturing our nation's 
democracy. We cast doubt about the character deficiencies of some 
licensed broadcasters, in light of their words and deeds.
    19. We have documented a need for at least 120 LPFM stations in an 
area such as Metro Detroit in order to serve the myriad ethnic, 
political, cultural, religious and other communities. The F.C.C.'s 
newly approved LPFM service fails miserably in providing for this 
urgent need. We have suggested several ways to increase the potential 
number of licenses available. However, under no circumstances should 
the insufficiency of the new service be used as an excuse to abandon 
LPFM altogether--even a single crumb is better than nothing. We draw 
attention to the spectrum-inefficient nature of IBOC, which only 
further hampers LPFM.
    20. We support primary service status for LPFM stations. We support 
the creation of the LP-10 micro-radio service, which we believe will be 
especially critical for the urban underclass. We agree with the 
F.C.C.'s view that the LPFM service can and should serve a wide range 
of purposes; can and should allow access to the public airwaves to a 
wide range of Americans; can and should serve a myriad of unique and 
diverse interests; can and should provide service to currently unserved 
communities.
    21. We criticize the underlying assumptions behind the broadcast 
industry's stated concerns about potential interference. And we support 
the F.C.C.'s position that ``small amounts of potential 2nd and 3rd 
channel interference . . . are counter-balanced by substantial service 
gains.'' It is disingenuous for the industry to protest the elimination 
of second channel interference protections for LPFM stations when the 
industry favors such practices for their own existing translator 
stations.
    22. We urge the F.C.C. to explore tighter bandwidth allocations, 
and higher standards for receiver manufacturers in terms of 
selectivity.
    23. We regret the failure of Congress to consult with the American 
public while the broadcast industry drafted the '96 Telecom Act.
    24. We challenge the principle of renewal expectancy for both low 
power and full power stations.
    26. We support calls for anti-trust investigations into the 
broadcast industry.
    27. We are in profound disagreement with Commissioner Furchtgott-
Roth, and note several subtle signals which we find greatly alarming; 
especially his tendency to twist the very benefits of LPFM into 
arguments against its implementation, but also his consistent arguments 
in favor of limiting rather than fostering communication between 
Americans. We express serious concern about his elitist attitude that 
the general public is simply not up to broadcasting, and his apparent 
disdain for the public's own expression of the public interest. We 
share his concerns that the agency has acted as ``an advocate instead 
of a neutral decision-maker''--however, this has happened with IBOC, 
not LPFM!
        ``Increased competition could over-saturate the market. Profits 
        could deteriorate.''
From a letter from the Michigan Association of Broadcasters stating 
                   their reasons for opposing LPFM community radio.

        ``We're the landlords of the public airwaves, the broadcasters 
        are the tenants. Yet they pay us no rent, they decide who plays 
        what 24 hours a day, and they laugh all the way to the bank. 
        Isn't it time we made a national political issue out of this 
        enormous anomaly that we own the public airwaves but don't 
        control anything?''
                                           Ralph Nader, August 1996
                                 ______
                                 
PREPARED STATEMENT OF DAVID NOBLE, PRESIDENT, INTERNATIONAL ASSOCIATION 
                     OF AUDIO INFORMATION SERVICES

    Thank you for the opportunity to submit a written statement for the 
record on behalf of the member stations of the International 
Association of Audio Information Services (IAAIS), a group of non-
profit services for blind, legally blind, visually impaired, and other 
disabled populations.
    In the United States alone there are more than 100 services 
offering print access to an estimated 1.2 million Americans. These 
subcarrier services are typically low budget, non-profit organizations 
that engaged volunteers in every aspect of operations and management. 
They are true, grassroots organizations that listen carefully to the 
voice of their community.
    Thank you for the opportunity to comment on the Federal 
Communications Commission's (FCC) plan to establish a new low power FM 
radio service. While we support the goals contained in the Report and 
Order establishing LPFM stations, we remain concerned that the 
introduction of LPFM may be detrimental to the people who depend on 
radio reading services. Specifically, we believe that interference may 
disrupt service and we seek a process to resolve potential 
interference.
    Daily services from our member stations keep elderly blind and 
visually impaired residents in touch with their communities. They are 
better able to live in their own homes, maintain independent 
lifestyles, and contribute to rather than live off of society. With 
daily news they can initiate conversations and offer opinions rather 
than sit at home alone and lonely. Editorial pages encourage them to be 
involved in the community. With local event listings, they can plan 
trips for themselves or their family. At election time, they hear the 
candidates' qualifications read and make informed choices in the voting 
booth. When interference makes listening impossible, all these benefits 
are gone. There is no other service available.
    Because subcarrier delivered reading services are at 92 or 67khz 
they are more fragile and more subject to interference. Since 1976 when 
C. Stanley Potter founded the first reading service in Minnesota, 
interference and poor reception in the secondary contour has been a 
part of subcarrier services history. The Association remains greatly 
concerned that its members will not have the ability or means to have 
interference acted upon quickly enough in a low power FM world without 
appropriate protections.
    IAAIS members are for the most part, unable to keep an engineer on 
staff for budgetary reasons. As the Commission knows, the subcarrier 
stations do not hold a broadcast license. They provide programming to 
main channel operators who hold the license. What standing will a 
reading service have in an interference situation? Most main channel 
operators are also non-profit, public stations. The cost to hire 
appropriate personnel to monitor and prosecute interference would 
bankrupt a typical reading service and threaten the financial health of 
the main channel public station.
    It has been argued that reading services should avail themselves of 
the low power opportunity and ``snap up'' LPFM licenses to replace 
their fragile subcarrier signals. This is not economically feasible. 
The cost to operate the low power station and the range restrictions 
low power imposes are both detrimental to the listeners, and that's 
where IAAIS concerns come full circle.
    The FCC has long recognized that reading services for the blind 
need protections and in fact, the FCC has helped to create regulations 
that make reading services possible. Now reading services need 
continued protection, especially in a FM band that is ``tighter'' than 
ever before. IAAIS is relieved that 1st and 2nd channel protections 
remain intact and thanks the Commission for hearing IAAIS members' 
concern and acting accordingly. However, we are concerned that future 
FM subcarrier would not have the same protections from LPFM as existing 
services. In grade ``B'' contours, where no protections exist at all, 
reading services and other subcarrier services will be the first to 
experience interference from neighboring LPFM stations.
    Although increasing diversity of programming and ownership is 
important, the FCC must not pursue these goals to the detriment of 
existing service for the blind and print-impaired.
                                 ______
                                 

                PREPARED STATEMENT OF PENGUINRADIO, INC.

    Mr. Chairman, thank you for the opportunity to address the 
Committee today.
    Today's hearing addresses the FCC's recent ruling in favor of low-
powered radio. However, from the perspective of PenguinRadio, the 
debate over low-powered FM will soon become a moot point.
    Because of the emergence of Internet audio technology, ``radio'' is 
no longer a small allocation of frequencies that must be divvied up in 
fair and equitable portions, incurring review after review by the FCC 
and tremendous costs on the broadcasters. People should stop thinking 
about radio stations in terms of large broadcast towers, mixing boards, 
and government licenses.
    That is the radio of old.
    Today, the Internet is already bringing radio back to the people, 
and the amount of programming available on the Internet will soon 
exceed the number of programs available via traditional radio 
broadcasts. In addition, in the very near future, people will be able 
to tune into Internet radio programming using a wide variety of low 
cost, easy-to-use net appliances.
    Our company, PenguinRadio, and other Internet appliance companies 
such as Sonicbox and Kerbango, are developing low cost Internet audio 
receivers that will play thousands of radio stations from all over the 
world without the need for a personal computer. We plan to work with 
the broadband community, including Northpoint Communications, which 
just announced plans to create a high-speed streaming audio service 
that will be delivered over its network. We will also work with our 
partners at Ellipso satellite to bring Internet radio to mobile 
locations, such as cars, and isolated rural areas where traditional 
radio cannot penetrate.
    Using a technology called streaming media, anyone with a personal 
computer and an Internet connection can open their own radio station, 
broadcasting over the Net to anyplace on earth. These low barriers to 
entry have led to hundreds of ``radio stations'' opening every day on 
the Internet. To date, nearly 4,000 commercial radio stations have 
their feeds on the Internet, and several thousand ``Internet-only'' 
radio stations broadcast everything from local neighborhood news, to 
high school radio, to many other forms of radio that could not compete 
in the commercial market.
    The growth of Internet radio is astounding. Arbitron reports that 
in 1998, approximately 18% of American's online regularly listened to 
the Internet using personal computers. In July of 1999, that number had 
jumped to 30% of those online. This represents millions of households 
tuning to this new medium to listen to the radio. The convergence of 
broadband, Internet appliances and wireless net connectivity is 
accelerating the revolutionary development of Internet radio. We are 
moving so fast in this market that even we cannot predict how prevalent 
it will become in the next few months. Mr. Chairman, we have 
trademarked the saying ``One day every radio will work this way'' 
(referring to Internet radio) because it makes sense, both 
technologically and financially.
    So while this Committee debates the problems and merits of low-
power radio, and lobbyists and grass roots activists harass you on both 
sides of this issue, we'll be out changing the world by making Internet 
radio available to everyone.
    I thank you for this opportunity to speak today.
                                 ______
                                 
                PREPARED STATEMENT OF SALIDA RADIO CLUB

    Dear Committee Members: We are a small non-profit group 
representing Salida, a small mountain community in Central Colorado. We 
have actively followed the LPFM issue, and have submitted formal 
comments to the FCC on the LPFM docket 99-25. It is our intention to 
apply for a LPFM license, when they become available, to serve our 
community in a way that no out of town or commercial radio outlet can. 
We have widespread public support, including resolutions passed 
unanimously by our City Council, as well as local School Board R-32J, 
supporting the civic, educational, and cultural benefits of Low Power 
FM to our city. Ours is a relatively poor rural community--we do not 
have the resources available to license and fund a full power station. 
A service such as LPFM is the only realistic way to bring community 
radio to our area.
    We are very disturbed by the content of HR 3439, which we see as a 
blatant attempt to not only keep the status quo in radio from any 
potential competition (we trust you'd agree that this would be 
illegal), but to pave the way for an expanded commercial potential with 
the introduction of IBOC digital broadcasts. There is strong suspicion 
in the Low Power radio community that the real issue here is preserving 
and potentially increasing bandwidth for ancillary (and highly 
profitable) operations by full power licensees, after the possible (and 
contentious) introduction of on-band digital broadcasting, such as 
advertising and beeper/pager services. To deny the public, who own the 
spectrum and are effectively shut out from participation, is an 
egregious mishandling of a public resource that the FCC is mandated to 
efficiently and fairly manage.
    Studies, including those of the FCC, have shown that the much 
ballyhooed interference problems that the NAB and their friends at NPR 
have touted will not adversely affect reception. Indeed, what about the 
300-plus short-spaced full-power stations that the FCC has 
grandfathered? if those are acceptable, and have not received too many 
complaints of unacceptable interference (which they have not), then the 
industry's arguments are moot. We are particularly disturbed by the 
stance of National Public Radio on the Low Power rulemaking; NPR is an 
organization that supposedly stands for community radio. Their 
opposition to LPFM (as well as the now unavailable Class D licenses) is 
not compatible with ``community service'': our nearest NPR station is 
2\1/2\ hours and two mountain passes by car, and still calls itself a 
``community service'' (KRCC-FM). This is not our community.
    As you are no doubt aware, this rulemaking received more formal 
positive public comments than any other in FCC history (over 3000 
total), most from individuals and groups (such as ours), who have 
absolutely no financial stake in the passage of LPFM. To pass a bill 
such as HR 3439 would plainly show the undemocratic power of highly 
financed special interests in our government. Please do the right thing 
and listen to the people and not the lobbyists on this issue: do not 
pass this bill. We are serious, voting, every-day citizens, not 
``insiders''; we hope this fact will make our point of view ever more 
valuable to you.
    Thank you.
                                 ______
                                 

  PREPARED STATEMENT OF CHRISTOPHER MAXWELL, SECRETARY/TREASURER, THE 
                  VIRGINIA CENTER FOR THE PUBLIC PRESS

    Dear Honored Representatives of the House, you have a tough job 
ahead of you today.
    The historic choices you make today could either revive 
participatory democracy by creating competitive opportunities for new 
programming OR could destroy the FM dial as we know it.
    Which result is predicted depends on who you talk to.
    So let us consider the testimony of those who many consider the 
most qualified to speak on such technological issues: Industry and 
their engineers.
    The NAB themselves said that the current rules were ``in some 
cases'' overly restrictive. In 1996, The National Association of 
Broadcasters (NAB) argued in docket 99-120 that 3rd and even 2nd 
adjacent frequency ``Short Spaced Grandfathered FM Radio Stations'' 
should have greater flexibility of movement for their transmitters and 
towers. The FCC agreed!
    Then came those who claimed that their voices, their news and their 
cultures were not heard on stations already on the air.
    They wanted a chance at the American Dream--to be who you want to 
be and to share your story with those whose choices and votes affect 
your life.
    They saw that these 30,000 watt stations were transmitting on third 
and even on second adjacent frequencies, AND HAD DONE SO FOR OVER 30 
YEARS!
    There were no complaints found on file at the FCC of citizen's 
radios unable to separate the signals of these 3OkW short spaced 
stations.
    So the supporters of competition effectively said, what's good for 
the NAB is good for the us. If they can, then so can we.
    The NAB naturally disagreed. The Federal Communication Commission 
(FCC) wished that all the petitioners would all go away. We did not go 
away, and the FCC received more comments on the LPFM proposal THAN ANY 
PROPOSAL IN FCC HISTORY. Over 3000 comments were mostly favorable to 
creating competition using the same rules (but at less power) that the 
Short Spaced Full Power stations had been allowed to use for 30+ years.
    Then the NAB said they needed that space to be competitive.
    Competitive how?
    To create Digital Audio Broadcasting (DAB).
    And why would digital make the NAB stations more competitive than 
their 35+% profits indicated?
    The NAB consortium claims is that they were losing listeners to the 
Internet, which is digital and therefore they needed to be digital.
    There were only two wrinkles in that argument.
    Wrinkle one is that Now the NAB had to make a 180 degree change in 
argument. Now the argument is that the space is needed for additional 
energy, only their energy, to be placed on the FM spectrum and that 
this additional energy and bandwidth and that furthermore placing 
digital carriers immediately adjacent analog carriers would cause no 
interference!
    This adds energy sources and places them closer together on the FM 
dial. When the LPFM wanted to do this, the NAB claimed that Physics 
don't change for politics, but now it is OK for NAB to add energy to 
the FM dial.
    Both of the In-Band variants of DAB (IBOC and IBAC) have 
substantial industry support for expanding the stations footprint from 
200kHz to 400kHz.
    The IBAC (In Band Adjacent Channel) variant places (in-effect) two 
multi-thousand watt digital stations on the FIRST adjacent frequencies 
on both sides of the ``host'' analog station.
    The IBOC (In Band On Channel, uses expanded and modified 
subcarriers)
    In both cases, doubling the bandwidth to 400kHz (and at multi-
thousand watt levels) will cause the same and likely worse trouble than 
if we had doubled the number of stations on the FM dial with LPFM 100 
watt stations!
    This argument appears to contradict NAB testimony earlier that same 
year that THIRD and even SECOND adjacent sub 1000 watt 200kHz LPFM 
stations WOULD cause interference.
    So it appears that additional energy sources closer together on the 
FM dial are only interference when they are new entrants.
    The NAB contradict themselves AGAIN with support for their own 
membership's Short Spaced 3rd and 2nd adjacent multi-thousand watt 
``short spaced'' FM stations.* Which is it? The laws of physics don't 
work differently for us than them!
    The second wrinkle is the strange assumption (once explicitly 
stated) that Americans switched to CDs and the Internet merely because 
they are digital.
    Would Americans want the slight increase in sound quality and RDS 
style banner ad services that digital claims to offer enough to 
sacrifice all their millions of radios, especially car radios and 
antique radios?
    Will Americans gladly sacrifice their ability to hear more 
different stations?
    Will America put up with the buzzing that some studies claim that 
first adjacent digital signals would cause for the analog signal?
    Apparent NAB flip-flopping could be incompetence, but that seems 
unlikely.
    The immediate obvious alternative possibility is that the NAB is 
not actually concerned about TECHNICAL interference. The interference 
that the NAB is worried about is the FACT that they have lost 12% of 
their listenership.
    To the Internet, CDs, Tapes and to noncommercial broadcasters.
    Their own industry's consultants, such as Duncan American Radio 
cite the 12% loss of listenership and blame ``villains [such as] 
increased spot loads [ads] and lack of programming innovation.''
    Sony themselves said in the IBAC proceedings (docket 99-325):
        ``The players [of Internet Audio files such as MP3] themselves 
        are offering high quality digital audio and are increasingly 
        becoming a more desirable alternative, in some cases, to the 
        limited variety of music offered on the radio.
    AND
        ``Sony has seen a very slow market penetration in Europe with 
        DAB, which employs the Eureka-147 standard. The disappointing 
        ramp-up is attributable to a service that offers little more 
        than improved audio.''
    THEY EVEN REPEAT THIS ADMISSION:
        ``In Europe, Eureka-147 sales have been very slow. This is 
        largely due to there not being enough incentive for consumers 
        to buy a more expensive radio for simply getting digital 
        quality and very limited data services.
    AND MOST TELLINGLY:
        . . . needs to be more of an impetus for the average consumer 
        to adopt DAB. This impetus is either derived from a variety of 
        new channels or new value-added services. S-DARS in the U.S. 
        has chosen both methods. A value-added service offered by S-
        DARS, as an example, is commercial free radio broadcasting.''
    AND THE FINAL BLOW:
        ``Sony also recognizes the potential benefit of a fixed analog 
        ``sunset'' date to foster a transition to an all-digital 
        service and, believes one should not preclude the other. In 
        fact, both may be necessary to stimulate the market to fully 
        adopt the digital transition.''
    Sony is as much as admitting that few will buy in unless forced to 
by taxpayer funded government agency edict! Only then would we abandon 
our Billion$ inve$ted in analog FM receiver equipment.
    Technology Investor magazine in discussing Worldspace (the 
Satellite Direct radio service already implemented in South Africa) 
said, ``The only complaint: customers want more radio stations, more 
niche stations.''
    So WHAT potential benefits is Sony referring to when they demand 
``encouragement'' of the purchase of their products?
    If you look at Duncan American Radio analysis, there is no mention 
of a desire for ``near CD quality'' nor for the banner ads and artist 
IDs proposed as a variant of the Radio Data Systems (RDS) style radios 
that have already been available since 1979 and have always been a 
crashing market failure!
    And what is ``near CD quality''? Lucent cites in appendix F.1 of 
their 99-325 comments that:
        ``. . . result of the first test indicates that audio 
        compressed by the FM IBOC system has a quality rating of 4.23 
        which is better than best FM (4.05) by approximately 0.2 points 
        on the MOS scale . . . the CD source [on the MOS scale is 
        (4.32)].''
    When that slight an increase in sound quality (mostly in reduced 
noise) has to compete with road noise, wind noise, office noises or is 
on a walkman or a clock radio . . . would anyone notice or care enough 
to spend hundreds of dollars and lose access to the only station that 
had their favorite programming? Significantly, roughly 20% of listeners 
can only find their desired programming on smaller noncommercial 
stations.
    The NAB stations have largely fired the staff that would have 
created that programming innovation or Sony's ``variety of new program 
channels'' and show no sign of rehiring.
    But the NAB doesn't want us to step in and create a new service in 
the finest American Tradition.
    The NAB wants you to approve laws to protect their declining 
ability to serve the public.
    I can almost sympathize with the NAB stations that must cut staff 
for an unrelenting Wall Street demand for greater and greater profits 
in a mature industry--even 35% is not enough.
    In 1992, the NAB supported the world accepted standard for a proven 
technology, pure digital called Eureka 147 on the ``L-Band'' at 
1400mHz. The world has moved forward without us. We could do the same, 
but for the reluctance of the military to allow the constitutional 
government of, by and for the people that they are sworn to protect, to 
use that L-Band for Eureka 147 and create new broadcast opportunities.
    The Eureka 147 at 1400mHz standard was not accepted and so in 
desperation, the NAB wants you to allow them to FORCE a standard for 
technology (IBAC, of unproven value and functionality) that will likely 
destroy smaller church, community and NPR stations ENFORCED AT TAXPAYER 
EXPENSE!!
    In other words, the NAB consortium and NPR want you to chase the 
listeners back into their commercials and national underwriters such as 
Phizer and Archer Daniels Midland by destroying our refuge from crass 
commercial and commercialized NPR programming still provided by local 
noncommercial religious, civic and college radio.
    So you have a hard choice ahead of you today.
    If you allow the NAB to stop LPFM, but then allow the creation of 
FIRST adjacent digital stations, the voters may come down on you when 
their old radios no longer receive anything. This government edict 
would mean voters could hear even fewer stations than they can now.
    If on the other hand, you allow LPFM to create competition, then 
you will likely feel the immediate wrath of the Wall Street funders of 
reelection campaigns that pay for the ads on the stations they own. I 
do not envy your position.
    Notice in this graphic taken from the Lucent Website, that the 
digital carriers are in-effect, two first adjacent stations . . . but 
they would like you to think there will be no bleed into the analog 
station in the middle or stations next door. This suggestion is 
partially graphic--they show the analog as a triangle (actually should 
be a bell curve) and the digital as a block (nature is not that sharp-
edged!)
    Notice that the proposed station mask takes up considerably more 
room than it currently does (now goes from -100 to +100) . . . and that 
the energy level further out is just the same as if two weaker first 
adjacent stations were there.
    Now reinvision those blocks as they should be, bell curves with the 
tails extending to the right and left.

                       FM Digital Transition Plan

[GRAPHIC] [TIFF OMITTED] T2973.003

    That mixing of signals is why I will likely lose the 
ability to hear 100 Watt WDCE90.1FM when WCVE88.9FM at 17.5kW 
goes from 200kHz (and already periodically stomping their 
signal until they get around to maintenance) to 400kHz.
    What happens if WDCE (with an annual budget of about 
$20,000) cannot afford the brand-new $60,000 to $200,000 DAB 
transmitters by the ``Mandatory Sunsetting'' (prohibition) 
date?
    Will fewer stations increase my choices of programming?
    It is clear between the IBOC DAB and LPFM, there is no 
doubt that I WILL be losing access to some stations in the 
coming years. But will the programming variety be replaced?
    I will lose the ability to hear some Washington stations as 
far south as my friend's farm in Ashland, Va. But will I lose 
reception because IBAC Digital Audio Broadcasting destroyed my 
favorite signal with twin first adjacent glorified fax machines 
(the mobile packet digital data delivery a.k.a. ``auxiliary 
services'' like CUE corporation's SCA voicemail beepers) . . . 
or . . .
    . . . will I lose reception of those distant and weaker 
stations because there are hundreds of new stations with all 
kinds of niche programming that are informed by the many 
different programming values of many different owners?
    And why is it suddenly your job to save industry profits 
from competition? The cost of campaigning on the same 
electronic media that has less and less competition.
    Which will save the FM dial's value to its owners, the 
American Public; more different programs such as Sony admits 
the Internet offers, or fewer programs that sound slightly 
better but cost hundred's of dollars more for a required 
purchase of new radios?
    In conclusion and as a hint to that answer, allow me to 
note that when Howard Steam was taken off the air in Richmond, 
the Norfolk station that carried Steam earned a THREE SHARE IN 
THE RICHMOND RADIO MARKET!!! Lack of competition in Richmond is 
causing a dramatic loss of service and economic opportunity so 
that a few anointed elite can tell us what is best for us.
    It is no exaggeration to say that you have the future of 
the American Dream in your hands today.
    Thank-you for allowing me the opportunity to witness this 
moment in the history of American Freedom of the Press, 
economic opportunity, and the fundamental democratic right to 
have your story heard by those whose decisions affect your 
life.

[GRAPHIC] [TIFF OMITTED] T2973.004

[GRAPHIC] [TIFF OMITTED] T2973.005

[GRAPHIC] [TIFF OMITTED] T2973.006

[GRAPHIC] [TIFF OMITTED] T2973.007

[GRAPHIC] [TIFF OMITTED] T2973.008

[GRAPHIC] [TIFF OMITTED] T2973.009

[GRAPHIC] [TIFF OMITTED] T2973.010

[GRAPHIC] [TIFF OMITTED] T2973.011

[GRAPHIC] [TIFF OMITTED] T2973.012

[GRAPHIC] [TIFF OMITTED] T2973.013

[GRAPHIC] [TIFF OMITTED] T2973.014

[GRAPHIC] [TIFF OMITTED] T2973.015

[GRAPHIC] [TIFF OMITTED] T2973.016

[GRAPHIC] [TIFF OMITTED] T2973.017

[GRAPHIC] [TIFF OMITTED] T2973.018

[GRAPHIC] [TIFF OMITTED] T2973.019

[GRAPHIC] [TIFF OMITTED] T2973.020

[GRAPHIC] [TIFF OMITTED] T2973.021

[GRAPHIC] [TIFF OMITTED] T2973.022

[GRAPHIC] [TIFF OMITTED] T2973.023

[GRAPHIC] [TIFF OMITTED] T2973.024

[GRAPHIC] [TIFF OMITTED] T2973.025

[GRAPHIC] [TIFF OMITTED] T2973.026

[GRAPHIC] [TIFF OMITTED] T2973.027

[GRAPHIC] [TIFF OMITTED] T2973.028

[GRAPHIC] [TIFF OMITTED] T2973.029

[GRAPHIC] [TIFF OMITTED] T2973.030

[GRAPHIC] [TIFF OMITTED] T2973.031

[GRAPHIC] [TIFF OMITTED] T2973.032

[GRAPHIC] [TIFF OMITTED] T2973.033

[GRAPHIC] [TIFF OMITTED] T2973.034

[GRAPHIC] [TIFF OMITTED] T2973.035

[GRAPHIC] [TIFF OMITTED] T2973.036

[GRAPHIC] [TIFF OMITTED] T2973.037

[GRAPHIC] [TIFF OMITTED] T2973.038

[GRAPHIC] [TIFF OMITTED] T2973.039

[GRAPHIC] [TIFF OMITTED] T2973.040

[GRAPHIC] [TIFF OMITTED] T2973.041

[GRAPHIC] [TIFF OMITTED] T2973.042

[GRAPHIC] [TIFF OMITTED] T2973.043

[GRAPHIC] [TIFF OMITTED] T2973.044

[GRAPHIC] [TIFF OMITTED] T2973.045

[GRAPHIC] [TIFF OMITTED] T2973.046

[GRAPHIC] [TIFF OMITTED] T2973.047

[GRAPHIC] [TIFF OMITTED] T2973.048

[GRAPHIC] [TIFF OMITTED] T2973.049

[GRAPHIC] [TIFF OMITTED] T2973.050

[GRAPHIC] [TIFF OMITTED] T2973.051

[GRAPHIC] [TIFF OMITTED] T2973.052

[GRAPHIC] [TIFF OMITTED] T2973.053

[GRAPHIC] [TIFF OMITTED] T2973.054

[GRAPHIC] [TIFF OMITTED] T2973.055

[GRAPHIC] [TIFF OMITTED] T2973.056

[GRAPHIC] [TIFF OMITTED] T2973.057

[GRAPHIC] [TIFF OMITTED] T2973.058

[GRAPHIC] [TIFF OMITTED] T2973.059

[GRAPHIC] [TIFF OMITTED] T2973.060

[GRAPHIC] [TIFF OMITTED] T2973.061

[GRAPHIC] [TIFF OMITTED] T2973.062

[GRAPHIC] [TIFF OMITTED] T2973.063

[GRAPHIC] [TIFF OMITTED] T2973.064

[GRAPHIC] [TIFF OMITTED] T2973.065

[GRAPHIC] [TIFF OMITTED] T2973.066

[GRAPHIC] [TIFF OMITTED] T2973.067

[GRAPHIC] [TIFF OMITTED] T2973.068

[GRAPHIC] [TIFF OMITTED] T2973.069

[GRAPHIC] [TIFF OMITTED] T2973.070

[GRAPHIC] [TIFF OMITTED] T2973.071

[GRAPHIC] [TIFF OMITTED] T2973.072

[GRAPHIC] [TIFF OMITTED] T2973.073

[GRAPHIC] [TIFF OMITTED] T2973.074

[GRAPHIC] [TIFF OMITTED] T2973.075

[GRAPHIC] [TIFF OMITTED] T2973.076

[GRAPHIC] [TIFF OMITTED] T2973.077

[GRAPHIC] [TIFF OMITTED] T2973.078

[GRAPHIC] [TIFF OMITTED] T2973.079

[GRAPHIC] [TIFF OMITTED] T2973.080

[GRAPHIC] [TIFF OMITTED] T2973.081


</pre></body></html>
